No. ______

In the

Supreme Court of the United States
————
CHRISTOPHER M. GIBSON,
Petitioner,
v.
SECURITIES AND EXCHANGE COMMISSION, ET AL.,
Respondents.
————
ON PETITION FOR A WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

————
PETITION FOR A WRIT OF CERTIORARI
————
MARGARET A. LITTLE
MARKHAM S. CHENOWETH
NEW CIVIL LIBERTIES
ALLIANCE
1225 19th Street, NW
Suite 450
Washington, DC 20036
DAVID E. HUDSON
HULL BARRETT, PC
801 Broad Street
Suite 700
Augusta, GA 30903

GREGORY G. GARRE
Counsel of Record
BLAKE E. STAFFORD
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com

Counsel for Petitioner

QUESTION PRESENTED
Since the enactment of the Dodd-Frank Wall
Street Reform and Consumer Protection Act in 2010,
the Securities and Exchange Commission (SEC) has
brought an increasing number of enforcement actions
before the agency itself, rather than in federal court.
The SEC routinely delegates its authority to preside
over these actions to its own cadre of administrative
law judges (ALJs). Because these ALJs exercise
“significant authority,” they are “‘Officers of the
United States’” for purposes of the Constitution’s
Appointments Clause. Lucia v. SEC, 138 S. Ct. 2044,
2051-55 (2018) (quoting U.S. Const. art. II, § 2, cl. 2).
For individuals subject to SEC enforcement
proceedings, the ALJs’ actions and findings can have
significant, often life-ruining consequences.
The SEC’s ALJs, however, suffer from a blatant
constitutional defect: they are insulated from removal
by multiple “layers of good-cause tenure” protection,
which this Court found “incompatible with the
Constitution’s separation of powers” in Free
Enterprise Fund v. Public Co. Accounting Oversight
Board, 561 U.S. 477, 497-98 (2010). The ALJs’ actions
also are subject to the same administrative review
scheme that the Court held in Free Enterprise Fund
did not “expressly” or “implicitly” strip federal district
courts of their usual jurisdiction to adjudicate federal
“separation-of-powers claim[s].” Id. at 489-91 & n.2;
see 28 U.S.C. § 1331. The question presented is:
Whether Congress has implicitly stripped federal
district courts of jurisdiction to adjudicate separationof-powers challenges to the authority of SEC ALJs to
preside over enforcement proceedings.

ii
PARTIES TO THE PROCEEDING
Petitioner
(plaintiff-appellant
below)
is
Christopher M. Gibson.
Respondents (defendants-appellees below) are the
Securities and Exchange Commission; Jay Clayton, in
his official capacity as Chairman of the Securities and
Exchange Commission; and William P. Barr, in his
official capacity as Attorney General of the United
States.
RELATED PROCEEDINGS
United States Court of Appeals (11th Cir.):
Gibson v. SEC, No. 19-11969 (Dec. 30, 2019), reh’g
denied (Apr. 1, 2020)
United States District Court (N.D. Ga.):
Gibson v. SEC, No. 19-cv-01014 (May 8, 2019)

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED ......................................... i
PARTIES TO THE PROCEEDING ........................... ii
RELATED PROCEEDINGS ...................................... ii
TABLE OF AUTHORITIES .......................................v
OPINIONS BELOW ....................................................1
JURISDICTION ..........................................................1
CONSTITUTIONAL, STATUTORY, AND
REGULATORY PROVISIONS INVOLVED ........1
INTRODUCTION .......................................................1
STATEMENT OF THE CASE ....................................4
A. SEC Enforcement Actions ................................4
B. Facts and Proceedings Below...........................8
REASONS FOR GRANTING THE PETITION .......14
A. The Circuits Have Divested District
Courts of Jurisdiction over an Important
Class of Constitutional Claims ......................14
B. The Circuits’ Entrenched JurisdictionStripping Rule for This Important Class
of Structural Constitutional Claims
Conflicts with This Court’s Precedent ...........19
C. The Enormous Practical Importance of
the Question Presented Underscores the
Need for This Court’s Review ........................31
CONCLUSION ..........................................................34

iv
TABLE OF CONTENTS—Continued
Page
APPENDIX
Opinion of the United States Court of Appeals
for the Eleventh Circuit, Gibson v.
Securities & Exchange Commission, No.
19-11969 (11th Cir. Dec. 30, 2019) .....................1a
Order of the United States District Court for
the Northern District of Georgia Denying
Plaintiff’s
Motion
for
Preliminary
Injunction, Gibson v. Securities &
Exchange Commission, No. 1:19-cv-01014WMR (N.D. Ga. May 8, 2019).............................7a
Order of the United States Court of Appeals for
the Eleventh Circuit Denying Petition for
Rehearing and Rehearing En Banc, Gibson
v. Securities & Exchange Commission, No.
19-11969 (11th Cir. Apr. 1, 2020).....................11a
Initial Decision of Administrative Law Judge
James E. Grimes, In re Christopher M.
Gibson, Initial Decision Release No. 1398
(SEC Mar. 24, 2020) .........................................12a
U.S. Const. art. II, § 1, cl. 1 ..................................113a
U.S. Const. art. II, § 2, cl. 2 ..................................113a
15 U.S.C. § 78d-1 ...................................................114a
15 U.S.C. § 78y ......................................................116a
15 U.S.C. § 80a-42 .................................................121a
15 U.S.C. § 80b-13 .................................................123a
28 U.S.C. § 1331 ....................................................125a
17 C.F.R. § 201.360 ...............................................126a

v
TABLE OF AUTHORITIES
Page(s)
Associated Securities Corp. v. SEC,
283 F.2d 773 (10th Cir. 1960)..............................24
Bank of America Corp. v. City of Miami,
137 S. Ct. 1296 (2017)..........................................19
Bebo v. SEC,
799 F.3d 765 (7th Cir. 2015), cert. denied,
136 S. Ct. 1500 (2016).............................. 17, 23, 26
Bell v. Hood,
327 U.S. 678 (1946) ..............................................19
Bennett v. SEC,
844 F.3d 174 (4th Cir. 2016).................... 17, 18, 28
Board of Governors of the Federal Reserve
System v. MCorp Financial, Inc.,
502 U.S. 32 (1991) ................................................15
Bond v. United States,
564 U.S. 211 (2011) ........................................22, 31
Cochran v. SEC,
— F.3d —, 2020 WL 4593226 (5th Cir.
Aug. 11, 2020) .............................................. passim
Cochran v. SEC,
No. 4:19-CV-066-A, 2019 WL 1359252
(N.D. Tex. Mar. 25, 2019), aff’d, 2020 WL
4593226 (5th Cir. Aug. 11, 2020) ........................18
Duka v. SEC,
103 F. Supp. 3d 382 (S.D.N.Y. 2015) ..................17
Elgin v. Department of Treasury,
567 U.S. 1 (2012) .......................... 15, 16, 26, 27, 29

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Epic Systems Corp. v. Lewis,
138 S. Ct. 1612 (2018)..........................................30
Free Enterprise Fund v. Public Co.
Accounting Oversight Board,
561 U.S. 477 (2010) ...................................... passim
FTC v. Standard Oil Co. of California,
449 U.S. 232 (1980) ..............................................23
Gray Financial Group, Inc. v. SEC,
166 F. Supp. 3d 1335 (N.D. Ga. 2015),
vacated and remanded sub nom. Hill v.
SEC, 825 F.3d 1236 (11th Cir. 2016) ..................17
Gupta v. SEC,
796 F. Supp. 2d 503 (S.D.N.Y. 2011) ..................17
Hill v. SEC,
114 F. Supp. 3d 1297 (N.D. Ga. 2015)
(May, J.), vacated and remanded, 825 F.3d
1236 (11th Cir. 2016) ...........................................17
Hill v. SEC,
825 F.3d 1236 (11th Cir. 2016).................... passim
Home Depot U.S.A., Inc. v. Jackson,
139 S. Ct. 1743 (2019)..........................................19
Ironridge Global IV, Ltd. v. SEC,
146 F. Supp. 3d 1294 (N.D. Ga. 2015) ................17
Jarkesy v. SEC,
803 F.3d 9 (D.C. Cir. 2015) ..................................17
Jennings v. Rodriguez,
138 S. Ct. 830 (2018)............................................22

vii
TABLE OF AUTHORITIES—Continued
Page(s)
Lucia v. SEC,
138 S. Ct. 2044 (2018).................................. passim
Mathews v. Eldridge,
424 U.S. 319 (1976) ..............................................30
McNary v. Haitian Refugee Center, Inc.,
498 U.S. 479 (1991) ..............................................27
Rodriguez de Quijas v. Shearson/American
Express, Inc.,
490 U.S. 477 (1989) ..............................................28
Saad v. SEC,
718 F.3d 904 (D.C. Cir. 2013) ..............................24
Sackett v. EPA,
566 U.S. 120 (2012) ..............................................19
Seila Law LLC v. CFPB,
140 S. Ct. 2183 (2020).............................. 19, 22, 31
Shalala v. Illinois Council on Long Term
Care, Inc.,
529 U.S. 1 (2000) ...................................... 15, 29, 30
Thunder Basin Coal Co. v. Reich,
510 U.S. 200 (1994) ...................................... passim
Tilton v. SEC,
824 F.3d 276 (2d Cir. 2016), cert. denied,
137 S. Ct. 2187 (2017).................................. passim
United States v. Smith,
440 F.2d 521 (7th Cir. 1971)................................19
Verizon Maryland, Inc. v. Public Service
Commission of Maryland,
535 U.S. 635 (2002) ..............................................15

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Wisconsin Central Ltd. v. United States,
138 S. Ct. 2067 (2018)..........................................29
Wisconsin Gas Co. v. FERC,
758 F.2d 669 (D.C. Cir. 1985) ..............................24
AGENCY RELEASES
In re Clifton, Exchange Act Release
No. 70639, 2013 WL 5553865 (Oct. 9,
2013) .....................................................................24
Exchange Act Release No. 14156, 1977 WL
190058 (Nov. 9, 1977) ..........................................10
In re Gibson, Exchange Act Release No.
77466, 2016 WL 1213259 (Mar. 29, 2016) ..........10
In re Gibson, Exchange Act Release No.
80163, 2017 WL 1035744 (Mar. 6, 2017). ...........11
In re Gibson, Exchange Act Release No.
88799, 2020 WL 2097824 (May 1, 2020) .............12
In re Gibson,
Initial Decision Release No. 1106, 2017
WL 371868 (ALJ Jan. 25, 2017) ..........................11
In re Southeast Investments, N.C., Inc.,
Exchange Act Release No. 86097, 2019 WL
2448245 (June 12, 2019) ........................................7
CONSTITUTIONAL PROVISIONS,
STATUTES AND REGULATIONS
U.S. Const. art. II, § 2, cl. 2 .................................... i, 2
5 U.S.C. § 705 ........................................................... 24
5 U.S.C. § 1202(d)........................................................6

ix
TABLE OF AUTHORITIES—Continued
Page(s)
5 U.S.C. § 7521(a)........................................................6
15 U.S.C. § 78d-1(b) ....................................................6
15 U.S.C. § 78y ..........................................................19
15 U.S.C. § 78y(a)(1) .............................................6, 22
15 U.S.C. § 78y(c)(2) ..............................................7, 24
15 U.S.C. § 80a-42(a) ..................................................6
15 U.S.C. § 80b-13(a) ..................................................6
15 U.S.C. § 80b-13(b) ............................................7, 24
28 U.S.C. § 1254(1)......................................................1
28 U.S.C. § 1331 .........................................i, 14, 16, 19
17 C.F.R. § 201.360(d) .................................................7
OTHER AUTHORITIES
Admin. Office of U.S. Courts, Table B-7: U.S.
Courts of Appeals—Civil and Criminal
Appeals Commenced, by Cases and Nature
of Suit or Offense, During the 12-Month
Period Ending September 30, 2019 (2019)
(https://www.uscourts.gov/sites/default/
files/data_tables/jb_b7_0930.2019.pdf ................17
Div. of Enf’t, SEC, 2019 Annual Report (2019),
https://www.sec.gov/files/enforcementannual-report-2019.pdf..........................................5
Jean Eaglesham, SEC Wins with In-House
Judges, Wall St. J. (May 6, 2015),
https://www.wsj.com/articles/sec-winswith-in-house-judges-1430965803 ....................5, 6

x
TABLE OF AUTHORITIES—Continued
Page(s)
Adam M. Katz, Note, Eventual Judicial
Review, 118 Colum. L. Rev. 1139 (2018) .............22
Gideon Mark, SEC and CFTC Administrative
Proceedings, 19 U. Pa. J. Const. L. 45
(2016) ......................................................................7
Sup. Ct. R. 10(c) ........................................................18

PETITION FOR A WRIT OF CERTIORARI
Petitioner Christopher M. Gibson respectfully
petitions this Court for a writ of certiorari to review
the judgment of the United States Court of Appeals
for the Eleventh Circuit in this case.
OPINIONS BELOW
The opinion of the court of appeals (App. 1a-6a) is
available at 795 F. App’x 753. The order of the district
court (App. 7a-10a) is available at 2019 WL 5698679.
JURISDICTION
The court of appeals entered its judgment on
December 30, 2019 (App. 1a) and denied a timely
petition for rehearing on April 1, 2020 (App. 11a). On
March 19, 2020, this Court entered an order
extending the deadline for filing a petition for a writ
of certiorari to 150 days from the date of an order
denying a timely petition for rehearing. This Court
has jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL, STATUTORY, AND
REGULATORY PROVISIONS INVOLVED
Pertinent constitutional, statutory, and regulatory
provisions are reproduced at App. 113a-30a.
INTRODUCTION
This case concerns the statutory jurisdiction of
federal district courts to consider structural
constitutional claims that directly impact individual
liberty. When individuals like petitioner Christopher
Gibson are accused of violating the securities laws in
a civil enforcement proceeding brought by the
Securities and Exchange Commission (SEC or
Commission), they typically find themselves before
administrative law judges (ALJs) who preside over

2
lengthy proceedings in which, statistics show, the
SEC enjoys a distinct home-court advantage. As has
been true for Gibson, these proceedings often impose
a crushing personal and financial burden on their
subjects, jeopardizing their very livelihood. Yet,
according to the SEC, there is no right of judicial
review in an Article III court for structural
constitutional claims challenging the legitimacy of
this administrative decisionmaker until an
enforcement action has made its way past the ALJ
and past the Commission, and the respondent has
paid any penalty assessed by the SEC. This can be,
and typically is, a lengthy ordeal that leaves most
respondents—even those who vigorously maintain
that they have not violated the securities laws—with
little choice but to settle with the SEC before they
ever have an opportunity to see an Article III judge.
What makes this ordeal all the more troubling is
that a glaring constitutional defect pervades the
structure of these proceedings and undermines the
legitimacy of the SEC’s use of ALJs as the primary
decisionmaker. As this Court has held, SEC ALJs—
who exercise “extensive” authority over enforcement
proceedings and the subjects of such proceedings—are
full-fledged “‘Officers of the United States’” for
purposes of the Constitution’s Appointments Clause.
Lucia v. SEC, 138 S. Ct. 2044, 2049-52 (2018) (quoting
U.S. Const. art. II, § 2, cl. 2). Yet the ALJs are
insulated from removal by a regime of multiple
“layers of good-cause tenure” protection—a regime
that this Court declared “incompatible with the
Constitution’s separation of powers” in Free
Enterprise Fund v. Public Co. Accounting Oversight
Board, 561 U.S. 477, 497-98 (2010).
This
multilayered protection is a structural constitutional

3
violation that taints the authority of these frontline
decisionmakers and all the proceedings that follow.
Faced with the prospect of ruinous proceedings
superintended by an Executive-branch officer acting
without legitimate constitutional authority, private
citizens like Gibson naturally seek relief in the federal
courts, which have long exercised their federalquestion jurisdiction to “‘protect rights safeguarded
by the Constitution’” by “‘preventing entities from
acting unconstitutionally.’” Id. at 491 n.2 (citations
omitted). But five circuits—including the Eleventh
Circuit below—have nevertheless held, over the
disagreement of several federal judges, that an
individual like Gibson cannot obtain immediate
judicial review in an Article III court of his claim that
perhaps the most important decisionmaker in his case
lacks constitutional authority. Instead, these circuits
require first running the entire gauntlet of the SEC’s
own enforcement proceedings, something that can
take years and often destroys its subjects before any
opportunity for judicial review arises.
This makes no sense.
As this Court itself
recognized in Free Enterprise Fund, the securities
laws do not “expressly” strip district courts of
jurisdiction over such claims. Id. at 489. Instead, the
circuits have held that, under the multifactor test of
Thunder Basin Coal Co. v. Reich, 510 U.S. 200 (1994),
Congress impliedly stripped district courts of
jurisdiction over structural constitutional challenges
merely by creating an administrative review scheme
for
resolving
individual
SEC
enforcement
proceedings. But Free Enterprise Fund squarely
rejected such a sweeping application of Thunder
Basin in the context of a directly analogous challenge
to unconstitutionally insulated officers. The Court

4
held that this same SEC review scheme did not
“implicitly” strip federal district courts of their usual
jurisdiction to adjudicate “an Appointments Clause or
separation-of-powers claim” in the first instance. 561
U.S. at 489-91 & n.2.
As two dissenting judges from the Second and
Fifth Circuits and multiple district court judges have
persuasively reasoned, there is no basis for departing
from Free Enterprise Fund’s jurisdictional holding for
challenges to ALJs’ constitutional authority to
preside over enforcement actions. Nor is there any
valid reason to bar individuals like Gibson who find
themselves in the crosshairs of an SEC enforcement
action from bringing this kind of first-order,
structural constitutional challenge in a federal
district court.
Because this rule has become
entrenched, this Court’s intervention is needed to
ensure that individuals are not improperly denied a
federal forum in which to seek relief before they have
suffered at the hands of an unconstitutionally
insulated agency official. The petition should be
granted.
STATEMENT OF THE CASE
A. SEC Enforcement Actions
1. The Dodd-Frank Wall Street Reform and
Consumer Protection Act of 2010 “dramatically
expanded” the authority of the SEC to impose
penalties administratively, making administrative
proceedings “essentially ‘coextensive with [the SEC’s]
authority to seek penalties in Federal court.’” Tilton
v. SEC, 824 F.3d 276, 279 (2d Cir. 2016) (alteration in
original) (citation omitted), cert. denied, 137 S. Ct.
2187 (2017). Since then, the SEC has shifted its
enforcement efforts to its home court, where the

5
SEC’s own ALJs preside over cases. See Lucia, 138 S.
Ct. at 2049. In fiscal year 2019, for example, the SEC
brought nearly 77% of its enforcement proceedings in
its in-house tribunal before its own ALJs. Div. of
Enf’t, SEC, 2019 Annual Report 29 (2019).1
This is hardly a coincidence. Unsurprisingly, the
SEC fares far better before its own ALJs than it does
before Article III judges. One study found that,
between October 2010 and March 2015, the
Commission won more than 90% of cases it brought
before its own ALJs, a rate markedly higher than its
69% success rate in federal court over the same
period. Jean Eaglesham, SEC Wins with In-House
Judges, Wall St. J. (May 6, 2015).2
In presiding over these in-house proceedings, SEC
ALJs wield “extensive powers.” Lucia, 138 S. Ct. at
2049. ALJs “‘regulat[e] the course of’ the proceeding
and the ‘conduct of the parties and their counsel’”—
e.g., by “supervising discovery; issuing, revoking, or
modifying subpoenas; deciding motions; ruling on the
admissibility of evidence; administering oaths;
hearing and examining witnesses; . . . and imposing
sanctions”—which can be “severe”—for “violations of
[their]
orders,”
“violations
of
procedural
requirements,”
or
otherwise
“‘contemptuous
conduct.’” Id. at 2049, 2053 (citations and internal
alterations omitted). Once the proceedings conclude,
ALJs issue publicly available “decisions containing
factual findings, legal conclusions, and appropriate
remedies.” Id. at 2053. As a result of their expansive
1 https://www.sec.gov/files/enforcement-annual-report2019.pdf.
2

https://www.wsj.com/articles/sec-wins-with-in-housejudges-1430965803.

6
powers—nearly coextensive with those of “federal
trial judges”—this Court has held that SEC ALJs “are
‘Officers of the United States,’ subject to the
Appointments Clause.” Id. at 2053, 2055.
Nevertheless, SEC ALJs are separated from the
oversight and removal of the Chief Executive by not
just one but multiple “layers of good-cause tenure”
protection. Free Enter. Fund, 561 U.S. at 496-97. At
a minimum, there are two layers of protection from
removal: ALJs can be removed “only for good cause
established and determined by the Merit Systems
Protection Board [(MSPB)],” 5 U.S.C. § 7521(a), and
MSPB officials are removable by the President “only
for inefficiency, neglect of duty, or malfeasance in
office,” id. § 1202(d). This scheme thus establishes at
least “dual for-cause limitations” on ALJs’ removal.
Free Enter. Fund, 561 U.S. at 492.
2. Parties can petition the Commission for
“discretionary” review of adverse ALJ decisions. 15
U.S.C. § 78d-1(b). If the Commission declines review,
“the ALJ’s decision itself ‘becomes final’ and is
‘deemed the action of the Commission.’” Lucia, 138 S.
Ct. at 2054 (citations omitted). Moreover, even when
the Commission grants review, it typically defers to
the ALJ’s “findings of fact,” and when the “factfinding
derives from credibility judgments, as it frequently
does, acceptance [by the Commission] is nearautomatic.” Id. at 2054-55; see also Eaglesham, supra
(noting that the Commission adopted the ALJ’s
factual findings 95% of the time).
A party “aggrieved by a final order of the
Commission” may then seek judicial review of that
order in a federal court of appeals. 15 U.S.C.
§ 78y(a)(1); see id. §§ 80a-42(a), 80b-13(a). But the
sanctions imposed by the SEC do not await judicial

7
review. Absent a stay—which typically is difficult to
obtain—the SEC can collect any monetary penalties
as well as suspend an individual’s professional
licenses and, accordingly, upend his or her livelihood,
all before the individual ever sees the inside of an
Article III court. See id. §§ 78y(c)(2), 80b-13(b); 17
C.F.R. § 201.360(d); see also, e.g., In re Se. Invs., N.C.,
Inc., Exchange Act Release No. 86097, 2019 WL
2448245, at *2 (June 12, 2019) (describing a stay as
an “‘extraordinary remedy’” (citation omitted)).
Because it can take years to get to this point, at
enormous financial cost, many individuals—despite
vigorously contesting their guilt—have little practical
choice but to settle with the SEC and try to rebuild
their lives before they get to a federal court. See
Gideon Mark, SEC and CFTC Administrative
Proceedings, 19 U. Pa. J. Const. L. 45, 57 (2016)
(noting that between 2002 and 2014, the SEC settled
“about 98%” of cases). As a result, most individuals
never have an opportunity to present their claims to
an Article III court, even when they dispute the
authority of the decisionmaker.
In Free Enterprise Fund, this Court concluded that
this same administrative review scheme did not
“strip” federal district courts of their jurisdiction over
“an Appointments Clause or separation-of-powers
claim” challenging the authority of the Public
Company Accounting Oversight Board, another body
of inferior officers exercising authority under the
SEC. 561 U.S. at 487-91 & n.2. As the Court
explained, this review scheme “does not expressly
limit the jurisdiction that other statutes confer on
district courts.” Id. at 489. Likewise, the Court held,
it does not do so “implicitly” under Thunder Basin—
the “‘statutory scheme’” does not “display[] a ‘fairly

8
discernible’ intent to limit jurisdiction,” and claims
challenging
the
constitutional
authority
of
decisionmakers are not “‘of the type Congress
intended to be reviewed within th[e] statutory
structure.’” Free Enter. Fund, 561 U.S. at 489-91
(second alteration in original) (quoting Thunder
Basin, 510 U.S. at 207, 212).
To date, however, the five circuits to consider the
issue have held that, contrary to Free Enterprise
Fund’s application of Thunder Basin to the same
statutory scheme, district courts lack jurisdiction to
adjudicate challenges to the constitutional authority
of SEC ALJs. See infra at 17-18. According to these
circuits, such challenges must be brought before the
SEC ALJs themselves, and then the Commission,
before they can reach an Article III court.
B. Facts and Proceedings Below
1. Christopher Gibson, a former investment
adviser, has been trapped in an SEC nightmare for
much of his professional life. Gibson graduated from
college in 2006. App. 18a. Following a two-year stint
working in investment banking in New York, he
returned home to Augusta, Georgia. Id. at 18a-19a.
He passed the investment advisers examination and
began working for James Hull, a friend of Gibson’s
family and successful real estate developer. Id. at
18a-20a. After Gibson generated six months of
successful returns for Hull on various commodities
investments, Hull had Gibson set up the Geier
International Strategies Fund, LLC (the Fund). Id.
at 12a, 20a-21a.
By February 2010, the Fund held some $32
million, with 80% belonging to Hull and 10% to his
friends. Compl. ¶ 42, D. Ct. Doc. 1 (Mar. 4, 2019). The

9
remaining 10% belonged to Gibson and his family,
and it reflected Hull’s insistence that Gibson and his
family have “skin in the game”—Hull required Gibson
to invest his entire net worth in the Fund or in the
securities in which the Fund invested, and he loaned
Gibson and his father more than $1 million to invest
in demand notes that he refused to let them
extinguish.
App. 24a-25a, 94a.
This severe
arrangement meant that “if the Fund lost money,”
Gibson and his family “would lose more than other
investors.” Id. at 24a-25a.
In late 2010, Hull directed Gibson to move the
Fund’s investments from commodities into the
securities of a single company that could serve as a
proxy for gold. Id. at 29a-30a. After researching the
matter, Gibson recommended Tanzanian Royalty
Exploration Corporation (TRX) as an investment
vehicle. Id. Hull agreed and approved the Fund’s
investment in TRX shares. See id.
By the end of April 2011, the Fund had invested
all of its assets in TRX. Id. at 30a. Hull, Gibson, and
Gibson’s family members had also purchased TRX
shares outside of the Fund. See id. at 36a-38a. But
later that year, the TRX share price began to
inexplicably decline, and Hull and Gibson ultimately
decided to reduce their and the Fund’s TRX position.
Id. at 30a-35a. By November 2011, the Fund had sold
all of its TRX shares at a substantial loss. Id. at 36a55a. Gibson had also sold the TRX shares he and his
family owned outside of the Fund as well as the TRX
shares personally owned by Hull. See id. Gibson
personally lost more than $700,000—wiping out his
own assets. Id. at 56a.
2. a. Following a two-year investigation, the SEC
issued an Order Instituting Proceedings (OIP) in 2016

10
charging Gibson with violating the Securities
Exchange Act and the Investment Advisors Act based
on the particular order in which Gibson executed the
sales of the TRX shares. In re Gibson, Exchange Act
Release No. 77466, 2016 WL 1213259 (Mar. 29, 2016).
Specifically, the SEC claimed that Gibson engaged
in impermissible “front running,” in breach of his
fiduciary duties to the Fund as its investment adviser,
by selling a small fraction (less than one percent) of
the shares he personally owned or controlled just
before selling a portion of the Fund’s shares, and by
purchasing put options as the TRX price tumbled to
mitigate his losses. Id. at *4-8.3 The SEC also
claimed that Gibson “favored” Hull over the Fund
(despite Hull’s 80% ownership in the Fund) by
consolidating Hull’s personally owned TRX shares
with the Fund’s shares to facilitate a block sale. Id.
at *5-6. Notably, none of these mechanical aspects of
the TRX sales actually harmed the Fund. App. 92a,
101a.
Consistent with its preference to litigate before its
in-house tribunal, the Commission elected to proceed
administratively rather than in federal court. The
case was assigned to ALJ Brenda Murray, who had
3 The term “front running” generally means “trading a
security while in possession of unreported information
concerning” a client’s imminent “block transaction in the same
or a related security.” Exchange Act Release No. 14156, 1977
WL 190058, at *1 (Nov. 9, 1977). There is, however, “no specific
statute or regulation prohibiting front running,” and “unlike
insider trading, which courts have long addressed under the
federal securities laws, there is little case law addressing front
running under the antifraud provisions of federal securities
law.” App. 66a-67a. As a result, the SEC has largely defined the
scope of this practice on an ad hoc basis.

11
not been properly appointed for purposes of the
Appointments Clause. Compl. ¶ 73. ALJ Murray
ruled on pre-hearing motions, received substantial
briefing, and presided over a week-long trial-like
hearing at which witnesses testified and were crossexamined, documents were introduced, and objections
were made and ruled on. See id. ¶¶ 73-75. One
witness, however, was notably absent—Hull, who
refused to testify after SEC officials misrepresented
to him during an investigative interview that, while
serving as the Fund’s investment adviser, Gibson had
personally taken a short position in TRX, essentially
betting that the stock’s price would decline. App.
106a; Compl. ¶¶ 64-70. This claim was patently
untrue, and it pitted Hull against Gibson and his
family for years. See App. 106a.
In January 2017, ALJ Murray issued an initial
decision concluding that Gibson violated various
provisions of the Securities Exchange Act, the
Investment Advisers Act, and the rules thereunder.
In re Gibson, Initial Decision Release No. 1106, 2017
WL 371868 (ALJ Jan. 25, 2017). ALJ Murray
accordingly banned Gibson from the industry and
ordered him to pay more than $292,000 in civil
penalties and disgorgement. Id. at *36-42.
Gibson petitioned the Commission for review of
ALJ Murray’s decision, which the Commission
granted in March 2017. In re Gibson, Exchange Act
Release No. 80163, 2017 WL 1035744 (Mar. 6, 2017).
Eighteen months later, the Commission vacated ALJ
Murray’s decision and all of the proceedings
preceding it in light of this Court’s decision in Lucia,
which held that the remedy for an “adjudication
tainted with an appointments violation” is a new

12
proceeding before a different and properly appointed
official. 138 S. Ct. at 2055; see App. 14a-15a.
b. In October 2018—now more than seven years
after the underlying trades occurred—the SEC served
Gibson with a second OIP, identical to the first.
Compl. ¶ 93. This time, Gibson’s case was assigned
to ALJ James Grimes. Like ALJ Murray, ALJ Grimes
ordered pre-hearing proceedings, ruled on several
motions, and then presided over a week-long hearing
beginning in July 2019. See App. 15a. By this time,
Hull had learned that Gibson had not taken a short
position in TRX as the SEC staff had previously
misrepresented, so he agreed to testify. Id. at 106a.
In March 2020, ALJ Grimes issued a lengthy
initial decision concluding that Gibson violated
various provisions of the Securities Exchange Act, the
Investment Advisers Act, and the rules thereunder.
Id. at 12a-112a. He summarily rejected Gibson’s
constitutional arguments, including his contention
that “the tenure protections that apply to the
Commission’s administrative law judges violate the
Constitution’s separation of powers.” Id. at 105a109a. ALJ Grimes banned Gibson from the securities
industry for at least three years and ordered him to
pay more than $184,000 in civil penalties and
disgorgement. Id. at 87a-104a, 109a-111a.
Gibson once again petitioned the Commission for
review. The Commission granted the petition, In re
Gibson, Exchange Act Release No. 88799, 2020 WL
2097824 (May 1, 2020), and the parties completed
briefing in July 2020. The case remains pending
before the Commission, which has given no indication
that it intends to resolve Gibson’s case anytime soon.

13
3. In 2019, while the administrative proceedings
were underway, Gibson filed suit against the SEC in
the District Court for the Northern District of
Georgia. App. 7a. Relying on Free Enterprise Fund,
Gibson sought declaratory and preliminary injunctive
relief based on the constitutional deficiencies in the
SEC’s administrative proceedings. Compl. ¶¶ 96-112.
As relevant here, Gibson claimed that SEC ALJs
cannot preside over the proceedings because they are
unconstitutionally insulated from removal by a
multilayer for-cause structure analogous to the
structure this Court held unconstitutional in Free
Enterprise Fund. App. 7a-8a; see Compl. ¶ 112.
The district court denied Gibson’s motion for a
preliminary injunction and dismissed the case for
lack of jurisdiction. App. 7a-10a. The court concluded
that it was bound by the Eleventh Circuit’s decision
in Hill v. SEC, 825 F.3d 1236 (11th Cir. 2016), which
held that, under Thunder Basin, the “statutory
review scheme” provided in the securities laws
“preclude[s] district court jurisdiction.” App. 8a-9a
(citing Hill, 825 F.3d at 1241, 1252).
4. The Eleventh Circuit affirmed. Id. at 1a-6a.
Relying on its prior decision in Hill, the court
“discerned no Congressional intention” for not forcing
Gibson’s constitutional separation-of-powers claim
into “the SEC statutory scheme.” Id. at 4a-6a. The
court marched through the Thunder Basin factors,
concluding that “meaningful judicial review” is
available in the court of appeals after the
administrative proceedings have run their course;
that the SEC “may” have “expertise” in deciding
“threshold issues” unrelated to the constitutional
question; and that Gibson’s challenge to the ALJ’s
authority is “‘inextricably intertwined’” with the

14
administrative proceeding.
Id. at 6a (citation
omitted). The Eleventh Circuit denied Gibson’s
petition for rehearing en banc. Id. at 11a.
REASONS FOR GRANTING THE PETITION
This case presents a recurring question of
exceptional importance concerning the right of
individuals, like Gibson, to access a federal district
court to vindicate a structural constitutional
safeguard “‘critical to preserving liberty.’” Free Enter.
Fund v. Public Co. Accounting Oversight Bd., 561 U.S.
477, 501 (2010) (citation omitted). By holding that
federal district courts have been impliedly stripped of
their jurisdiction to enjoin SEC ALJs from
unconstitutionally wielding their “extensive powers,”
Lucia v. SEC, 138 S. Ct. 2044, 2049 (2018), the
decision below imposes unwarranted—and in many
cases life-ruining—burdens on those individuals
before they may ever present their challenges to an
Article III court.
That decision conflicts with
decisions of this Court and opinions of several lowercourt judges. And it improperly strips federal district
courts of their statutorily granted jurisdiction to hear
a critical class of structural constitutional claims
based on untenable implications drawn from a
general statutory scheme. Certiorari is warranted.
A. The Circuits Have Divested District
Courts of Jurisdiction over an Important
Class of Constitutional Claims
1. Congress granted federal district courts
“original jurisdiction of all civil actions arising under
the Constitution.” 28 U.S.C. § 1331. This federalquestion jurisdiction “‘has long been recognized’” as a
bulwark for “‘protect[ing] rights safeguarded by the
Constitution.’” Free Enter. Fund, 561 U.S. at 491 n.2

15
(citations omitted). And while Congress of course can,
and occasionally does, “exclude[]” certain claims from
the jurisdiction of federal district courts, it typically
does so “expressly.” Verizon Md., Inc. v. Pub. Serv.
Comm’n of Md., 535 U.S. 635, 644 (2002); see also, e.g.,
Shalala v. Illinois Council on Long Term Care, Inc.,
529 U.S. 1, 5 (2000) (“explicitly”); Board of Governors
of the Fed. Reserve Sys. v. MCorp Fin., Inc., 502 U.S.
32, 44 (1991) (“clearly and directly”).
This Court has held that, in certain instances, the
provisions of an administrative review scheme may
demonstrate that “Congress intended” for that
scheme to be “exclusive,” even if it does not “facially”
eliminate federal-question jurisdiction.
Thunder
Basin Coal Co. v. Reich, 510 U.S. 200, 208, 212-16
(1994). But this kind of “implied” jurisdictionstripping, Elgin v. Department of Treasury, 567 U.S.
1, 12 (2012), is “[g]enerally” confined to instances in
which “‘agency expertise [will] be brought to bear on
particular problems,’” Free Enter. Fund, 561 U.S. at
489 (citation omitted). And every case in which this
Court has found such implied jurisdiction-stripping
involved challenges to the agency’s decision, not to the
constitutional legitimacy of the decisionmaker.
In Thunder Basin, for example, the Court held
that an administrative review scheme impliedly
precluded a pre-enforcement challenge brought by a
mining company seeking to enjoin an order issued by
the Mine Safety and Health Administration. 510 U.S.
at 216. The company’s challenge raised discrete,
individualized claims that fell “squarely within the
Commission’s expertise” and could be “meaningfully
addressed” in federal court after agency proceedings
had concluded. Id. at 214-18 & n.22. Similarly, in
Elgin, the Court held that the administrative review

16
scheme established by the Civil Service Reform Act
(CSRA) impliedly precluded employees from
“challeng[ing] an adverse employment action” in
federal court on the ground “that [the applicable]
federal statute is unconstitutional.” 567 U.S. at 5.
“‘[A]t bottom,’” the case involved a “challenge to
CSRA-covered employment action brought by CSRAcovered employees requesting relief that the CSRA
routinely affords.” Id. at 22-23 (citation omitted).
Under Thunder Basin, a statutory scheme does
not impliedly strip district courts of “the jurisdiction
that other statutes confer”—such as federal-question
jurisdiction under 28 U.S.C. § 1331—“unless the
‘statutory scheme’ displays a ‘fairly discernible’ intent
to limit jurisdiction, and the claims at issue ‘are of the
type Congress intended to be reviewed within th[e]
statutory structure.’” Free Enterprise Fund, 561 U.S.
at 489 (alteration in original) (quoting Thunder
Basin, 510 U.S. at 207, 212). Moreover, courts must
“presume that Congress does not intend to limit
jurisdiction if ‘a finding of preclusion could foreclose
all meaningful judicial review’; if the suit is ‘wholly
collateral to a statute’s review provisions’; and if the
claims are ‘outside the agency’s expertise.’” Id.
(quoting Thunder Basin, 510 U.S. at 212-13).
2. Lower-court judges have disagreed over
whether Congress has impliedly stripped federal
courts
of
jurisdiction
over
the structural
constitutional claim at issue in this case—a challenge
to the constitutional legitimacy of ALJs overseeing
SEC administrative proceedings.
Applying this
Court’s precedents, including the Thunder Basin
framework, multiple judges have concluded that
Congress has not done so. See, e.g., Cochran v. SEC,
— F.3d —, 2020 WL 4593226, at *8-9 (5th Cir. Aug.

17
11, 2020) (Haynes, J., dissenting in part); Tilton v.
SEC, 824 F.3d 276, 292 (2d Cir. 2016) (Droney, J.,
dissenting), cert. denied, 137 S. Ct. 2187 (2017); Duka
v. SEC, 103 F. Supp. 3d 382, 390 (S.D.N.Y. 2015)
(Berman, J.); Gray Fin. Grp., Inc. v. SEC, 166 F.
Supp. 3d 1335, 1343-44 (N.D. Ga. 2015) (May, J.),
vacated and remanded sub nom. Hill v. SEC, 825 F.3d
1236 (11th Cir. 2016); Ironridge Glob. IV, Ltd. v. SEC,
146 F. Supp. 3d 1294, 1303-04 (N.D. Ga. 2015) (May,
J.); Hill v. SEC, 114 F. Supp. 3d 1297, 1306 (N.D. Ga.
2015) (May, J.), vacated and remanded, 825 F.3d 1236
(11th Cir. 2016); see also Gupta v. SEC, 796 F. Supp.
2d 503, 512-13 (S.D.N.Y. 2011) (Rakoff, J.).
Nevertheless, five circuits have held—albeit over
two strong dissenting opinions—that district courts
have been impliedly stripped of their general federalquestion jurisdiction to adjudicate claims challenging
the constitutional legitimacy of SEC ALJs. See
Cochran, 2020 WL 4593226, at *1 (5th Cir.); Bennett
v. SEC, 844 F.3d 174, 188 (4th Cir. 2016); Hill v. SEC,
825 F.3d 1236, 1241 (11th Cir. 2016); Tilton, 824 F.3d
at 291 (2d Cir.); Bebo v. SEC, 799 F.3d 765, 767 (7th
Cir. 2015), cert. denied, 136 S. Ct. 1500 (2016).4 These
circuits hear the vast majority of the country’s
securities cases.5 And under their rule, individuals
4

The D.C. Circuit reached the same conclusion in a case
involving a constitutional “non-delegation challenge.” Jarkesy v.
SEC, 803 F.3d 9, 17-18 (D.C. Cir. 2015). Jarkesy, however, did
not involve Article II appointments or removal claims
challenging the authority of ALJs.
5 See Admin. Office of U.S. Courts, Table B-7: U.S. Courts of
Appeals—Civil and Criminal Appeals Commenced, by Cases and
Nature of Suit or Offense, During the 12-Month Period Ending
September 30, 2019 (2019), https://www.uscourts.gov/
sites/default/files/data_tables/jb_b7_0930.2019.pdf.

18
ensnared in SEC enforcement proceedings helmed by
unconstitutionally insulated federal officers have no
recourse until the “unlawful administrative process
has run its course”—no matter how “great [the] cost”
financially, professionally, or personally. Hill, 825
F.3d at 1245.
These often ruinous and
unconstitutionally imposed consequences are deemed
by these courts to be “‘part of the social burden of
living under government.’” Bennett, 844 F.3d at 185
(citation omitted); see Tilton, 824 F.3d at 285
(“financial and emotional costs” are “simply the price
of participating in the American legal system”).
Ordinarily, of course, this Court awaits a circuit
conflict before granting review. But as explained
below, the circuits’ position squarely conflicts with
this Court’s own precedent. See Sup. Ct. R. 10(c). The
fact that so many circuits have followed one another
in committing this error is a reason for granting, not
denying, review. Indeed, the courts have relied on the
entrenched nature of this rule as a reason for hewing
to it. Cf. Cochran, 2020 WL 4593226, at *6 n.9
(chiding the dissent for “taking the position that we
should create a split with five other circuits”). This
Court’s intervention is needed. That is especially true
because the prevailing rule in the circuits not only
departs from this Court’s precedent on a question of
federal jurisdiction over a critical class of
constitutional claims, but also exacts a harsh toll on
individuals otherwise condemned to expensive and
protracted proceedings before the very officials whom
they claim lack constitutional authority. This state of
affairs is “deeply concern[ing]” to say the least.
Cochran v. SEC, No. 4:19-CV-066-A, 2019 WL
1359252, at *2 (N.D. Tex. Mar. 25, 2019), aff’d, 2020
WL 4593226 (5th Cir. Aug. 11, 2020).

19
This Court has granted certiorari in similar
circumstances, despite the absence of a circuit split.
See, e.g., Sackett v. EPA, 566 U.S. 120 (2012); see also
Seila Law LLC v. CFPB, 140 S. Ct. 2183 (2020); Home
Depot U.S.A., Inc. v. Jackson, 139 S. Ct. 1743 (2019);
Bank of Am. Corp. v. City of Miami, 137 S. Ct. 1296
(2017). It should do so here as well, before more
circuits join the “parade [that] is marching in the
wrong direction.” United States v. Smith, 440 F.2d
521, 527 (7th Cir. 1971) (Stevens, J., dissenting).
B. The Circuits’ Entrenched JurisdictionStripping Rule for This Important Class of
Structural
Constitutional
Claims
Conflicts with This Court’s Precedent
The entrenched jurisdiction-stripping rule in the
circuits sharply conflicts with this Court’s precedent.
1. As this Court has long stressed, federal courts
have jurisdiction under 28 U.S.C. § 1331 “to issue
injunctions to protect rights safeguarded by the
Constitution.” Bell v. Hood, 327 U.S. 678, 684 (1946).
Federal-question jurisdiction serves as a bulwark
against the deprivation of individual liberty and civil
rights, ensuring that an immediate Article III
tribunal stands ready to “‘prevent[] [governmental]
entities from acting unconstitutionally.’” Free Enter.
Fund, 561 U.S. at 491 n.2 (citation omitted).
In Free Enterprise Fund, the Court held—in a
portion of its opinion that elicited no dissent—that the
same administrative review scheme at issue here (15
U.S.C. § 78y) did not “strip” district courts of that
jurisdiction with respect to claims that the members
of the Public Company Accounting Oversight Board
were unconstitutionally insulated from removal. 561
U.S. at 489-91. As the Court explained, the “text [of

20
Section 78y] does not expressly limit [such]
jurisdiction,” “[n]or does it do so implicitly.” Id. at
489. The Court thus rejected the Government’s
efforts to reimagine that scheme “as an exclusive
route to review.” Id. In doing so, the Court considered
each of the Thunder Basin factors—the availability of
“‘meaningful judicial review,’” the claim’s “‘wholly
collateral’” nature, and agency “‘expertise’”—and
concluded that they “point[ed] against any limitation
on review” of the constitutional separation-of-powers
claims at issue in that case. Id. at 489-91 (quoting
Thunder Basin, 510 U.S. at 212-13).
As multiple judges—including judges on the
Second and Fifth Circuits—have concluded, the
Court’s analysis in Free Enterprise Fund “controls
here,” and compels the conclusion that federal district
courts have jurisdiction to hear challenges to the
constitutional legitimacy of SEC ALJs. Tilton, 824
F.3d at 292 (Droney, J., dissenting); see Cochran, 2020
WL 4593226, at *9-10 (Haynes, J., dissenting in part).
The Eleventh Circuit’s contrary conclusion in this
case directly conflicts with Free Enterprise Fund. At
the same time, it erroneously extends Thunder
Basin’s implied jurisdiction-stripping rule far beyond
the circumstances presented in Thunder Basin and
later cases applying it. The ever-deepening conflict
with this Court’s decisions warrants review.
2. Rather than follow Free Enterprise Fund, the
circuits, including the Eleventh Circuit below, have
tried to distinguish it based on their own application
of the Thunder Basin factors. These efforts fail—and
ultimately undermine the foundation for Thunder
Basin’s jurisdiction-stripping rule.
a. In holding that federal district courts have
been stripped of their jurisdiction over this class of

21
claims, these circuits have effectively converted
Thunder Basin’s “meaningful judicial review” factor
into a mere possibility-of-review test. See App. 6a; see
also, e.g., Tilton, 824 F.3d at 284 (claiming that this
factor “turn[s] on the accessibility of post-proceeding
review by a federal court of appeals—not on whether
such review, if accessible, could adequately remedy
the [constitutional] violation”). That is wrong.
In Free Enterprise Fund, this Court held that
“‘meaningful judicial review’” would not be possible
absent district court jurisdiction because the
plaintiffs were “object[ing] to the Board’s existence,
not to any of its auditing standards” or other actions.
561 U.S. at 489-90 (emphasis added) (citation
omitted). Requiring the plaintiffs to submit to the
authority of the very administrative body they
challenged as unconstitutional in order to “win access
to a court of appeals”—either by challenging a Board
rule at random or by refusing to comply with a Board
decree and seeking review of the resulting sanction—
was not a “‘meaningful’ avenue of relief.” Id. at 49091 (quoting Thunder Basin, 510 U.S. at 212).
By contrast, the Eleventh Circuit below concluded
that Gibson could “receive meaningful judicial review
. . . in a court of appeals” after the conclusion of agency
proceedings because that court could “vacate or set
aside any adverse SEC order.” App. 6a. But that
review would not be meaningful. Gibson is not
seeking judicial review of a specific adverse SEC
order; instead, he is challenging the very legitimacy
of the SEC decisionmaker presiding over his
proceedings.
Leaving Gibson “to await a final
Commission order before [he] may assert [his]
constitutional claim in a federal court means that by
the time the day for judicial review comes, [he] will

22
have already suffered the injury that [he] is
attempting to prevent.” Tilton, 824 F.3d at 298
(Droney, J., dissenting). Judicial review at that point
would not, in any practical sense, be “meaningful.”6
This Court recently reached a similar conclusion
in Jennings v. Rodriguez, 138 S. Ct. 830 (2018).
There, the Court held that channeling a noncitizen
detainee’s “prolonged detention” claim into review of
a final removal order would “depriv[e] that detainee
of any meaningful chance for judicial review” because,
“[b]y the time a final order of removal was eventually
entered, the allegedly excessive detention would have
already taken place.” Id. at 840 (emphasis added). So
too here. Depriving individuals of the opportunity to
challenge the constitutional legitimacy of SEC ALJs
in a federal district court, and instead delaying those
challenges until review of a final agency order,
likewise deprives those individuals of “any
meaningful chance of judicial review” of those claims.
In addition, review in the courts of appeals is
limited to parties “aggrieved” by a “final order of the
Commission.” 15 U.S.C. § 78y(a)(1). As a result, the
vast number of individuals who simply cannot afford
protracted agency proceedings and are forced to settle
have no remedy at all for the discrete “‘here-and-now’
injury” they suffered by each and every “executive act
that allegedly exceeds the official’s authority.” Seila
Law, 140 S. Ct. at 2196 (citation omitted); see Bond v.
United States, 564 U.S. 211, 222 (2011) (“[I]ndividuals
6 As one commentator explained, the circuits’ “doctrinally
dubious” reasoning on this Thunder Basin factor essentially
“excises the ‘meaningful’ from ‘meaningful judicial review.’”
Adam M. Katz, Note, Eventual Judicial Review, 118 Colum. L.
Rev. 1139, 1142-43, 1163-72, 1179-81 (2018).

23
sustain discrete, justiciable injury from actions that
transgress separation-of-powers limitations.”).
Like other circuits, the Eleventh Circuit has
dismissed these harms by declaring that “[e]nduring
an unwanted administrative process, even at great
cost, does not amount to an irreparable injury on its
own.” Hill, 825 F.3d at 1245 (citing FTC v. Standard
Oil Co. of Cal., 449 U.S. 232, 244 (1980)); accord, e.g.,
Tilton, 824 F.3d at 285-86; Bebo, 799 F.3d at 775.
None of the circuits, however, has explained how
these “great”—and unconstitutionally imposed—
“cost[s]” are supposed to be recovered or are otherwise
“reparable,” particularly given that the remedy for
the constitutional defect may well be simply
additional costly agency proceedings. Cf. Lucia, 138
S. Ct. at 2055. And as Judge Droney explained in
Tilton, Standard Oil’s considerations of “‘irreparable
injury’” say very little about the “meaningful judicial
review” factor in any event. Tilton, 824 F.3d at 29899 (Droney, J., dissenting) (citation omitted).
Indeed, the circuits’ reliance on Standard Oil—a
case about “final agency action,” 449 U.S. at 238—is
fundamentally misplaced. The plaintiff in Standard
Oil did not challenge the constitutional authority of
the adjudicator; rather, it challenged the legal
sufficiency of the allegations in the agency’s
administrative complaint. Id. at 235. Any agencyimposed sanctions would not become effective “until
judicial review [was] complete.” Id. at 241. Thus, the
plaintiff’s only claimed injury was “the expense and
disruption of defending itself in protracted
adjudicatory proceedings,” which for a massive
corporation had no “practical effect upon [its] daily
business other than the disruptions that accompany
any major litigation.” Id. at 243-44.

24
For individuals subject to SEC proceedings,
however, far “more is at stake.” Cochran, 2020 WL
4593226, at *10 (Haynes, J., dissenting in part).
Virtually every ruling an ALJ makes can impact how
a case proceeds—and its ultimate outcome.
Moreover, the harms suffered by individuals having
to appear before an unconstitutionally insulated ALJ
extend well beyond mere litigation expenses, and
those harms are not suspended pending judicial
review. For example, an ALJ has the power to impose
a bar on securities-industry employment—“‘the
securities
industry
equivalent
of
capital
punishment.’” Saad v. SEC, 718 F.3d 904, 906 (D.C.
Cir. 2013) (citation omitted). This bar, initially
imposed by an officer acting unconstitutionally, will
remain in place during the pendency of any review.
See 15 U.S.C. § 80b-13(b).
The same goes for
monetary sanctions—individuals like Gibson must
pay monetary sanctions imposed against them before
they can make it to an Article III court.7
For Gibson, that means that, should the
Commission ultimately affirm the ALJ’s decision
against him, he will be barred from the industry and
have to come up with more than $184,000 before he
can ever present his constitutional claim to a federal
court. This pay-now-review-later regime stands in
stark contrast not only to Standard Oil, see supra at
7 Although a party facing an adverse ruling can seek a stay
pending judicial review, see 5 U.S.C. § 705; 15 U.S.C.
§§ 78y(c)(2), 80b-13(b), the SEC and the courts generally insist
that the “financial losses” caused by these sanctions do not
warrant a stay. In re Clifton, Exchange Act Release No. 70639,
2013 WL 5553865, at *4 & n.27 (Oct. 9, 2013) (citing Wisconsin
Gas Co. v. FERC, 758 F.2d 669, 674 (D.C. Cir. 1985)); see
Associated Sec. Corp. v. SEC, 283 F.2d 773, 775 (10th Cir. 1960).

25
23, but also to Thunder Basin itself, where
meaningful review was available because the agency’s
“penalty assessments became final and payable only
after full review by both the Commission and the
appropriate court of appeals.” 510 U.S. at 218
(emphasis added). This difference alone should be
dispositive.
The possibility of some judicial review after the
SEC proceedings eventually have run their course
“cannot be considered truly ‘meaningful’ at that
point,” because it cannot stop, or even remedy after
the fact, many of the life-ruining harms imposed by
the proceedings themselves. Tilton, 824 F.3d at 298
(Droney, J., dissenting). In this situation, review
delayed is, for all practical purposes, review denied.
b. In holding that federal district courts lack
jurisdiction to hear freestanding challenges to the
constitutional legitimacy of ALJs, the circuits have
also “stripped [Thunder Basin’s] ‘wholly collateral’
and ‘outside the agency’s expertise’ factors of any
significance.” Id. at 292 (Droney, J., dissenting).
In Free Enterprise Fund, the Court held that the
separation-of-powers claim at issue was “collateral to
any Commission orders or rules” because it was a
“general challenge to the Board” itself. 561 U.S. at
490.
The claim was also plainly “outside the
Commission’s competence and expertise” because it
implicated “standard questions of administrative
[and constitutional] law,” requiring no “agency factbound inquiries” or “‘technical considerations of
[agency] policy.’” Id. at 491 (alteration in original)
(citation omitted). Given that the separation-ofpowers claim at issue here is identical to the one
raised in Free Enterprise Fund, the Court’s analysis
in that case should control.

26
Nevertheless, lower courts have circumvented this
Court’s precedent in two ways. First, some circuits
have discounted or discarded these factors, candidly
concluding that an administrative review scheme can
foreclose federal court jurisdiction even when the
claim “can reasonably be characterized as ‘wholly
collateral’ to the statute’s review provisions and
outside the agency’s expertise.” Bebo, 799 F.3d at
767; see Hill, 825 F.3d at 1245, 1250 (“briefly”
considering these factors before declaring that they
“do not cut strongly either way”).
Dispensing with these two factors, however,
blatantly contravenes this Court’s decisions. In both
Thunder Basin and Elgin, all three factors supported
jurisdiction stripping. And as the three-Justice
dissent in Elgin explained (without dispute from the
majority), Thunder Basin “emphasized two important
factors”—the “agency’s expertise” and “wholly
collateral” factors. 567 U.S. at 26 (Alito, J., joined by
Ginsburg and Kagan, JJ., dissenting) (emphasis
added). The possibility of judicial review in the future
“is not the only consideration.” Id. at 33. For these
circuits, however, it is just that.
Second, other courts, including the Eleventh
Circuit in this case, have held that, notwithstanding
Free Enterprise Fund, these factors somehow support
channeling separation-of-powers challenges into
administrative proceedings. This, too, contravenes
this Court’s decisions as well as common sense.
Regarding the “wholly collateral” factor, these
courts have held that a separation-of-powers claim
challenging the authority of ALJs is not collateral
because it is “‘intertwined with the conduct of the very
enforcement proceeding the statute grants the SEC
the power to institute and resolve as an initial

27
matter.’” App. 6a (citation omitted); see Tilton, 824
F.3d at 287-88. But no amount of “intertwining” can
give the SEC the authority to resolve the separationof-powers claim in Gibson’s favor.
Far from
“requesting relief that [the decisionmaker] routinely
affords,” Elgin, 567 U.S. at 22, Gibson’s separation-ofpowers claim “has no relation to the securities laws
entrusted to the SEC and the requested remedy of
disallowing the proceedings before the ALJ is
obviously not a routine outcome,” Tilton, 824 F.3d at
295 (Droney, J., dissenting). Thus, just as in Free
Enterprise Fund, Gibson’s “general challenge” to the
constitutional authority of ALJs is wholly “collateral.”
561 U.S. at 490; see also McNary v. Haitian Refugee
Ctr., Inc., 498 U.S. 479, 492, 497-98 (1991) (holding
that an administrative scheme did not preclude
federal jurisdiction by emphasizing the “critical
difference” between challenges to individualized
agency determinations an “general collateral
challenges to unconstitutional practices and policies
used by the agency”).8
8 Some courts have analogized this extreme situation to
having to wait for a final court judgment before filing an appeal.
Tilton, 824 F.3d at 285; see Cochran, 2020 WL 4593226, at *7.
Gone here is any pretense of ascertaining what “Congress
intended” with respect to “this statutory structure.” Thunder
Basin, 510 U.S. at 212 (emphasis added). Moreover, the analogy
is obviously inapt. A party waiting to appeal a final decision
from a federal district court has already enjoyed what Gibson
lacks—an Article III decisionmaker who is, without question,
constitutionally authorized to take actions against individuals in
the first place. The separation-of-powers claim here, by contrast,
“transcends any particular proceeding” and instead challenges
the very “‘existence’” of the adjudicators “within their current
structure.” Cochran, 2020 WL 4593226, at *10 (Haynes, J.,
dissenting in part) (quoting Free Enter. Fund, 561 U.S. at 490).

28
The circuits have similarly negated the “agency
expertise” factor. Free Enterprise Fund held in no
uncertain terms that a separation-of-powers
challenge to a regulator’s authority is a
“constitutional claim[]” that is “outside the
Commission’s competence and expertise.” 561 U.S. at
491. Nevertheless, the court below claimed that this
factor supports preclusion because the SEC might
have expertise in resolving other issues unrelated to
the constitutional claim. App. 6a; accord Bennett, 844
F.3d at 187.9 Asking about the SEC’s expertise in
possibly deciding unrelated issues, of course, says
nothing about whether the agency is competent to
resolve this issue challenging the constitutional
structure of the administrative scheme itself—
especially where this Court has already held the
agency lacks competence to hear it.
Faced with this disconnect, some lower courts
have reasoned that this Court’s decision in Elgin
effectively abrogated Free Enterprise Fund’s analysis.
See Cochran, 2020 WL 4593226, at *6; Bennett, 844
F.3d at 187. But this Court has admonished against
such secondhand overrulings by lower courts,
stressing that lower courts must follow the decision
that “directly controls” until expressly overruled by
this Court. Rodriguez de Quijas v. Shearson/Am.
Exp., Inc., 490 U.S. 477, 484 (1989). Here, the directly
controlling decision is Free Enterprise Fund.
9 Although this logic assumes that there are other unrelated
issues for the agency to resolve, the lower courts have not felt
constrained by that logic. See Bennett, 844 F.3d at 187-88 & n.15
(speculating that the SEC might use its “expertise” to “fully
dispos[e]” of the case in the individual’s favor even where the
individual had “eschewed all . . . defenses” in the proceeding
itself).

29
Besides, there is no basis for concluding that Elgin
abrogated Free Enterprise Fund. Indeed, Elgin did
not even mention Free Enterprise Fund in discussing
agency expertise, and “[t]his Court does not normally
overturn, or so dramatically limit, earlier authority
sub silentio.” Illinois Council, 529 U.S. at 18. Elgin
involved an instance in which the agency could “apply
its expertise” to resolve “threshold questions” that
“accompan[ied] [the] constitutional claim,” such as
whether the allegedly unconstitutional statute
applied to the claimant at all. 567 U.S. at 22.
Reading Elgin as broadly as these courts do “would
mean that as long as a proceeding is ongoing, the
‘outside the agency’s expertise’ factor must weigh
against jurisdiction—because any time a proceeding
has commenced there is of course some possibility
that a plaintiff may prevail on the merits.” Tilton, 824
F.3d at 296 (Droney, J., dissenting) (emphasis added).
There is no basis to believe Elgin intended such a
radical expansion of Thunder Basin’s narrowly
tailored “agency expertise” analysis. At a minimum,
the confusion underscores that the lower courts need
“further guidance from [this] Court” on this important
issue. Id. at 288 (majority opinion).
3. The circuits’ application of Thunder Basin to
separation-of-powers
claims
undermines
the
doctrinal foundation for Thunder Basin itself.
Stripping federal courts of their statutorily granted
jurisdiction based on implications of what “Congress
intended” in enacting general statutory schemes, 510
U.S. at 212, already fits uncomfortably with this
Court’s usual reluctance to engage in “‘speculation
about what Congress might have’ intended,”
Wisconsin Cent. Ltd. v. United States, 138 S. Ct. 2067,
2073 (2018) (citation omitted). Implied jurisdiction-

30
stripping is also in tension with “the ‘stron[g]
presump[tion]’ that . . . ‘Congress will specifically
address’ preexisting law when it wishes to suspend its
normal operations in a later statute.” Epic Sys. Corp.
v. Lewis, 138 S. Ct. 1612, 1624 (2018) (alterations in
original) (citation omitted); cf., e.g., Illinois Council,
529 U.S. at 10 (statute expressly provided that “‘[n]o
action . . . shall be brought under section 1331’”
(alteration in original) (citation omitted)).
But in the circuits that have barred jurisdiction
over separation-of-powers claims, the Thunder Basin
factors have taken on a life of their own, divorced from
any conventional statutory analysis of Congress’s
intent. Indeed, it makes little sense to even ask
whether the “claim[] [is] of the type Congress
intended to be reviewed within this statutory
structure,” Thunder Basin, 510 U.S. at 212 (emphasis
added), when the claim is challenging the
constitutionality of the statutory structure itself.
And, notably, in Thunder Basin, the “petitioner
expressly disavow[ed] any abstract challenge to the
Mine Act’s statutory review scheme.” Id. at 218 n.22.
So the circuits flip Thunder Basin and insist instead
on proof that the claim is of the type “Congress
intended to exempt from the statutory review
scheme.” Hill, 825 F.3d at 1245 (emphasis added). In
effect, this creates a presumption against jurisdiction,
which has no basis in Thunder Basin.
The circuits have also glossed over fundamental
differences
between
the
separation-of-powers
challenge at issue here and other constitutional and
non-constitutional claims in a way that will “cause
crucial collateral claims to be lost and potentially
irreparable injuries to be suffered.” Mathews v.
Eldridge, 424 U.S. 319, 331 n.11 (1976). Gibson is

31
seeking to challenge the authority of the agency
decisionmaker within the administrative scheme to
take any action against him. Each action taken by an
unconstitutionally insulated ALJ “is an executive act
that allegedly exceeds the official’s authority” and
“inflicts a ‘here-and-now’ injury.” Seila Law, 140 S.
Ct. at 2196; see Bond, 564 U.S. at 222. Those injuries
are irreparable; no amount of post-agency relief can
erase them. And the actions and findings made by a
constitutionally illegitimate decisionmaker have a
snowballing effect as the case proceeds.
Moreover, forcing these structural constitutional
challenges into agency review means that litigants
who raise such challenges must raise them before the
very decisionmaker whom they contend lacks
constitutional legitimacy. Given that this same
decisionmaker will “issue an opinion complete with
factual findings, legal conclusions, and sanctions” in
their cases, litigants face enormous pressure to “stay
in line” and not challenge ALJs’ authority or “resist
[their] order[s].” Lucia, 138 S. Ct. at 2054.
All this explains why several judges have
concluded that Thunder Basin cannot be extended to
strip federal courts of their jurisdiction over the firstorder constitutional claim at issue here. But because
the circuits in lockstep have done precisely that, this
Court’s review is necessary.
C. The Enormous Practical Importance of
the Question Presented Underscores the
Need for This Court’s Review
The question presented not only is recurring, but
also has vital importance to the hundreds of
individuals forced each year to defend themselves in
SEC administrative proceedings.

32
The fact that so many circuits—including those
hearing the lion’s share of securities enforcement
actions—have already weighed in on this issue
underscores its national significance. That will not
subside. Since Dodd-Frank expanded the SEC’s
ability to try cases before its in-house administrative
tribunal, the SEC has brought the vast majority of its
enforcement actions before its own ALJs, where it
enjoys a home-court advantage. See supra at 4-6. As
a result, individuals like Gibson are currently forced
to litigate for years in a distinctly hostile forum, at
great expense, before they can challenge the
constitutional legitimacy of the decisionmaker
presiding over their agency proceeding. This regime
exacts an enormous personal and financial toll before
they can ever present their constitutional claim to a
federal court. See Tilton, 824 F.3d at 298 n.5 (Droney,
J., dissenting). And the SEC has exploited this
vulnerability in “‘a number of cases’” by
“‘threaten[ing] administrative proceedings’” before its
ALJs in a calculated effort to compel a settlement. Id.
(citation omitted).10
10

The fact that Gibson’s case is now before the Commission
does not obviate the need for this Court’s review. First, if this
Court grants review and reverses, then this case will return to
the district court for it to decide how to proceed. But
importantly, the Court will have established that federalquestion jurisdiction exists over this important class of
constitutional claims. Second, because of the glacial pace of
cases before the Commission, it still may be a year or more before
Gibson could appeal any final agency decision to a federal court.
Third, if Gibson prevails before the Commission on the merits,
he very well may be right back before an unconstitutionally
insulated ALJ—for a third time. Fourth, requiring Gibson to
present his constitutional claim to a federal court of appeals in
the first instance on review from an SEC decision would deprive

33
Stripping courts of jurisdiction to hear separationof-powers claims will allow these unconstitutional
officers to wield their expansive powers for years
before they can be stopped. Indeed, this Court
expressly acknowledged, but declined to “address,”
the constitutionality of ALJs’ insulation from removal
ten years ago in Free Enterprise Fund, 561 U.S. at 507
n.10. And yet, in the decade since that decision came
down, the issue has not been addressed by a single
court of appeals. Even the Government, which itself
has acknowledged the constitutional concerns created
by the ALJs’ dual-layered protections from removal,
has lamented that the lack of a resolution on this
“critical[]” issue has produced “uncertainty and
turmoil” for the agency as well as litigants. Gov’t
Cert. Resp. 20-21, Lucia, 138 S. Ct. 2044 (No. 17-130).
Denying review will only continue to thwart the
resolution of this issue, unnecessarily perpetuating
the SEC’s systematic violation of a structural
safeguard that “‘[t]he Framers recognized’” as
“‘critical to preserving liberty.’” Free Enter. Fund, 561
U.S. at 501 (alteration in original) (citation omitted).
A recurring jurisdictional question of this
magnitude, on which federal judges have strongly
disagreed, warrants resolution by this Court. Federal
jurisdiction has long served as a critical protection for
individual rights and liberties. Jurisdiction has been
Gibson of the full benefit of federal-question jurisdiction—
including the opportunity to develop his claim and obtain a
ruling from a federal district court. Finally, even apart from the
impact on Gibson’s case, this Court’s guidance is needed on the
question presented given the numerous individuals in Gibson’s
situation. There is no reason for this Court to wait any longer to
decide the important question presented. The issue is squarely
raised in this case and, if granted, may be resolved this Term.

34
denied for too long over the critical class of structural
constitutional claims at issue in this case. If this
Court believed the circuits would straighten this out
on their own when it denied certiorari in Tilton,
experience has proven otherwise. While the chorus of
dissenting views has grown since then, the circuits
have only grown more entrenched in their misreading
of this Court’s precedent. Only this Court can right
this wrong—and this case presents an ideal vehicle in
which to resolve this issue this Term.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
MARGARET A. LITTLE
MARKHAM S. CHENOWETH
NEW CIVIL LIBERTIES
ALLIANCE
1225 19th Street, NW
Suite 450
Washington, DC 20036
DAVID E. HUDSON
HULL BARRETT, PC
801 Broad Street
Suite 700
Augusta, GA 30903

GREGORY G. GARRE
Counsel of Record
BLAKE E. STAFFORD
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com

Counsel for Petitioner
August 31, 2020

APPENDIX

TABLE OF CONTENTS
Page
Opinion of the United States Court of Appeals
for the Eleventh Circuit, Gibson v.
Securities & Exchange Commission, No.
19-11969 (11th Cir. Dec. 30, 2019) .....................1a
Order of the United States District Court for
the Northern District of Georgia Denying
Plaintiff’s
Motion
for
Preliminary
Injunction, Gibson v. Securities &
Exchange Commission, No. 1:19-cv-01014WMR (N.D. Ga. May 8, 2019).............................7a
Order of the United States Court of Appeals for
the Eleventh Circuit Denying Petition for
Rehearing and Rehearing En Banc, Gibson
v. Securities & Exchange Commission, No.
19-11969 (11th Cir. Apr. 1, 2020).....................11a
Initial Decision of Administrative Law Judge
James E. Grimes, In re Christopher M.
Gibson, Initial Decision Release No. 1398
(SEC Mar. 24, 2020) .........................................12a
U.S. Const. art. II, § 1, cl. 1 ..................................113a
U.S. Const. art. II, § 2, cl. 2 ..................................113a
15 U.S.C. § 78d-1 ...................................................114a
15 U.S.C. § 78y ......................................................116a
15 U.S.C. § 80a-42 .................................................121a
15 U.S.C. § 80b-13 .................................................123a
28 U.S.C. § 1331 ....................................................125a
17 C.F.R. § 201.360 ...............................................126a

1a
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-11969
Non-Argument Calendar
D.C. Docket No. 1:19-cv-01014-WMR
CHRISTOPHER M. GIBSON,
Plaintiff - Appellant,
versus
SECURITIES AND EXCHANGE COMMISSION,
CHAIRMAN OF THE SECURITIES AND
EXCHANGE COMMISSION,
UNITED STATES ATTORNEY GENERAL,
Defendants - Appellees.
Appeal from the United States District Court
for the Northern District of Georgia
(December 30, 2019)
Before WILSON, ANDERSON and DUBINA, Circuit
Judges.
PER CURIAM:
Appellant, Christopher M. Gibson, appeals the
district court’s order denying his motion for
preliminary injunctive relief, requesting that the
district court preliminarily enjoin, based on
constitutional grounds, the Securities and Exchange
Commission
(“SEC”)
from
continuing
an
administrative proceeding against him. Relying on
circuit precedent, the district court determined that it
lacked subject matter jurisdiction over the case,

2a
denied the request for injunctive relief, and dismissed
Gibson’s complaint in its entirety. After reviewing
the record and reading the parties’ briefs, we affirm
the district court’s order.
I. BACKGROUND
In 2016, the SEC instituted an administrative
enforcement proceeding against Gibson to determine
whether he had violated the Securities and Exchange
Act by acting as an investment adviser to a private
pooled investment fund. The allegation was that in
his role, Gibson had “engaged in a deceptive scheme
to front-run [the Fund’s] trades and benefit himself
and those close to him at the expense of the Fund and
his other clients by exploiting the investment advice
he provided to the Fund.” See Order Instituting
Administrative and Cease-and-Desist Proceedings, at
9 (SEC Mar. 29, 2016) (Violations E. 54.),
https://go.usa.gov/xVA7g. An Administrative Law
Judge (“ALJ”) held a hearing and issued an initial
decision adverse to Gibson.
The SEC granted
Gibson’s request to review that initial decision and
ordered merits briefing. While Gibson’s case was
pending, the United States Solicitor General
submitted a brief in the Supreme Court in Lucia v.
SEC, No. 17-130, agreeing with the petitioner’s
argument that the ALJ’s are inferior officers under
the Appointments Clause who must be appointed by
the President, a Court of Law, or the Head of a
Department, such as the SEC. Because of this brief,
the SEC issued an order that ratified the previous
appointments of its ALJs and remanded all pending
administrative proceedings, including Gibson’s case,
to its ALJs. The ALJ assigned to Gibson’s case
ratified her earlier decision, and Gibson petitioned for
SEC review.

3a
While Gibson’s petition for review was pending,
the Supreme Court issued its decision in Lucia v.
SEC, ___ U.S. ___, 138 S. Ct. 2044 (2018), holding that
the SEC’s ALJs were inferior officers who had not
been properly appointed at the time of petitioner’s
administrative proceeding. The Court’s remedy was
a remand to the agency for a new hearing before a
properly appointed officer; however, the properly
appointed officer could not be the same officer who
previously heard the case. Id. at ___, 138 S. Ct. at
2055. Hence, the SEC remanded Gibson’s case for a
new hearing before a different, properly appointed,
ALJ.
Gibson filed an answer and raised several
objections to the administrative proceedings, such as
(1) the proceedings violated the separation of powers,
(2) the statutory restrictions on removing the SEC’s
ALJs violated Article II, (3) the SEC’s ALJs had not
been properly appointed, (4) the proceedings were
based on an impermissible delegation of legislative
authority, (5) the proceedings violated his due process
rights, (6) the proceedings violated his equal
protection rights, (7) the proceedings violated his
right to a jury trial, (8) the statute of limitations had
run, and (9) the proceedings were barred by laches.
The ALJ held proceedings in July and August 2019,
took the case under advisement, but has not issued an
initial decision.
While these administrative proceedings were
underway, Gibson sued in the district court to enjoin
these proceedings. Gibson raised in the district court
many of the same claims he raised in his
administrative proceeding.
The district court
dismissed the complaint for lack of jurisdiction based
on our court’s holding in Hill v. SEC, 825 F.3d 1236,

4a
1237 (11th Cir. 2016), which construed the judicial
review provisions of the Securities and Exchange Act,
15 U.S.C. § 78y. The district court also denied
Gibson’s motion for preliminary injunctive relief.
II. DISCUSSION
On appeal, Gibson primarily challenges the
district court’s reliance on our Hill decision by
attempting to distinguish his case from the Hill case.
He also argues that the SEC administrative
proceedings deny him his Seventh Amendment right
to a jury trial, that the district court should exercise
its jurisdiction to consider whether the SEC
proceedings are now barred by the statute of
limitations, and that his due process claims can only
be determined by the district court.
We are
unpersuaded by Gibson’s arguments.
We review de novo the district court’s
determination of subject matter jurisdiction. Hill,
825 F.3d at 1240. We note that federal district courts
generally have jurisdiction over claims that seek
declaratory and injunctive relief based on
constitutional violations. See 28 U.S.C. §§ 1331, 2201.
However, Congress may allocate to an administrative
body the initial review of such claims, and when it
does, the court must undertake the analysis set forth
in Thunder Basin Coal Co. v. Reich, 510 U.S. 200, 114
S. Ct. 771 (1994).
In Hill, we employed the framework established in
Thunder Basin to examine whether Congress
allocated
initial
review
of
claims
raising
constitutional challenges that seek declaratory and
injunctive relief to the SEC’s administrative process.
Hill, 825 F.3d at 1241. We first decided whether
Congress’s intent to preclude initial review in the

5a
district court is “fairly discernible in the statutory
scheme.” Id. (quoting Thunder Basin, 510 U.S. at
207, 114 S. Ct. at 776). We then considered whether
the respondents’ claims were “of the type Congress
intended to be reviewed within this statutory
structure.” Id. (quoting Thunder Basin, 510 U.S. at
212, 114 S. Ct. at 779). We also examined whether
the respondents’ claims would receive meaningful
judicial review within the statutory structure. Lastly,
we questioned whether “agency expertise could be
brought to bear on the . . . questions presented” and
the extent to which the litigants’ claims are “wholly
collateral to [the] statute’s review provisions.” Id.
(quoting Thunder Basin, 510 U.S. at 212, 214–15, 114
S. Ct. at 780). Applying this framework, we concluded
that the respondents’ claims had to proceed initially
in the administrative forum and then through the
judicial review scheme enacted by Congress in 15
U.S.C. § 78y. Id.
As our court noted, Congress authorized the SEC
to bring civil actions to enforce violations of the
Securities and Exchange Act in either federal district
court or in an administrative proceeding before the
SEC. Id. at 1237 (citing 15 U.S.C. § § 78u(d), 78u-1,
78u-2, 78u-3). “An SEC administrative enforcement
action culminates in a final order of the Commission,
which in turn is reviewable exclusively by the
appropriate federal court of appeals.” Id. (citing 15
U.S.C. § 78y). We concluded that respondents in an
SEC administrative enforcement action could not
bypass the Exchange Act’s review scheme by filing a
collateral lawsuit in federal district court challenging
the administrative proceedings on constitutional
grounds. See id. at 1243. Because we discerned no
Congressional intention to exempt the type of claims

6a
the respondents raised from the review process
Congress created, we vacated the district court’s
preliminary injunction orders and remanded to the
district court with instructions to dismiss the actions
for lack of jurisdiction. Id. at 1252.
Like the district court, we conclude that Hill
controls in this case. Gibson can receive meaningful
judicial review of his claims in a court of appeals, and
if the appellate court finds merit in any of his claims,
it may vacate or set aside any adverse SEC order.
Moreover, the SEC may bring its expertise to bear on
Gibson’s claims because it will necessarily have to
decide threshold issues, such as whether Gibson has
violated the securities laws or whether the statute of
limitations has expired.
Further, Gibson’s
constitutional and statutory claims are “inextricably
intertwined with the conduct of the very enforcement
proceeding the statute grants the SEC the power to
institute and resolve as an initial matter.” Jarkesy v.
SEC, 803 F.3d 9, 23 (D.C. Cir. 2015). Accordingly, we
conclude that because Gibson cannot bypass the SEC
statutory scheme by filing a collateral action in
federal district court, the district court properly
dismissed his action for lack of jurisdiction.
Moreover, we find no merit to the other arguments
raised by Gibson on appeal.
AFFIRMED.

7a
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
CHRISTOPHER M. GIBSON,
PLAINTIFF,
v.

Civil Action No.
1:19-cv-01014-WMR

SECURITIES AND
EXCHANGE COMMISSION,
ET AL.,
DEFENDANTS.
ORDER DENYING PLAINTIFF’S
MOTION FOR PRELIMINARY INJUNCTION
This case comes before the Court on Plaintiff's
Complaint [Doc. 1] and Motion for Preliminary
Injunction [Doc. 4]. After due consideration and a
hearing on Plaintiff's Motion for Preliminary
Injunction, the Court enters the following Order:
I.

BACKGROUND

On March 4, 2019, Plaintiff Christopher M. Gibson
filed the Complaint [Doc. 1] along with a Motion for
Preliminary Injunction and Request for Expedited
Hearing [Doc. 4], requesting that the Court
preliminarily enjoin the Securities and Exchange
Commission
(“SEC”)
from
continuing
an
administrative
proceeding
against
him
on
constitutional grounds. Plaintiff primarily raises four
claims against Defendants:
(1) that SEC staff
violated his due-process rights by making
misrepresentations regarding Plaintiff having
maintained a short position in certain securities;

8a
(2) that the removal protections of the Administrative
Law Judge (“ALJ”) presiding over the administrative
proceeding unconstitutionally infringe upon the
President’s control over officers of the United States;
(3) that the Order Instituting Proceedings (“OIP”)
that the SEC issued to Plaintiff was invalid and
therefore the current proceeding is barred by the fiveyear statute of limitations contained in 28 U.S.C.
§ 2462; and (4) that the administrative proceeding
deprives Plaintiff of his Seventh Amendment right to
trial by jury. On March 22, 2019, Defendants filed
their Response in Opposition to Plaintiff's Motion
[Doc. 9]. On April 8, 2019, the Court held oral
argument on the Motion.
II. LEGAL STANDARD
“A preliminary injunction is an extraordinary and
drastic remedy not to be granted unless the movant
clearly establishes the ‘burden of persuasion’ as to the
four requisites.” All Care Nursing Serv., Inc. v.
Bethesda Mem’l Hosp., Inc., 887 F.2d 1535, 1537 (11th
Cir. 1989) (quoting United States v. Jefferson Cty., 720
F.2d 1511, 1519 (11th Cir. 1983)). To obtain such
relief, Plaintiff must show “(1) a substantial
likelihood of success on the merits; (2) that
irreparable injury will be suffered unless the
injunction issues; (3) that the threatened injury to the
movant outweighs whatever damage the proposed
injunction may cause the opposing party, and (4) that
if issued the injunction would not be adverse to the
public interest.” Id.
III. DISCUSSION
In Hill v. SEC, 825 F.3d 1236 (11th Cir. 2016), the
Eleventh Circuit considered whether a respondent in
a SEC enforcement action could bypass the

9a
administrative scheme of the federal securities laws
by filing a district-court lawsuit raising constitutional
challenges to the administrative proceeding.
Applying the framework laid out by the Supreme
Court in Thunder Basin Coal Co. v. Reich, 510 U.S.
200 (1994), the Hill court concluded that the statutory
review scheme of the Securities Exchange Act of 1934
(“Exchange Act”), 15 U.S.C. § 78y, precluded district
court jurisdiction over the plaintiffs’ claims. Hill, 825
F.3d at 1241, 1252. Analyzing the considerations
articulated in Thunder Basin, the Eleventh Circuit
concluded that it was “‘fairly discernible’ from the
review scheme [of the Exchange Act] that Congress
intended the respondents’ claims to be resolved first
in the administrative forum, not the district court,
and then, if necessary, on appeal to the appropriate
federal court of appeals.” Id. at 1237. Accordingly,
the Hill court vacated the district court’s preliminaryinjunction orders and remanded with instructions to
dismiss the case for lack of subject-matter
jurisdiction. Id.
The Court finds that Hill governs here. Thus, the
Court concludes that it lacks subject-matter
jurisdiction over this case, and, accordingly, that
Plaintiff cannot show a substantial likelihood of
success on the merits.
IV. CONCLUSION
For the reasons discussed herein and at the April
8, 2019, hearing on this matter, the Court hereby
ORDERS that Plaintiff’s Motion for Preliminary
Injunction is DENIED. Further, in light of the
Court’s determination that it lacks subject-matter
jurisdiction, the Court ORDERS that the Complaint

10a
be DISMISSED in its entirety pursuant to Federal
Rule of Civil Procedure 12(h)(3).
SO ORDERED, this 8th day of May, 2019.
s/ William M. Ray II
WILLIAM M. RAY, II
United States District Court Judge
Northern District of Georgia

11a
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-11969-AA
CHRISTOPHER M. GIBSON,
Plaintiff - Appellant,
versus
SECURITIES AND EXCHANGE COMMISSION,
CHAIRMAN OF THE SECURITIES AND
EXCHANGE COMMISSION,
UNITED STATES ATTORNEY GENERAL,
Defendants - Appellees.
Appeal from the United States District Court
for the Northern District of Georgia
[April 1, 2020]
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC
BEFORE: WILSON, ANDERSON, and DUBINA,
Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED,
no judge in regular active service on the Court having
requested that the Court be polled on rehearing en
banc. (FRAP 35) The Petition for Rehearing En Banc
is also treated as a Petition for Rehearing before the
panel and is DENIED. (FRAP 35, IOP2)

12a
Initial Decision Release No. 1398
Administrative Proceeding
File No. 3-17184
UNITED STATES OF AMERICA
Before the
SECURITIES AND EXCHANGE COMMISSION
Washington, D.C. 20549

In the Matter of
Christopher M. Gibson
Appearances:

Initial Decision
March 24, 2020

Nicholas C. Margida, Gregory R.
Bockin, George J. Bagnall, and
Paul J. Bohr for the Division of
Enforcement, Securities and
Exchange Commission
Thomas A. Ferrigno, Stephen J.
Crimmins, and Elizabeth L. Davis,

Murphy & McGonigle PC, and David
E. Hudson, Hull Barrett PC, for
Respondent

Before:

James E. Grimes,
Administrative Law Judge

Summary
Christopher M. Gibson was an investment adviser
to Geier International Strategies Fund, LLC (the
Fund), that had invested virtually all its assets in a
single security, the common stock of Tanzanian
Royalty Exploration Corporation (TRX). The Division
of Enforcement alleges that Gibson engaged in three

13a
courses of conduct that breached his fiduciary duties
to his client fund and created undisclosed conflicts of
interest, in violation of the antifraud provisions of the
Investment Advisers Act of 1940, the Securities
Exchange Act of 1934, and rules under those Acts.
First, Gibson engaged in a practice known as front
running. The day before he executed a large block
sale of the Fund’s position in TRX, he sold all the TRX
shares in his personal brokerage account and two
other accounts he controlled. Gibson did this while
actively seeking to sell the Fund’s position in TRX.
Second, Gibson caused the Fund to buy a large
block of additional TRX shares from the Fund’s
majority owner in a private transaction. He later sold
those shares with the Fund’s remaining shares in a
market transaction. Gibson operated under a conflict
of interest when he executed this transaction; the
investor effectively paid Gibson’s salary, and Gibson
owed him a substantial debt at the time.
Third, Gibson engaged in another instance of front
running. He bought put options in TRX for himself
and his then-girlfriend, and he advised his father to
do the same, while knowing that the fund sought to
sell its remaining TRX shares. He then sold the
Fund’s remaining TRX shares before the expiration
date of the personal put contracts. This sale caused a
drop in TRX’s share price. Gibson, his girlfriend, and
his father exercised their put options the same day.
The evidence establishes that Gibson recklessly
breached his fiduciary duties and failed to either
eliminate or disclose conflicts of interest. I therefore
find that Gibson violated Advisers Act Section 206(1),

14a
(2), and (4) and Rule 206(4)-8, and Exchange Act
Section 10(b) and Rule 10b-5(a) and (c).1
For sanctions, I order Gibson to cease and desist
from further violations of the securities laws he
violated; prohibit Gibson from the activities listed in
Section 9(b) of the Investment Company Act of 1940
and bar him from the securities industry under
Advisers Act Section 203(f), with the right to reapply
for reentry after three years for both sanctions; order
disgorgement of $82,088.81 plus prejudgment
interest; and impose second-tier civil penalties
totaling $102,000.
Procedural Background
The Commission initiated this proceeding in
March 2016 with an order instituting proceedings
(OIP) under Exchange Act Section 21C, Advisers Act
Section 203(f) and (k), and Investment Company Act
Section 9(b).2 The OIP alleges that Gibson committed
securities fraud through the three instances of
conduct summarized above.
An administrative law judge held a hearing in
2016 and issued an initial decision in 2017.3 In
August 2018, following the Supreme Court’s decision
in Lucia v. SEC, the Commission remanded this
proceeding, ordered that it be reassigned to an
administrative law judge who had not previously

1

15 U.S.C. §§ 78j(b), 80b-6(1), (2), (4); 17 C.F.R.
§§ 240.10b-5, 275.206(4)-8.
2

15 U.S.C. §§ 78u-3, 80a-9(b), 80b-3(f), (k).

3 Christopher M. Gibson, Initial Decision Release No.
1106, 2017 WL 371868 (ALJ Jan. 25, 2017).

15a
participated in the matter, and directed that Gibson
be given the opportunity for a new hearing.4
I held a one-week hearing in July and August
2019. Post-hearing briefing concluded in October
2019.
The parties stipulated that nine affirmative
defenses raised by Gibson alleging constitutional
infirmities in this proceeding are preserved for
Commission review.5 I briefly discuss aspects of these
constitutional claims at the end of the decision to put
matters in context.
In conducting this proceeding, I gave no weight to
the opinions, orders, or rulings of the administrative
law judge who presided over this proceeding before
the Commission’s remand.6
Motions to Strike
I previously reserved ruling on two motions to
strike, one filed by the Division and the other by
Gibson. I now DENY both.
The Division asks me to strike all portions of
Gibson’s proposed findings of fact and conclusions of
law containing argument, citing my post-hearing
order indicating that I would do so.7 In this instance,
4

Pending Admin. Proc., Securities Act of 1933 Release No.
10536, 2018 WL 4003609, at *1, *4 (Aug. 22, 2018); see also Lucia
v. SEC, 138 S. Ct. 2044 (2018).
5

Gibson, Admin. Proc. Rulings Release No. 6668, 2019
SEC LEXIS 2319 (ALJ Aug. 29, 2019).
6
7

See Pending Admin. Proc., 2018 WL 4003609, at *1.

Div. Reply at 2; Div. Resps. to Resp’t’s Proposed Findings
of Fact & Conclusions of Law at 2 (Oct. 4, 2019); see Gibson,
Admin. Proc. Rulings Release No. 6648, 2019 SEC LEXIS 1937,
at *3 (ALJ Aug. 5, 2019) (“I will strike findings or conclusions
that contain argument.”).

16a
there is no point in removing improper arguments
from the record that I can simply ignore or decline to
adopt. Similar to a federal bench trial, concerns about
confusion or undue prejudice from improper
argument or evidence do not apply in this
proceeding.8 Instead of striking portions of Gibson’s
findings and conclusions that contain improper
argument, I have simply not relied on those points.
Invoking Rule of Practice 152(f), Gibson asks me
to strike what he considers “scandalous or
impertinent matter” in the hearing record and in the
Division’s post-hearing brief concerning Gibson’s
current financial activities as reflected in his recent
tax filings.9
In particular, Gibson wants any
insinuation that he has been committing tax fraud
excised from the record. The Division opposes the
motion, arguing that the portions of testimony and
argument objected to by Gibson are not scandalous
and are relevant to Gibson’s claim of inability to pay
and to his credibility.10

8

See Harris v. Rivera, 454 U.S. 339, 346 (1981) (“In bench
trials, judges routinely hear inadmissible evidence that they are
presumed to ignore when making decisions.”); City of Anaheim,
Exchange Act Release No. 42140, 1999 WL 1034489, at *2 (Nov.
16, 1999) (“Administrative agencies such as the Commission are
more expert fact-finders, less prone to undue prejudice, and
better able to weigh complex and potentially misleading
evidence than are juries.”).
9

Resp’t’s Mot. Pursuant to Rule 152(f) for an Order
Striking Scandalous & Impertinent Matter at 1 (Sept. 26, 2019);
see 17 C.F.R. § 201.152(f).
10 Div. Opp’n to Resp’t’s Mot. to Strike at 2–3 (Oct. 2, 2019).

17a
Rule 152(f) is mirrored, in part, by Rule 12(f) of the
Federal Rules of Civil Procedure.11 In the federal
court context, scandalous material “unnecessarily
reflects on the moral character of an individual,” such
as a party or other person, or contains “repulsive
language that detracts from the dignity of the
court.”12 Impertinent matter “consists of statements
that do not pertain, and are not necessary, to the
issues in question.”13
The only portion of the hearing transcript objected
to by Gibson that might qualify as scandalous or
impertinent is Division counsel’s remark that he could
prove tax fraud if he wanted to, but was not going to
try.14 I already stated that I would disregard that
remark, so I need not strike it.15 The sentence in the
Division’s brief suggesting that Gibson’s current
financial activities are further reason to bar him from
the securities industry is not scandalous or
impertinent.16 It is argument, it cites the record, and
it has a modicum of relevance. I will not strike it.
11 Compare 17 C.F.R. § 201.152(f) (“Any scandalous or

impertinent matter contained in any brief or pleading or in
connection with any oral presentation in a proceeding may be
stricken on order of the Commission or the hearing officer.”),
with Fed. R. Civ. P. 12(f) (“The court may strike from a pleading
. . . impertinent, or scandalous matter.”)
12 Pigford v. Veneman, 215 F.R.D. 2, 4 (D.D.C. 2003); see

Collura v. City of Philadelphia, 590 F. App’x 180, 185 (3d Cir.
2014).

13 Fantasy, Inc. v. Fogerty, 984 F.2d 1524, 1527 (9th Cir.

1993), rev’d on other grounds, 510 U.S. 517 (1994).
14 Tr. 1516.
15 Tr. 1516–17.
16 Div. Br. 39.

18a
Findings of Fact
I base the following factual findings and legal
conclusions on the entire record before me and the
demeanor of the witnesses who testified at the
hearing, applying preponderance of the evidence as
the standard of proof.17 All arguments that are
inconsistent with this decision are rejected.
1. Gibson and Hull set up the Fund in 2009 and
2010.
The relevant facts in this case are largely
undisputed. But because the implication of the facts
is vigorously disputed, I consider in detail what
happened and the overall context. Although Gibson
is the respondent in this matter, James Hull, the
majority owner of the Fund, played a significant part
in many of Gibson’s actions. I therefore detail Hull’s
role below as well.
Gibson, now in his mid-thirties, was in his mid and
late twenties during the relevant period.18 He
graduated from Williams College in 2006, and
immediately started working at Deutsche Bank
Securities in New York in the securitized products
group.19 In that position, he worked on auto and
mortgage loan securitizations.20 Gibson left Deutsche
Bank in early 2009, took and passed the series 65
investment adviser exam, and returned to Augusta,

17 See Rita

J. McConville, Exchange Act Release No.
51950, 2005 WL 1560276, at *14 (June 30, 2005), pet. denied, 465
F.3d 780 (7th Cir. 2006).
18 Div. Ex. 216 (joint stipulations) ¶ 1.
19 Tr. 76–77.
20 Tr. 76.

19a
Georgia—where he had grown up and where his
parents lived.21
At that time, Gibson’s father, John Gibson, was
one of Hull’s business partners.22 John Gibson
suggested that Gibson speak to Hull for career
advice.23 Hull founded a real estate development
business, then called Hull Land Company, in 1977.24
By 2010, the firm was called Hull Storey Gibson (as in
Gibson’s father, John Gibson).25 Hull’s company
bought and ran shopping malls around the United
States.26 By all accounts, the various iterations of
Hull’s companies have been successful. According to
one witness, Hull and his partners “made a lot of
money” by “cut[ting] . . . costs to the bone,” in part by
cutting the number people involved in running the
malls.27 Hull is also quite involved in his community.
In 2018, he was chair of the board of regents of the 26institution university system of Georgia, and he sits
on the board of the Augusta University health system
and a number of other civic entities.28

21 Tr. 77–79, 1083, 1105. Gibson had previously passed the

series 7 and 63 exams. Tr. 78–79.
22 Tr. 79, 670.
23 Tr. 1096–97.
24 Tr. 79, 520.
25 Tr. 79–80, 520–21.
26 Tr. 79.
27 Tr. 1257.
28 Tr. 668, 679. Additionally, Hull is a member of Augusta

National Golf Club, annual host of the Masters Tournament, and
home of one of the most famous golf courses in the world. See
Tr. 143. He was also instrumental in securing government
funding for the $100 million Hull McKnight Georgia Cyber

20a
From an office at Hull Storey Gibson, Gibson
initially provided Hull with personal investment
advice and helped with Hull’s real estate business.29
Hull and Gibson often discussed investing and Hull
became quite interested in Gibson’s investment
ideas.30 So he took roughly $20 million he held in
accounts with two firms and had Gibson manage it.31
Gibson soon formed the Hull Fund and the Gibson
Fund, investment partnerships that principally
invested in physical gold and silver.32 It is apparent
that Hull gave Gibson the opportunity to manage his
investments in large part because of Hull’s business
relationship with John Gibson.33
Gibson and Hull then began working together to
set up the Fund as an investment hedge fund.34
Before setting up the Fund as a Delaware company in
December 2009, Gibson formed Geier Group, LLC, in
April 2009, and registered it as a Georgia investment
advisory firm.35 It initially served as the Fund’s
investment manager.36 In June 2009, he formed
Geier Capital, LLC, also a Georgia company, and it

Center. Tr. 679; see https://georgia.gov/agencies/hull-mcknightgeorgia-cyber-center-innovation-and-training.
29 Tr. 86, 1097–98; Div. Ex. 10.
30 Tr. 1098–99, 1257.
31 Tr. 1257; see Div. Ex. 10.
32 Tr. 86–87.
33 Tr. 1255.
34 See Tr. 140; Div. Ex. 10; Div. Ex. 31 at 2.
35 Div. Exs. 11, 12; Div. Ex. 21 at 1; Div. Ex. 216 ¶¶ 3, 10.
36 Div. Ex. 21 at 3; see Div. Ex. 64 (certificate of termination

of Geier Group).

21a
was the Fund’s managing member for a time.37 Geier
Group and Geier Capital were each owned 50% by
Gibson, 35% by Hull, and 15% by John Gibson.38
In January 2010, the Hull Fund and the Gibson
Fund rolled into the Fund.39 Starting in that month,
Gibson distributed the Fund’s confidential private
offering memorandum, operating agreement, and
subscription agreement to potential investors.40 Each
person who invested signed the operating and
Gibson signed the
subscription agreements.41
operating agreement as the managing director of the
Fund’s managing member—Geier Capital—and as
the managing director of Geier Group—the
investment manager.42 The offering memorandum
informed investors that “The success of the Company
is significantly dependent upon the expertise and
efforts of Chris Gibson.”43
Despite this information, and the fact that Hull is
not mentioned in the offering memorandum or
operating agreement, no one actually thought that
Gibson was making major investment decisions for
the Fund without Hull’s involvement.44 Gibson knew

37 Div. Ex. 21 at 1; Div. Ex. 216 ¶ 5; see Div. Ex. 63

(certificate of termination of the Georgia Geier Capital).
38 Div. Ex. 216 ¶¶ 4, 9.
39 Tr. 87.
40 See Tr. 115–16; see Div. Ex. 24.
41 Tr. 116; see, e.g., Resp’t Exs. 9–16.
42 Div. Ex. 22 at 12; Div. Ex. 23 at 12.
43 Div. Ex. 24 at 17.
44 Tr. 1308–10, 1332.

22a
Hull was in control45 and even Gibson’s father
believed the Fund was ultimately being run by Hull.46
Hull, who approved the Fund’s structure, believed he
exercised approval authority over any “major
decision.”47 And many investors who knew Hull
invested not so much because of Gibson’s
involvement, as described in Fund documents, but
because Hull was involved in the Fund.48
In 2011, the Fund had 21 members total.49 Hull
owned over 80% of the Fund valued at about $26
million.50 Gibson, Gibson’s parents, and Giovanni
Marzullo, the father of Gibson’s girlfriend, Francesca
Marzullo, held another 10% of the Fund.51 With the
exception of one investor connected to Gibson, every
remaining investor was one of Hull’s business
associates or life-long friends or both.52

45 See

Tr. 1366–67, 1509–10; see also 1386 (discussing
process of getting Hull’s approval for possible transactions), 1393
(same), 1411–12 (same).
46 Tr. 1258, 1287.
47 Tr. 570–71, 672–73.
48 See Tr. 1332; see also Tr. 754 (investor affirming that he

did not read the operating agreement), 771–75 (investor
affirming that he invested because his father, who invested and
vacationed with Hull, wanted him to invest), 835–36 (investor
confirming he only “scanned over” certain Fund documents).
49 Div. Ex. 216 ¶ 11.
50 Tr. 529, 588, 669–70; Resp’t Ex. 206.
51 Tr. 561; Div. Ex. 33; Resp’t Ex. 206.
52 Tr. 134, 142–43, 529, 541, 675–80; Resp’t Ex. 206.

23a
2. The Fund’s offering documents disclosed
features of the investment, and Hull required an
“alignment of interest” between Gibson and the
Fund.
Gibson and Hull spoke with nearly every investor
before they invested.53 In these conversations, Hull
made clear that the Fund was a “high-risk type
venture.”54
The offering memorandum likewise
stated that the Fund was “a highly speculative
investment”
that
was
“designed
only
for
sophisticated”
investors.55
The
offering
memorandum further affirmed that the Fund, like
many such funds, “generally will not disclose all of its
positions to Members on an ongoing basis,” suggesting
that it could remain secretive about its positions and
strategies.56
The
operating
agreement
and
offering
memorandum both warned investors that affiliates of
the Fund, such as Gibson, may conduct business “in
competition with the” Fund.57
The offering
memorandum further warned that affiliated parties,
like Gibson, might serve as investment advisers to
others, and might invest in the same securities as the
Fund in separate accounts.58 Gibson in fact did both:
53 Tr. 680, 1337–38.
54 Tr. 681. But cf. Tr. 836 (testimony that investor did not

remember whether he was told the investment was “risky”).
55 Div. Ex. 24 at 1, 7, 10.
56 Id. at 17; see Goldstein v. SEC, 451 F.3d 873, 875 (D.C.

Cir. 2006) (“[Hedge funds typically remain secretive about their
positions and strategies, even to their own investors.”).
57 Div. Ex. 21 at 2; Div. Ex. 24 at 19.
58 Div. Ex. 24 at 19.

24a
he served as a personal adviser to Hull without further
disclosing that relationship to the Fund, and he
invested in TRX in his personal account.59
The offering memorandum also made clear that
Gibson was to invest “the majority of his liquid net
worth” in the Fund.60 This was because Hull wanted
Gibson to have “total focus” on the Fund he was
managing.61 In fact, Gibson, Hull, and John Gibson
each mentioned Hull’s desire to establish an
“alignment of interest” between Gibson on one side
and Hull and the Fund on the other.62 Hull wanted
both Gibson and his father “to have skin in the game
and to be totally focused on this fund being
successful.”63 When asked if he wanted “Gibson to be
aligned with” him or with the Fund, Hull responded
“I would view them one and the same.”64
Gibson was thus required to borrow close to
$650,000 from Hull, invest virtually all of his money
in the Fund, and invest outside the Fund in what the
Fund invested in.65 And Hull loaned money to John
Gibson to invest as well.66 John Gibson agreed to this
arrangement because of his “loyalty” to Hull and
59 Tr. 145, 254, 763, 827; Div. Ex. 86 at 1, 3 (statement from

Gibson’s personal Schwab account); Div. Ex. 216 ¶ 23.
60 Div. Ex. 24 at 1, 7.
61 Tr. 561–62. Both Gibson and his father testified that

Hull wanted a “severe alignment of interest” between himself
and the other investors in the Fund. Tr. 1112, 1472.
62 Tr. 562, 674, 736, 1112, 1259, 1340.
63 Tr. 674.
64 Tr. 736.
65 Tr. 1340, 1358–59; Resp’t Ex. 117 at 5.
66 Tr. 1359; see Tr. 1259.

25a
because he “had complete confidence in” him.67 By
design, if the Fund lost money, Gibson would lose
more than other investors, and his family and
“individuals close to” him would be “exposed.”68
Indeed, when Gibson paid off his note to Hull in 2011,
after receiving his bonus for 2010, Hull became “visibly
upset,” and required Gibson to re-borrow the same
amount.69 And the approximately $650,000 that
would otherwise have gone to pay off the note went
back into the Fund, not into Gibson’s pocket.70
Although the Fund’s offering documents disclosed
Gibson’s investment in the Fund—and in fact
required it—the documents did not disclose the loan
from Hull, and Gibson did not otherwise reveal it to
investors.71
3. Gibson managed the Fund and received
compensation for doing so.
As noted, Hull had great success in his real estate
business by “cut[ting] . . . costs to the bone.”72 Hull
decided to apply this idea to managing the Fund.73
And this meant that Gibson, at about 26 years of age,
was managing a $32 million fund with little
experience and without “a full staff” or an experienced
investment adviser to give him guidance or advice.74
Gibson was thus alone in managing the Fund’s day67 Tr. 1259.
68 Tr. 1358.
69 Tr. 1360–61.
70 Tr. 1361–62.
71 Tr. 765–66, 828.
72 Tr. 1257.
73 Tr. 1257.
74 Tr. 1257.

26a
to-day operations and performing investment
He also negotiated
advisory services for it.75
securities transactions on its behalf, tracked market
conditions and the performance of the Fund’s
portfolio, sent status reports about the Fund to
investors,
communicated
with
brokers
and
counterparties, spoke with the management of TRX,
and submitted filings to the Commission.76 Major
decisions about the Fund’s investment strategy, such
as which stocks to invest in and when to hold or sell,
were approved by Hull in close consultation with
Gibson.77
Gibson was compensated for his services to the
Fund. From 2010 until early 2013, he received a
salary from Hull’s real estate business.78 These
payments were for his advisory services to the
Fund.79 Through 2010, Geier Group repaid Gibson’s
salary to Hull’s company; effectively, Gibson’s salary
was paid by Geier Group while the entity existed.80

75 Tr. 129, 186, 567. The offering memorandum stated that

Gibson was the managing member of Geier Group, and that
Geier Group was “responsible for certain administrative and
investment advisory matters” for the Fund. Div. Ex. 24 at 1.
Gibson told investors that he was Geier Group’s investment
adviser. Tr. 109–110; Div. Ex. 16 at 24407.

76 Tr. 185–87; see, e.g., Tr. 242–44, 279–80, 320–21; Div.

Exs. 31, 39, 70, 71.
77 Tr. 569–71, 673; see, e.g., Div. Exs. 80, 91; Resp’t Exs. 59,

102.
78 Tr. 246–52; Div. Exs. 43, 128, 147, 156.
79 Tr. 247–49, 251–52; Div. Ex. 188 at 472–74 (Gibson’s

investigative testimony).
80 Tr. 248–54. The salary was distributed through Hull’s

company and its payroll services to avoid the need to set up a

27a
Under the Fund’s operating agreement and offering
memorandum, Geier Group was also entitled to an
annual investment management fee equal to 1% of
each member’s capital account.81 The agreements
also entitled Geier Capital to a 10% “incentive
allocation” if the Fund met certain benchmarks.82
Both the management fees and incentive allocation
were compensation for Gibson’s advisory services to
the Fund.83 The Fund paid investment management
fees in 2010 and 2011.84 As a 50% owner of Geier
Group and Geier Capital, Gibson was entitled to half
this amount, which was around $250,000 for 2010 and
2011 combined.85 He reinvested the money in the
Fund.86 In 2010, the Fund also paid Geier Capital an
incentive allocation of around $3 million.87 Gibson
was entitled to half of this amount, which he
reinvested in the Fund.88
4. Geier Group is dissolved and Gibson substitutes
Geier Capital for another entity of the same
name.
At the end of December 2010, Gibson allowed
Geier Group’s registration as a Georgia investment
separate payroll for Gibson’s advisory services to the Fund. Tr.
248.
81 Tr. 121; Div. Ex. 21 at 4; Div. Ex. 24 at 8; Div. Ex. 216

¶ 12.
82 Tr. 123; Div. Ex. 21 at 5; Div. Ex. 24 at 8–9.
83 Div. Ex. 188 at 407, 461.
84 Id. at 402, 457, 461.
85 Id. at 403, 461; Div. Ex. 216 ¶ 13.
86 Div. Ex. 188 at 363–64, 461–62.
87 Div. Ex. 42 at 4; Div. Ex. 216 ¶ 14.
88 Tr. 123, 125–27; Div. Ex. 216 ¶ 13.

28a
adviser to lapse.89 He did not tell the Fund’s investors,
and in fact, solicited two new investors using offering
documents stating that Geier Group was a registered
investment adviser even though it was no longer
registered.90 Geier Group was dissolved in April
2011; nonetheless, Gibson falsely indicated in
Commission filings that it still existed.91 Despite
Geier Group’s dissolution, Gibson continued to advise
the Fund in 2011 just as he had in 2010.92 Gibson
created a new Geier Capital entity in Delaware in
December 2010 with the same ownership structure as
the old one.93 He dissolved the Georgia Geier Capital
in March 2011.94 Gibson neither disclosed to investors
the dissolution of Geier Group nor the substitution of
the Delaware Geier Capital for the Georgia entity, and
he failed to amend the Fund’s offering documents to
The Fund’s operating
reflect these changes.95
agreement, however, stated that the managing
member had the “sole discretion” to retain a different
entity than Geier Group “to serve as the [c]ompany’s
investment manager.”96

89 Div. Ex. 167; Tr. 149–51.
90 Tr. 151–52, 176–77; Div. Exs. 54, 56.
91 Div. Exs. 60, 64; Tr. 159–60, 177–82.
92 Tr. 184, 187.
93 Tr. 182–83; Div. Ex. 40; Div. Ex. 216 ¶¶ 7, 9.
94 Div. Ex. 216 ¶ 6; Div. Exs. 49, 63.
95 Tr. 162, 184.
96 Div. Ex. 21 at 3.

29a
5. The Fund invests all its money in TRX, but as
2011 progresses, the stock’s value declines.
Initially, the Fund invested in gold and other
commodities.97 During 2010, the Fund was “up 110
percent.”98 But Hull became “irritated” in late 2010
on learning that the Fund’s successful commodities
trading resulted in a large tax bill.99 To deal with this
“unfavorable tax” situation, and to generate fees, he
decided to increase the Fund’s equity investments
instead.100 Although Gibson thought the Fund should
add additional employees to “cover a number” of
potential investments, Hull favored a leaner
operation.101 Based on his real estate experience,
Hull favored having one employee—Gibson—and
“owning a single stock.”102
Gibson knew that investing all of the Fund’s assets
in one stock was risky.103 But he deferred to Hull’s
experience and identified TRX as a suitable
investment for the Fund.104 According to Gibson, TRX
is a “junior” gold mining company that explores for

97 Tr. 539–40, 1350; see Tr. 1363–64 (the Fund was trading

in commodities in 2010).
98 Tr. 1362.
99 Tr. 540, 575, 672, 1364–66.
100 Tr. 540, 575, 672, 1366.
101 Tr. 1257, 1366.
102 Tr. 1257, 1366.
103 Tr. 1366–67.
104 Tr. 575, 1367 (“I . . . had . . . supreme respect for
Mr. Hull’s judgment. Who am I? You know, I haven’t had nearly
the success he has and I believed it would -- and I certainly also
believed it was an achievable objective.”).

30a
gold resources in Africa.105 He testified that it had 46
mining properties in Tanzania.106 The Fund began
investing in TRX in late 2010 and early 2011.107 By
the end of April 2011, the Fund’s assets were invested
solely in TRX, and the Fund owned approximately 9.7
million shares of TRX stock (worth approximately $70
million), which was around 10.3% of all outstanding
TRX shares.108
The Fund’s fortunes began to change soon after it
concentrated its investments in TRX. In June 2011,
TRX peaked at $7.46 a share, and then slowly
declined the rest of the summer.109 Given that TRX
was a gold-mining company and the price of gold was
high, Gibson had difficulty understanding why TRX’s
share price was declining.110 And Hull was concerned
that TRX’s president and CEO, Jim Sinclair, was not
doing the exploration necessary for TRX to succeed.111
On August 5, Hull communicated his concerns to
Gibson, noting that the Fund had lost most of its gains
and “incurred a huge income tax obligation.”112 Hull
also pointed out that “none of” his and Gibson’s
105 Tr. 189.

Gibson testified that a junior gold mining
company “is one that is entire[ly] or generally exploratory in
nature, less capitalized, typically does not have the resources to
fully develop the asset and is more dependent upon access to the
capital markets and typically has a greater leverage to the gold
price.” Tr. 1350.
106 Tr. 1351.
107 Tr. 1345; Div. Ex. 53 at 1.
108 Tr. 188; Div. Ex. 216 ¶¶ 15, 16.
109 Tr. 1347; Joint Ex. 1 at 3–4.
110 Tr. 1373.
111 Tr. 582.
112 Div. Ex. 75 at 71133.

31a
“reasoning/predictions have come to [bear].”113
Gibson felt the pressure.
6. Gibson berates TRX’s president and considers a
potential sale.
On August 10, when TRX was trading a little
below six dollars a share, Gibson e-mailed Sinclair,
saying that he was “physically ill over our
performance,” it would “[v]ery soon . . . make sense to
exit our positions,” and “[t]here is no time left.”114 In
a separate e-mail, Gibson berated Sinclair,
complaining about statements made by TRX’s chief
geologist that contradicted both Sinclair and TRX
press releases and that Gibson worried would be
publicly reported.115 Gibson demanded, “What is the
answer,” and told TRX’s CEO to “make sure [the
geologist] is on the same page.”116
Sinclair replied and tried to reassure Gibson that
he was doing what he could to move the company
forward.117
Gibson quickly responded asking
whether certain things Sinclair had previously said
were no longer accurate.118 Receiving no immediate
response, Gibson e-mailed Sinclair again (in all caps),
asserting that “everything you say is always
113 Id.
114 Div. Ex. 76; Joint Ex. 1 at 4. Although all the e-mails

discussed in this paragraph appear to have been sent on
August 10, 2011, the time stamps are confused, and it is unclear
whether this e-mail was sent before or during a separate
exchange shown in Division Exhibit 77.
115 Div. Ex. 77 at 71655; see Tr. 1348 (identifying chief

geologist).
116 Div. Ex. 77 at 71655.
117 Id. at 71654–55.
118 Id. at 71654.

32a
inaccurate,” “this is the last straw,” and Gibson was
in danger of losing credibility with his investors
because of Sinclair’s lapses.119 Sinclair responded
that he “totally disagree[d]” and did “not intend to
continue” the conversation.120 A few hours later,
Gibson told Sinclair that “our share price is a
disaster” and “[w]hatever we are doing is failing.”121
Gibson then instructed that “We need to be all hands
on deck. We need to be mapping out a calendar or
announcements for the next six weeks. We need to be
planning a roadshow. We need to be PRODUCING
the gravels and tailings. We need to be announcing
that.”122
On August 15, Gibson and Sinclair traded e-mails
again about planning a roadshow to attract additional
investors. Gibson felt that “[t]his is a priority whose
significance I cannot sufficiently emphasize” and
added that this was a “do or die moment” and if “we
do not move by [September 2011], we are toast.”123
Sinclair assured Gibson that he was “working as hard
and fast as possible.”124
119 Id. (“I TOLD MY INVESTORS YOU SAID THIS AND

NOW IT IS NOT TRUE? HOW DO YOU EXPECT THEM TO
STAND BY ME WHEN THIS HAPPENS OVER AND OVER
AND OVER?”).
120 Id.

The parties presented little evidence about the
nature of Gibson’s relationship with Sinclair. The record
reveals, however, that at this point, Gibson was about 27 years
old and Sinclair, who was approaching 70 years of age, see Div.
Ex. 183A at 5, was TRX’s president and CEO.
121 Div. Ex. 77 at 71654.
122 Id.
123 Div. Ex. 78 at 73888.
124 Id.

33a
In context, it is clear that although Gibson was
worried about TRX’s share price, perhaps thought
TRX’s management was not doing enough to raise
that share price, and was trying to “[i]nstill a sense of
urgency in Mr. Sinclair,” he still believed that TRX
had substantial value as a company.125 For one thing,
he did not immediately sell his own TRX shares. And
he told the Fund’s investors in a letter on August 22,
that although his “performance year to date ha[d]
been an exceptional failure,” the Fund was
“positioned exceedingly well” and investors should “sit
tight.”126
Gibson was, however, starting to consider selling
the Fund’s interest in TRX. On the same day he
communicated with Fund investors, he reached out to
Richard Sands, a banker at Casimir Capital, and told
Sands that he would be willing to sell the Fund’s
entire position, but wanted $6.25 per share, which
would have been a premium above the then-current
market price of $5.85.127 Sands did not think the price
Gibson sought was “doable,” but looked into it, and
came back with a buyer who was willing to buy at
market price.128
Hull and Gibson “seriously”
considered the offer, but rejected it because they “did
not [think it] reflect[ed] the value of [the Fund’s]
125 Tr. 1380–82. According to Hull, the hyperbolic language

Gibson used with Sinclair was typical of his “personality.” Tr.
583. Gibson would “run very hot an d cold” and “go unhinged on
them” but then be “nice.” Tr. 583. Gibson would sometimes
“rant and rave about . . . Jim Sinclair in a negative way.” Tr.
584.
126 Resp’t Ex. 51 at 2; see Tr. 1382.
127 Resp’t Ex. 177 at 1–4.
128 Id. at 1; Tr. 1384–86.

34a
position.”129 Hull and Gibson were therefore still
sufficiently bullish in late August about TRX’s value
that they would only have sold for a premium.
7. Gibson suspends management fees for the Fund
in light of its poor performance.
But TRX’s share price continued to decline. On
September 22, it tumbled from around $5.50 to
around $4.50.130 Gibson again expressed displeasure
to Sinclair, but in a more measured tone than in
August.131 Meanwhile, Hull asked Gibson whether
Hull should increase his personal investment in TRX
because the stock had gone so low.132 Gibson told him
that although he remained “bullish” on TRX, and
expected the share price to recover over time, he did
not recommend buying more shares.133 Later that
evening, however, Gibson opined that the Fund
should buy more TRX shares.134 Gibson also told Hull
that although he would personally hold “TRX until its
share price has the opportunity to better reflect its
underlying value,” he had “failed to fulfill the
expectations our partners and I have had for its
performance” and would cease taking management
fees for his work on behalf of the Fund.135
129 Tr. 1386; see Resp’t Ex. 62 at 6 (e-mail from Sands noting

in late September that Gibson had backed away from previous
sale).
130 Joint Ex. 1 at 4.
131 Div. Ex. 79.
132 Tr. 1389; see Resp’t Ex. 52.
133 Resp’t Ex. 52 at 1; Tr. 1389–90; see Resp’t Ex. 54.
134 Resp’t Ex. 53 at 1 (“I think it is extremely compelling to

do so. I would not buy anything else.”).
135 Id.

35a
The following day, Gibson backed off his advice to
Hull to buy TRX shares and instead urged caution.136
Gibson also told investors that the Fund was down “to
only slightly above original principal investments last
year,” and that at the end of the month, he would stop
assessing management fees until the Fund’s
performance returned to “acceptable levels.”137 He
nonetheless reiterated his faith in TRX’s “underlying
value” and wrote, “Personally, I will not redeem my
interest in Geier and TRX until the bull market
matures over the coming years at what I strongly
believe will be significantly higher levels.”138 Two
investors responded to Gibson’s email stating that
they remained supportive of his efforts.139
TRX’s share price dropped again on Friday,
September 23, to $4.07.140 Around the end of the
trading day, Gibson sold 78,000 of the Fund’s TRX
shares for $4.04 per share.141 An investor urged Hull
that day to consider diversifying the Fund’s portfolio
in the near future, but Hull rejected the proposal.142

136 Resp’t Ex. 54.
137 Resp’t Ex. 56 at 1.
138 Id.; Div. Ex. 81 at 1 (same letter). Context shows that

when Gibson said he would not redeem his “interest in Geier and
TRX,” he was talking about his personal investment in the Fund,
and not about any investment he had in TRX outside the Fund.
139 Resp’t Exs. 57, 58.
140 Joint Ex. 1 at 4.
141 Resp’t Ex. 17 at 4; Tr. 1391; Div. Ex. 216 ¶ 22.
142 Resp’t Ex. 59 at 1 (“[C]oncentration into one stock

provides equal benefits (you can truly understand one company)
and a thinly traded company has benefits as well.”).

36a
8. Hull and Gibson decide to sell the Fund’s
investment in TRX.
Over the following weekend, however, Hull had a
change of heart about holding TRX. He told Gibson
that he was not sure “he had a tolerance for more
losses,” which Gibson took to mean that he (Gibson)
should “consider a sale” and “solicit a bid” for the
Fund.143 Hull’s general guidance was to get out at
good prices.144 Gibson never informed the Fund’s
investors of Hull’s change in strategy.145
Over the next month and a half, Gibson tried to sell
the Fund’s TRX shares at good prices. Although there
were times during this period when Hull and Gibson
were content to briefly hold and wait for better
offers,146 the evidence shows—as will be detailed
below—that Gibson regularly reached out to brokers
and counterparties from September 25 until
November 10 to try to liquidate the Fund’s holdings
in TRX on favorable terms.
9. Gibson sells personal shares ahead of the
Fund’s sale of a third of its TRX investment.
On Sunday evening, September 25, Gibson wrote
to Sands at Casimir asking if there was a buyer for up
to the Fund’s entire position in TRX.147 Gibson
offered 10,250,000 shares, which was the total held by
the Fund, combined with a block of around 680,000

143 Tr. 1392–93.
144 Tr. 219–20, 605; Div. Ex. 187 at 77–78 (Gibson’s

investigative testimony).
145 Tr. 220.
146 Resp’t Exs. 89, 101; Div. Ex. 91.
147 Resp’t Ex. 62 at 6, 8.

37a
shares held separately by Hull.148 Sometime on
September 26, Sands informed Gibson that he
thought he had a buyer for about three to five million
shares.149 Gibson told Sands to “maximize the
number of shares” and “price and book the sale” on
September 27.150
As noted above, Gibson held TRX shares in his
personal account outside of the Fund.151 Sometime on
September 26, he sold 2,000 TRX shares from his
personal Schwab brokerage account.152 He also sold
1,000 TRX shares from Geier Group’s Schwab
account.153 Finally, he sold 18,900 TRX shares from
the account of his girlfriend, Francesca Marzullo.154
Ms. Marzullo was not invested in the Fund.155 Her
account “was conceived by” and funded solely by her
father.156 Gibson was “exclusively responsible for the
trades in [Ms. Marzullo’s] account,” and he “reported
those trades and discussed them daily with Mr.
Marzullo.”157 He did not, however, speak with Mr.

148 Tr. 1404–05.
149 Resp’t Ex. 62 at 4–5.
150 Id. at 4.
151 Div. Ex. 216 ¶ 23.
152 Id. ¶ 26; Div. Ex. 86 at 3; Tr. 226, 1394.
153 Div. Ex. 88 at 7; Div. Ex. 216 ¶¶ 25, 28; Tr. 231–32, 1394.
154 Div. Ex. 87 at 2–3; Div. Ex. 216 ¶¶ 24, 27; Tr. 230. As

noted, Ms. Marzullo was the daughter of Giovanni Marzullo, an
investor in the Fund. Tr. 135, 227, 1336.
155 Tr. 143.
156 Tr. 1395–97. Ms. Marzullo was an unemployed graduate

student at the time. Tr. 1397.
157 Tr. 1396–97.

38a
Marzullo before selling Ms. Marzullo’s shares on
September 26.158
Gibson obtained an average share price of $4.04 to
$4.05 for sales from the three accounts.159 No TRX
shares remained in these accounts after the sales.160
Gibson never disclosed these transactions to Fund
investors.161 In light of Gibson’s investment in the
Fund and its concentration in TRX, Gibson’s sale of his
personal shares amounted to a “little under 1 percent”
of his total exposure to TRX through the Fund.162 So
he remained “significantly long” in TRX.163 As Gibson
testified, because of their relatively small size, there is
no evidence that his September 26 sales materially
affected TRX’s share price.164
Gibson testified that he sold his personal TRX
shares because he had no liquid assets and
management fees from the Fund had just been
suspended.165 But given that Francesca Marzullo’s
shares were funded by her father, Gibson’s testimony
regarding a need for liquidity does not explain why he
sold her shares.166 Most importantly, Gibson’s
explanation does not sufficiently address the timing
158 Tr. 1471.
159 Div. Ex. 86 at 3; Div. Ex. 87 at 2–3; Div. Ex. 88 at 7.
160 Tr. 226, 230, 232.
161 Div. Ex. 188 at 662–63, 665–66, 669–71; Tr. 760, 823–24

(two investors testified that they were unaware of Gibson’s
personal sales of TRX).
162 Tr. 1395.
163 Tr. 1398.
164 Tr. 1424.
165 Tr. 1394, 1472–73.
166 See Tr. 1395–97, 1473.

39a
of the sale. On the morning of Monday, September 26,
Gibson was actively working to sell the Fund’s entire
position.167 Gibson understood that Sands likely
would have a buyer for a block sale and urged Sands
“to price and book the sale” on Tuesday,
September 27.168 Although Gibson did not know
exactly when the Fund’s block sale would take place,
and any sale was still dependent on Hull’s
approval,169 he was in the midst of a negotiation that
he hoped would lead to a sale. The timing of the sale
in the three accounts outside the Fund suggests that
at the very least, Gibson was attempting to avoid
potential losses by selling personal shares ahead of
the Fund’s impending block sale.
TRX closed at $4.11 on Monday, September 26,
and opened at $4.24 on Tuesday, September 27.170
Following Sands’s instructions, Gibson transferred all
of the Fund’s TRX shares to an account at Casimir.171
The volume of trading in TRX was heavy all day, with
the share price rising to $4.34 and then dropping to
$3.70 around 3 p.m.172 Around that time, Sands

167 Resp’t Ex. 62 at 6–7.
168 Id. at 4–5.
169 Tr. 1415–16, 1421–23.
170 Joint Ex. 1 at 4.
171 Resp’t Ex. 62 at 1–3; Resp’t Ex. 66; Div. Ex. 90 at 3.

Sands told Gibson that Gibson needed to place all the Fund’s
shares in its Casimir account in order to reassure the buyer
because “no buyer will buy that quantity if they know another
5mm is being sold behind it.” Resp’t Ex. 62 at 1.
172 Joint Ex. 1 at 4; Tr. 1007–08; Div. Ex. 184 at Exhibits

p. 4 (Dr. Taveras Expert Report – TRX intraday trading for
September 27); see Tr. 1679 (reflecting Gibson’s counsel’s

40a
phoned Gibson with an offer of $3.50 a share for
around 3.5 million of the Fund’s TRX shares.173
Gibson and Hull decided “in one minute to accept
it.”174 The Fund sold 3,734,395 TRX shares for
around $3.50 a share.175 TRX closed at $3.54 on a
volume of over six million shares traded that day.176
If Gibson had sold his personal TRX shares
immediately after the Fund sold its shares and
obtained the same price as the Fund, he would have
received around 54 cents less per share than he
did.177
10. Gibson considers other offers for the Fund in
late 2011.
Gibson attempted to sell the remainder of the
Fund’s TRX position throughout the end of September
and in October. At the end of September, Gibson
reached an agreement with Luis Sequiera, a principal
at Roheryn Investments S.A., to buy the rest of the
Fund’s TRX position, plus the additional block of
shares held separately by Hull, at $3.50 a share.178 In
early October, however, the sale fell through.179
When he told Hull the deal fell through, Gibson said
that “[w]e’re going to very likely be best served
holding our position” and “I would assume we are
concession that Division expert Dr. Carmen A. Taveras’s
calculations, as opposed to her conclusions, are not in dispute).
173 Tr. 1422; Div. Ex. 82 at 6711.
174 Tr. 1422–23.
175 Div. Ex. 82 at 6710; Div. Ex. 90 at 3.
176 Joint Ex. 1 at 4.
177 Tr. 234–35.
178 Resp’t Ex. 92 at 3; Resp’t Ex. 93; Tr. 1427–30.
179 Resp’t Ex. 101; Tr. 611–12, 1430–31.

41a
where we are for the next several months.”180 Hull
wanted Gibson to keep trying to find a different buyer
or work with Sequiera to make a deal.181 Negotiations
with Sequiera picked up again when Sequiera offered
to buy about 200,000 of the Fund’s shares a day, but
Gibson rejected the offer in mid-October.182 Gibson
told Hull on October 14, “I am contemplating our
options but waiting for at least a few weeks.”183
Nonetheless, on October 16, Gibson e-mailed a broker
at GarWood Securities and said that the Fund “will be
closing [its] TRX position in the next few weeks with a
pre-arranged buyer beginning” the next day.184
Indeed, Gibson testified that at this time, “[o]n a
near-daily basis, we had a belief that we were
imminently close to the consummation of that full
sale.”185 But the planned transaction that was to
begin on October 17—and which may again have been
a deal with Sequiera—also fell through.186 The Fund,
however, did sell 364,495 TRX shares at an average
price of $3.42 per share on October 17.187
11. The Fund purchases a block of TRX shares
separately held by Hull.
The Fund’s offering memorandum provided that
“purchase and sale transactions” between the Fund
and “other entities or accounts” could take place
180 Resp’t Ex. 101.
181 Resp’t Ex. 102.
182 Resp’t Ex. 104; Tr. 1433–34.
183 Resp’t Ex. 104 at 1.
184 Resp’t Ex. 108; Div. Exs. 92, 93.
185 Tr. 1434; see Tr. 260.
186 Tr. 260, 1434–35; see Resp’t Exs. 107, 109.
187 Tr. 1475.

42a
subject to the following guidelines: (1) the sale had to
be “for cash” at the “current market price” of the
securities; and (2) “no extraordinary brokerage
commissions or fees (i.e., except for customary
transfer fees or commissions) or other remuneration
shall be paid in connection with any such
transaction.”188
On October 18, Gibson caused the Fund to buy the
block of 680,636 TRX shares owned by Hull at the
closing price that day, $3.60 a share.189 The purchase
price was about $2.45 million.190 Given Hull’s over
80% interest in the Fund, the cost borne by other
investors for this transaction was about $470,000.191
Neither the Fund nor Hull paid a commission on the
transaction.192 Gibson provided investment advisory
services to both Hull and the Fund on this
transaction.193
Gibson testified that he proposed this sale to
Hull.194 Hull first suggested that Gibson proposed the
idea before conceding that he was unsure who
proposed the sale.195 But both agreed that they were
trying “to achieve a block sale” of all shares held by the

188 Div. Ex. 24 at 19.
189 Div. Ex. 95; Joint Ex. 1 at 5; Tr. 260–61.
190 Div. Ex. 95. The exact figure was $2,450,589.60. Id.
191 In October 2011, Hull owned 80.702% of the Fund.

Resp’t Ex. 206.
192 Tr. 262, 629–30.
193 Tr. 261.
194 Tr. 1438–39.
195 Tr. 706, 737.

43a
Fund and its affiliates, consistent with Sequiera’s
previous request.196
The Division’s expert, Dr. Gary Gibbons, opined
that since the market volume for TRX on October 18
was just under 500,000 shares traded, if Hull had sold
680,000 shares into the market on that day, it would
have depressed TRX’s share price.197 One potential
implication of Dr. Gibbons’s observation is that the
Fund should have received a block discount.198 In
other words, the Fund should have purchased Hull’s
shares for less than the closing price, because if those
shares had been sold on the market, Hull would not
have been able to obtain $3.60 for each share.199 The
Fund, however, did not receive a block discount.200
Gibson’s expert, Daniel R. Bystrom, disagreed
with Dr. Gibbons and the Division.201 He testified
196 Tr. 705–06, 1435, 1438–39.
197 Div. Ex. 185 at 23; Joint Ex. 1 at 5; see Tr. 1484–85.

Dr. Gibbons is a professor of finance and entrepreneurship at the
Thunderbird School of Global Management, which is an
independent college at Arizona State University. Tr. 346–47.
His work focuses on securities valuation, and he is a registered
investment adviser. Tr. 347–48.
198 See Tr. 630, 1628. Dr. Gibbons did not say in his report

or testimony that the Fund should have received a block discount
in this transaction; he testified only that, because the shares
were not sold in the market, the transaction did not occur at the
current market price, even though the shares were sold at the
closing market price on the day the Fund purchased them. See
Tr. 945–46, 950–52.
199 See Tr. 945–46, 1628.
200 Tr. 262.
201 Bystrom currently oversees risk management at a New

York-based investment adviser. Tr. 1552. He has worked in the
financial sector since 1992, and has been a portfolio manager at

44a
that it is hard to know whether TRX prices would have
been depressed if Hull sold his shares on the
market.202 He admitted that a block discount could
be appropriate when a private transaction avoids the
price-depressing impact of a sale into the market,
but noted that “[t]hose situations are really case by
case” and that a motivated buyer “may be willing to
pay at market price or even above market price.”203
When the Fund eventually liquidated its TRX
holdings on November 10, which is discussed below,
it paid a commission on that sale.204 Although the
parties dispute whether the Fund’s purchase from
Hull caused it to pay $1,360 or $6,866 in extra
commissions, because the Division is not asking for
disgorgement of this extra commission, I need not

hedge funds. Tr. 1553.
adviser. Tr. 1590.
202 Tr. 1628–31.
203 Tr. 1628, 1630.

He is not a registered investment

Dr. Gibbons proved to be a difficult
witness on cross- examination. He sometimes refused to answer
simple yes-or-no questions with a yes or no, Tr. 408–09, 494–96,
501–03, 892–94, and fought counsel’s hypothetical premises
because the premises did not match his view of the facts, e.g. Tr.
501, 503, 927–28. On occasion, I had to ask Dr. Gibbons to
simply answer the question asked. Tr. 495–96, 883–84. A
particularly frustrating exchange occurred when Gibson’s
counsel asked Dr. Gibbons about a treatise on options. Counsel
twice walked Dr. Gibbons through a point in the treatise and
concluded by asking whether Dr. Gibbons agreed with the point
only to have Dr. Gibbons ask, “In what context?” Tr. 915, 917.
Dr. Gibbons’s demeanor diminished his credibility. These
sorts of problems generally did not mar Bystrom’s testimony,
however.
204 Tr. 1440–41.

45a
decide who is correct.205 In any event, because Hull
owned over 80% of the Fund, only about 19.3% of the
extra commission was borne by investors other than
Hull.206
Dr. Gibbons opined that the Fund’s purchase of
Hull’s shares was “counterproductive to the goals of”
the Fund because “the decision to liquidate” the
Fund’s TRX holdings had already been made.207
Dr. Gibbons therefore believed that the trade was
made to benefit Hull at the expense of the Fund.208
But both Gibson and Hull testified that the purchase
was in the Fund’s interest. According to Hull, the
Fund purchased his shares in order to consolidate a
larger block of shares available for sale, which could
205 Gibson testified that the Fund paid a commission of .2

cents per share when it liquidated its TRX assets. Tr. 1441.
Multiplied by 680,636 shares, the total commission to sell Hull’s
former shares would come to $1,361. Relying on the GarWood
account statements detailing the sales, the Division notes that a
mathematical comparison of the amounts sold with the proceeds
received demonstrates that the commission was approximately
one cent per share. Div. Ex. 122 at 14–24. The second to last
row on page 24 of Division Exhibit 122 indicates 100,000 shares
were sold for $2.106 a share with proceeds of $209,594.
Multiplying 100,000 by 2.106 equals 210,600. Subtracting
209,594 from that amount yields 1,006. And dividing that by
100,000 shares yields approximately 1 cent per share. According
to the Division’s calculation, which is based on more concrete
evidence than Gibson’s, the total extra commission paid was
$6,866. See Div. Proposed Findings of Fact ¶ 143.
206 Tr. 1441. Gibson, his parents, and Giovanni Marzullo,

together owned 10.278% of the Fund.
Resp’t Ex. 206.
Subtracting this percentage and Hull’s percentage from the total
means that 9.01% of the extra commission was borne by the
remaining Fund investors. And 9.01% of $6,866 is $618.63.
207 Div. Ex. 185 at 23.
208 Id.

46a
“entice the buyer” and could garner a “substantially
increased price.”209 Gibson testified, “We wanted to be
in a position to sell the full shares of the fund and its
affiliates in a single transaction.”210
Bystrom
confirmed based on his industry experience that
consolidating the shares “greatly simplifies the
process of entering into a block transaction” because
a “buyer would want to know that he’s seeing the
whole piece for sale” and that there are no additional
shares left behind.211
The evidence lends some support Gibson’s
contention that there were reasons to sell Hull’s
shares in a block with the Fund’s shares.212 Both
Sands on September 26 and Sequiera on October 1
wanted confirmation from Gibson that the Fund’s
entire position would be available to sell, and that no
shares would be left behind.213 When Gibson
communicated with them, he included Hull’s 680,000
shares in the total amount he had available to sell in
an effort to identify other large blocks as they had
209 Tr. 624, 627, 639.
210 Tr. 1435; see Tr. 1438–39. Elsewhere, however, Gibson

was somewhat vague as to his reasons for the Fund’s purchase
of Hull’s shares. On October 17, he told Hull that the
consolidation would “help me for regulatory and other reasons.”
Div. Ex. 94. The same day, he told a banker involved with Hull’s
account that it would be “easier to manage this position in one
place.” Resp’t Ex. 110.
211 Tr. 1567; Resp’t Ex. 228 at 6 (Bystrom expert report).
212 Tr. 1435 (Gibson testified that the Hull transaction was

consistent with Sequiera’s request that all shares of the Fund
and its affiliates needed to be sold together).
213 Resp’t Ex. 62 at 7 (Sands said, “whatever we do needs to
be a clean up”); Resp’t Ex. 93 at 1–2 (Sequiera wanted to make
sure the Fund has no other shares to sell).

47a
requested.214 And Sands asked Gibson to move all of
the Fund’s shares to an account at Casimir for this
very reason; even though he was only brokering the
sale of three to five million shares, he wanted
everything in one account because “no buyer will buy
that quantity if they know another 5 [million] is being
sold behind it.”215 But the evidence also shows that
the Fund did not need to purchase Hull’s shares for
all of the shares to be sold at once.216
Gibson never disclosed the purchase of Hull’s stock
to the Fund’s investors.217
12. Gibson buys puts for himself, his girlfriend, and
recommends puts to his father.
After arranging the purchase of Hull’s shares on
October 18, Gibson continued to search for a buyer for
the Fund’s remaining TRX position. On October 24,
he told one Fund investor that he was planning to
liquidate the Fund but, “to ensure we can achieve
good execution on the sale,” had not disclosed his
intent to investors.218
On October 26, Hull’s executive assistant, Laurie
Underwood, e-mailed Gibson a “sixteenth amended
and restated demand promissory note,” evidencing
that he owed Hull $636,921 with an 8% interest
214 Tr. 1404–05, 1429–30.
215 Resp’t Ex. 62 at 1.
216 See Tr. 1429–30, 1621–22; Resp’t Ex. 92 at 3–4. It is true

that Gibson did not consolidate Hull’s shares before the
September 27 sale or as part of the failed deal with Roheryn. See
Resp’t Ex. 92. But the September 27 sale was anticipated to be
for three to five million shares, or less than all of the Fund’s
shares. Resp’t Ex. 62 at 4–5.
217 Tr. 261–62.
218 Div. Ex. 98 at 10236; Tr. 635.

48a
rate.219 Ms. Underwood, who included accounting
figures for the note, asked Gibson to execute the
amended note and return it to her.220 Gibson realized
at that point that a 50-cent drop in TRX’s share price
would render him “insolvent.”221
The next day, Gibson began purchasing $4 TRX
put option contracts with an expiration date of
November 19 for his personal account and for
Francesca Marzullo’s account.222 A put option gives
the purchaser of the put the right, but not the
obligation, to sell a security at a specified “strike price”
(in this case $4) by a specified date.223 If the price of
the underlying security declines below the strike
price, the put is “in the money” and the put’s
purchaser can sell it for a profit. Conversely, if the
prices rises above the strike price, the put will expire
worthless and the purchaser will only have lost the
cost of the put.
On October 27 and 28, Gibson bought a total of
1,604 $4 TRX put contracts in Ms. Marzullo’s account,
paying approximately $50,000.224 On October 28,
November 2, and November 8, Gibson bought a total
of 565 $4 TRX put contracts for his own account,
paying approximately $20,000.225 Each put contract
219 Resp’t Ex. 117 at 1, 5.
220 Id. at 1; see Tr. 1445–46.
221 Tr. 312–13, 1446–47.
222 Tr. 300–01, 1446–47; e.g. Div. Ex. 102 at 2.
223 Div. Ex. 184 at 20–22.
224 Div. Ex. 216 ¶ 31; see Div. Ex. 102 at 2–3; Tr. 308.
225 Div. Ex. 216 ¶ 30; Div. Ex. 99 at 3; Div. Ex. 124 at 3.

Gibson also bought some $2 TRX puts on November 10, which
he was able to sell later that day for a profit of about $2,500. Div.

49a
covered 100 TRX shares and cost between 30 and 45
cents a share.226 Gibson did not disclose his put
purchases to the Fund or any of its investors,
including Hull.227
Gibson testified that he purchased protective puts,
fearing he might become insolvent, to hedge against a
potential loss should TRX decline in value.228 As
Bystrom explained, a protective put acts like an
insurance policy.229 If one is long in a stock, then
purchasing puts to cover a percentage of that
exposure can “mitigate your loss below the strike
price of the option” should the value of the stock
decline.230 Purchasing protective puts could allow an
investor “to maintain long exposure, particularly
through bouts of volatility.”231 A naked put, on the
other hand, is the purchase of a put option by an
investor who does not have a long position in the
underlying security.232 For example, if an investor
who does not own a stock buys a put contract for that
Ex. 124 at 3. Although it may be that he timed his purchase and
sale of these puts based on knowledge about the Fund’s activity,
see Div. Ex. 184 at 23, Exhibits p. 18; see also Div. Ex. 187 at 103,
the Division does not press this point or seek disgorgement of the
resulting profit, see Div. Br. 41.
226 Tr. 1443; Div. Ex. 99 at 3; Div. Ex. 102 at 2–3; Div. Ex.

124 at 3.
227 Div. Ex. 187 at 120, 215–16.
228 Tr. 312–13, 1445–46.
229 Tr. 1577; see Robert J. Aalberts & Percy S. Poon,

Derivatives and the Modern Prudent Investor Rule: Too Risky or
Too Necessary?, 67 Ohio St. L.J. 525, 566 & n.262 (2006).
230 Tr. 1633.
231 Tr. 1574.
232 Tr. 1576–77.

50a
stock and exercises the put when the stock drops, the
investor has made money even though the share price
has fallen. If the same investor has a long position in
the underlying stock even after purchasing puts, the
best the investor will do by exercising the puts when
the share price falls is mitigate a portion of the overall
loss suffered.233
When Gibson bought the puts in his personal
account, his interest in the Fund equated to over
100,000 shares of TRX.234 The puts covered 56,500
shares.235 According to Bystrom, because Gibson was
still long in TRX after purchasing the puts, his puts
The Division’s experts,
were protective.236
Dr. Gibbons and Dr. Taveras,237 agreed in substance
with the definition of a protective put, and
acknowledged that Gibson’s puts could be
characterized as protective puts because of Gibson’s
long exposure to TRX through the Fund.238
233 See Tr. 1633.
234 Tr. 1444. Gibson’s counsel asserted that Gibson held

around 220,000 shares of TRX through his interest in the Fund.
See, e.g., Tr. 1063–64. But Gibson stated that although he
originally held over 230,000 shares, he only held about “half of
those shares” when he purchased the puts. Tr. 1444. Indeed,
when Gibson bought puts at the end of October and the
beginning of November, the Fund had already liquidated half of
its TRX position.
235 Div. Ex. 216 ¶ 30.
236 Tr. 1580.
237 Dr. Taveras is a financial economist at the Commission.

Tr. 963. Her report concerns the profits made by Gibson and
others on the transactions at issue in this proceeding. Tr. 964–
66.

238 Tr. 918–19, 928–30 (Dr. Gibbons acknowledged that

although Gibson did not have any TRX stock in his personal

51a
Although Gibson bought as many puts as he could,
he felt in hindsight that he “wildly underhedged [his]
risk” because he still lost a lot of money when the Fund
liquidated its TRX holdings.239 Gibson further
testified that he bought puts for Francesca Marzullo’s
account to hedge her father Giovanni Marzullo’s
exposure to TRX through the Fund.240 Gibson said he
considered Francesca Marzullo’s parents as advisory
clients of his, and he purchased puts to hedge their
TRX exposure because “[t]hey were elderly[,] . . .
living on a fixed income[,]” and “had all of their liquid
assets in the Fund.”241 Although the puts were really
for Ms. Marzullo’s parents, Gibson testified that he
bought them in Ms. Marzullo’s account because he
had access to her account.242 But after Gibson
received the proceeds from the sale of Ms. Marzullo’s
puts on November 10, he continued to trade in her
account and lost all of the proceeds from the put sales
account when he purchased the puts, he intended to hedge his
exposure to TRX through the Fund); Tr. 1043, 1060–62
(Dr. Taveras agreed with Gibson’s counsel that because Gibson
was long in TRX through his exposure to the Fund, his puts could
be characterized “as a hedge”).
239 Tr. 312–13, 1447; see Div. Ex. 187 at 130–31.

The
Division emphasizes that in his investigative testimony, Gibson
called his put purchases “a short bet” against TRX. Div. Ex. 187
at 118–19; Tr. 301–03. But because Gibson was net long in TRX
through his exposure to the Fund’s investment, his puts are
better characterized as protective. See Div. Ex. 187 at 118–20
(agreeing that while in his personal account, he “had a short bet
against TRX,” he was overall through the Fund “exceptionally
long and far longer than anyone else in the Fund”).
240 Tr. 1447–48.
241 Tr. 1448.
242 Div. Ex. 187 at 113.

52a
on other options trades.243 I therefore doubt that
Gibson’s actions were motivated solely out of concern
for the Marzullos as an elderly couple on a fixed
income.
When asked the obvious question, Gibson testified
that he did not buy puts to hedge the Fund’s position
because he believed buying puts would not have been
a responsible investment for the Fund.244 The puts
cost money, and Gibson said he “expected them to
expire worthless.”245 The Fund had already sold
about half of its interest in TRX, and given that the
Fund was no longer one of the largest owners of the
stock, Gibson said that he did not expect the
impending sale of the remainder of the Fund’s shares
to push TRX’s stock price down enough to render the
puts valuable.246
In addition to his own put purchases, Gibson
advised his father on November 8 to buy $4 TRX puts,
sell the TRX shares he held in a personal IRA account,
and then sell the puts.247 John Gibson was one of his
243 Tr. 331, 1507.
244 Tr. 1450–51. Gibson purchased some $2 and $3 puts for

the Fund on the day that the Fund sold the balance of its TRX
shares. Div. Ex. 187 at 103; Resp’t Ex. 204. But neither party
has raised any issue about those puts.
245 Tr. 1450.
246 Tr. 1450–51.
247 Tr. 322–23, 1107–08, 1114, 1243–44, 1253; Resp’t Ex.

207; see Tr. 1277–79. On November 8, John Gibson spoke with
Hull, who reported that “we’re going to do something here in
Geier.” Tr. 1108. John Gibson asked what Hull meant and Hull
told John Gibson to “just call Christopher and whatever he tells
you to do, you do that.” Tr. 1108. So John Gibson called his son
who, in a brief conversation, said “get a pen, buy a put, sell the
stock, sell the put, do it immediately.” Tr. 1108.

53a
son’s advisory clients.248 After speaking to his son,
John Gibson phoned his broker, which did not execute
the sale of his TRX stock or the purchase of the puts
until the next day.249 When Gibson told his father to
execute these transactions, he knew the Fund was
planning imminently to sell the remainder of its TRX
holdings.250 Gibson testified that he told his father
to buy puts as “a hedge for execution risk.”251 In
other words, he wanted his father to sell his personal
TRX shares as soon as possible but was afraid the sale
transaction would not be executed immediately.252
Gibson, therefore, told his father to buy puts so he
would not lose out if TRX’s share price dropped in the
interim.253
13. The Fund sells the rest of its TRX stock into the
market at great loss.
At the beginning of November, the Fund continued
to incrementally sell its shares on the market or in
negotiated transactions at around market price.254
Then, on November 7 or 8, Sands from Casimir
contacted Gibson and told him “he had an offer that
would make us very pleased.”255 On November 9,
248 Tr. 145.
249 Tr. 1108, 1114–18; Resp’t Ex. 191 at 2–3; Resp’t Ex. 192

at 1; see Tr. 1277–79.
250 Tr. 322–25.
251 Tr. 1449.
252 Tr. 1449.
253 Tr. 322–24, 1449.
254 Tr. 879–81, 885, 1455–56; Resp’t Ex. 121 (November 8

sale to Sequiera); Resp’t Ex. 153 at 1 (summary chart of the
Fund’s sales).
255 Tr. 1456.

54a
after the market had closed for the day, Gibson met
with Sands and Platinum Partners’s CFO, David
Levy.256 In prior meetings with Levy, Gibson had
tried to negotiate a sale of the Fund’s TRX shares to
Platinum.257 But during the November 9 meeting,
Levy instead told Gibson that Platinum would pay the
Fund $10,000 a month not to sell any TRX shares for
Gibson was “shocked and
six months.258
disappointed,” and he told Hull, who was concerned
that Platinum was trying to lock up the Fund’s shares
so it could sell its TRX holdings before the Fund could
sell.259 Hull and Gibson decided to sell the remainder
of the Fund’s TRX position the next day into the
market.260 Hull and Gibson were hoping that if they
sold the Fund’s shares, other large TRX investors like
Platinum would be forced to buy TRX to prevent the
share price from dropping and to protect their own
positions.261 Gibson and Hull hoped that as other
investors rushed in to buy the stock, the Fund would
lose less money on the shares it sold as the day
progressed.262 But Gibson was aware that his
strategy was risky.263
On the morning of November 10, Gibson emailed
his broker at GarWood and told him to sell, noting,

256 Tr. 323–24, 1456.
257 Tr. 319–21.
258 Tr. 321, 1457.
259 Tr. 1457–58.
260 Tr. 1458–59.
261 Tr. 1458.
262 Tr. 658–59, 1458–59.
263 Div. Ex. 105 at 11858; see Tr. 659.

55a
“We are going to potentially tank this stock.”264
Gibson explained that he told this to his broker to
signal that there was no need to sell slowly and get
best execution prices.265 Rather, Gibson wanted to
sell aggressively to force the other large shareholders
to buy the Fund’s shares as he had discussed with
Hull.266
Gibson was half right. His strategy did not work
but he did tank the stock. As the Fund sold its
remaining 4.9 million shares of TRX into the market,
other big investors sold too, and the stock price
declined dramatically.267 TRX fell so fast that the
New York Stock Exchange twice briefly halted
trading in it.268 Around 10:00 a.m., when TRX’s share
price had fallen to approximately $2.00, Gibson sold
all of the $4 puts in his account and in Francesca
Marzullo’s account.269 The $4 puts from John
Gibson’s account were also sold that day.270 The Fund
liquidated its TRX holdings for average prices ranging
from $3.15 to $1.65 per share.271 TRX’s share price,
which had opened at $3.41, went as low as $1.56 and
closed at $2.29 on a volume of over 17 million shares
traded.272
264 Div. Ex. 105 at 11585; Tr. 1459–60.
265 Tr. 1461–62.
266 Tr. 1461–62.
267 Tr. 324–25, 659, 1462–63; Div. Ex. 216 ¶ 32.
268 Tr. 325; Div. Ex. 184 at Exhibits p. 12.
269 Div. Ex. 123 at 14; Div. Ex. 124 at 3; Div. Ex. 184 at 23,

Exhibits p. 18.
270 Div. Ex. 114 at 46; Div. Ex. 184 at 23; see Tr. 1119–20.
271 Tr. 1051; Div. Ex. 184 at Exhibits p. 11.
272 Joint Ex. 1 at 5.

56a
Gibson
made
$81,930
($81,008.81
after
commissions) on the sale of his $4 puts. The puts in
Francesca Marzullo’s account generated a profit of
$254,380 ($251,879.81 after commissions). John
Gibson
made
$43,240
($41,823.06
after
273
commissions).
Even with his profit from the puts,
Gibson lost $724,660 in the Fund.274 Giovanni
Marzullo lost $965,318, and Gibson’s parents lost
$1,399,053.275
At some point, possibly as early as mid-February
2012, Gibson spoke with Sequiera by phone.276
During the call, Gibson used profane and often
hyperbolic language to express his anger toward
Sinclair.277 Relevant to this proceeding, Gibson said
that Sinclair “lied to [Gibson] for a year,” had “taken
everything from” Gibson, was “a complete crook,” and
“screws everyone he deals with.”278
According to the Division, Gibson’s assertion that
Sinclair had been lying for a year shows that Gibson
knew Sinclair was dishonest in August 2011, when he
berated Sinclair but gave investors a more positive
view of TRX.279 But Gibson did not sell his personal
shares in August 2011; rather, he remained
sufficiently bullish about TRX to decline a liquidation
sale at $5.85 per share, advised Hull in September
2011 that he remained “bullish” on TRX, and before
273 Tr. 330–31; Div. Ex. 185 at 47; see Resp’t Ex. 205.
274 Resp’t Ex. 205.
275 Id.; Tr. 1143.
276 See Div. Exs. 183, 183A; see Tr. 845–46, 1487.
277 Div. Ex. 183A; see Tr. 847.
278 Div. Ex. 183A at 3–4, 6.
279 Tr. 848.

57a
September 23, told Hull the Fund should consider
buying more shares. So the record does not show that
before November 2011, Gibson thought Sinclair might
be lying.280
In context, therefore, Gibson’s phone conversation
supports Hull’s observation—relevant to Gibson’s
August 2011 berating e-mails to Sinclair—that
Gibson tended to “rant and rave about different
things,” and sometimes would “rant and rave about
. . . Sinclair in a negative way.”281 The phone call
otherwise has little relevance.
14. The Fund shuts down in April 2013.
Gibson continued to manage the Fund until April
2013, when he closed it and returned money to its 13
remaining investors.282 In his wind-up letter to
investors, Gibson admitted that the Fund’s
performance had been “disastrous” and he accepted
full responsibility for its failure.283 In his testimony,
Gibson explained that he and Hull had made bad
decisions, such as not accepting the buyout offer for
its TRX stock at $5.85 a share in August 2011 and
flooding the market with shares on November 10.284

280 In a sarcastic e-mail sent November 4, 2011, Gibson

asked Sinclair whether he’d done a number of things Gibson said
Sinclair had promised to do. Div. Ex. 103. Gibson added that if
Sinclair did not “fix what you’ve broken, it will be my life's goal
to ensure your children will know you were a crook and the pain
you caused so many people all in an effort at self glorification.”
Id.
281 Tr. 584.
282 Tr. 334–35; Div. Ex. 154.
283 E.g., Div. Ex. 154 at 2149.
284 Tr. 1464–66.

58a
Gibson currently lives in Montevideo, Uruguay,
where he works for East Century Capital, Ltd., a
Hong Kong consulting firm that advises companies in
Africa.285
Discussion and Conclusions of Law
The Division alleges that Gibson willfully violated
Advisers Act Section 206(1) and (2) by engaging in a
transaction that favored Hull over the interests of his
advisory client, the Fund, and by engaging in front
running transactions that benefited him and persons
close to him.286 I will first consider the allegations
under these provisions and then consider whether, as
the Division further alleges, Gibson also willfully
violated Exchange Act Section 10(b) and Rule 10b5(a) and (c), and Advisers Act Section 206(4) and Rule
206(4)-8, through the same conduct.287
1. The antifraud provisions of Advisers Act
Section 206(1) and (2) impose federal fiduciary
standards on investment advisers and require
elimination or disclosure of even potential
conflicts of interest.
Advisers Act Section 206 makes it:
unlawful for any investment adviser, by
use of the mails or any means or
instrumentality of interstate commerce,
directly or indirectly—
(1) to employ any device, scheme, or
artifice to defraud any client or
prospective client; [or]
285 Tr. 1492, 1498, 1502.
286 OIP ¶¶ 2, 55, 56.
287 Id. ¶¶ 54, 57.

59a
(2) to engage in any transaction, practice,
or course of business which operates as a
fraud or deceit upon any client or
prospective client.288
Section 206 “establishes ‘federal fiduciary
standards’ to govern the conduct of investment
advisers.”289 As a result, investment advisers “owe
their clients ‘an affirmative duty of utmost good faith,
and full and fair disclosure of all material facts, as
well as an affirmative obligation to employ reasonable
care to avoid misleading [their] clients.’”290 To this
end, the Act “reflects a congressional recognition ‘of
the delicate fiduciary nature of an investment
advisory relationship,’ as well as a congressional
intent to eliminate, or at least to expose, all conflicts
of interest which might incline as investment
adviser—consciously or unconsciously—to render
advice which was not disinterested.”291 An adviser
must therefore “disclose information that would
expose any” actual or potential conflicts of interest
with a client.292 The Commission “has long held that
288 15 U.S.C. § 80b-6(1), (2).
289 Transamerica Mortg. Advisors, Inc. v. Lewis, 444 U.S.

11, 17 (1979) (quoting Santa Fe Indus. v. Green, 430 U.S. 462,
471 n.11 (1977)).
290 Montford & Co., Advisers Act Release No. 3829, 2014 WL

1744130, at *13 (May 2, 2014) (alteration in original) (quoting
SEC v. Capital Gains Research Bureau, Inc., 375 U.S. 180, 194
(1963)), pet. denied, 793 F.3d 76 (D.C. Cir. 2015).
291 Capital Gains, 375 U.S. at 191–92 (quoting Louis Loss,

Securities Regulation 1412 (2d ed. 1961)).
292 Montford, 2014 WL 1744130, at *13 (quoting Kingsley,
Jennison, McNulty & Morse, Inc., Advisers Act Release No. 1396,
1993 WL 538935, at *3 (Dec. 23, 1993)).

60a
‘[f]ailure by an investment adviser to disclose potential
conflicts of interest to its clients constitutes fraud
within the meaning of Section[] 206(1) and (2).’”293 “It
is indisputable that potential conflicts of interest are
‘material’ facts with respect to clients and the
Commission.”294
To establish liability under Section 206(1), the
Division must show that a respondent acted with
scienter.295 A showing of negligence, however, is
sufficient to establish a violation of Section 206(2).296
Scienter may be shown by evidence of recklessness.297
In this context, recklessness is “an extreme departure
from the standards of ordinary care . . . present[ing] a
danger of misleading [clients] that is either known to
the [actor] or is so obvious that the actor must have

293 Robare Grp. v. SEC, 922 F.3d 468, 472 (D.C. Cir. 2019)

(first alteration in original) (quoting Fundamental Portfolio
Advisors, Inc., Securities Act Release No. 8251, 2003 WL
21658248, at *15 & n.54 (July 15, 2003), pet. denied sub nom.
Brofman v. SEC, 167 F. App’x 836 (2d Cir. 2006)).
294 Vernazza v. SEC, 327 F.3d 851, 859 (9th Cir. 2003). A

misstatement is material if there is a substantial likelihood that
a reasonable investor would view “disclosure of the omitted fact
. . . as having significantly altered the ‘total mix’ of information
made available.” Matrixx Initiatives, Inc. v. Siracusano, 563
U.S. 27, 38 (2011) (quoting Basic Inc. v. Levinson, 485 U.S. 224,
231–32 (1988)).
295 Montford, 2014 WL 1744130, at *14; see SEC v.

Steadman, 967 F.2d 636, 641 & n.3 (D.C. Cir. 1992).
296 Montford, 2014 WL 1744130, at *14.
297 Id. at *14 n.108.

61a
been aware of it.”298 “Negligence is the failure to
exercise reasonable care.”299
2. Gibson was an investment adviser to the Fund
and used instrumentalities of interstate
commerce.
Section 206 only applies to investment advisers.300
An investment adviser is “any person who, for
compensation, engages in the business of advising
others . . . as to the advisability of investing in,
purchasing, or selling securities.”301
Gibson was the managing director of both the
Fund’s managing member, Geier Capital, and the
Fund’s investment manager, Geier Group, while
those entities existed.302 He acknowledged that he
provided investment advisory services to the Fund.303
He devised the strategy of investing in TRX,304
negotiated purchases and sales with brokers and
counterparties,305 communicated with Fund investors
298 Id. (final alteration in original) (quoting David Henry

Disraeli, Securities Act Release No. 8880, 2007 WL 4481515, at
*5 (Dec. 21, 2007), pet. denied, 334 F. App’x 334 (D.C. Cir. 2009)).
299 IFG Network Sec., Inc., Exchange Act Release No. 54127,

2006 WL 1976001, at *11 (July 11, 2006).
300 15 U.S.C. § 80b-6.
301 15 U.S.C. § 80b-2(a)(11); see Abrahamson v. Fleschner,

568 F.2d 862, 871 (2d Cir. 1977) (holding that advice can take the
form of “exercising control over what purchases and sales are
made with their clients’ funds”).
302 Div. Ex. 22 at 1, 12; Div. Ex. 23 at 1, 12; Div. Ex. 24 at 1.
303 Tr. 184, 186, 187, 335 (admitting provision of advisory

services both before and after dissolution of Geier Group); see Tr.
570 (Hull agreeing).
304 Tr. 575, 1367.
305 See, e.g., Resp’t Exs. 62, 92.

62a
regarding the Fund’s future performance,306 and held
himself out as an adviser to regulators.307 For these
services, he was paid a salary through April 2013 and,
through Geier Group, was entitled to annual
management fees and incentive allocations even if he
did not receive them once the Fund started to fail.308
For these reasons, Gibson meets the statutory
definition of an investment adviser to the Fund.309
Liability under Section 206 requires that the
adviser make “use of the mails or any means or
instrumentality of interstate commerce.”310 This
element is satisfied because when Gibson engaged in
the problematic trading activities and the transaction
with Hull, he used the telephone, e-mail, and the
internet.311

306 See, e.g., Resp’t Ex. 51.
307 See, e.g., Div. Exs. 31, 39, 70, 71.
308 Tr. 246–52, 334–35; Div. Exs. 43, 128, 147, 156; Div. Ex.

24 at 2.
309 See SEC v. Fife, 311 F.3d 1, 11 (1st Cir. 2002) (finding

that an investment adviser received compensation when “he
understood that he would be compensated for his efforts by a
commission based on a percentage of the profits from the
investments, if successful”); SEC v. Ahmed, 308 F. Supp. 3d 628,
652–53 (D. Conn. 2018) (finding a similar involvement in
recommending investment opportunities and in negotiating the
terms of transactions to be sufficient to establish that the
defendant was an investment adviser); Timothy S. Dembski,
Advisers Act Release No. 4671, 2017 WL 1103685, at *10 n.33
(Mar. 24, 2017), pet. denied, 726 F. App’x 841 (2d Cir. 2018).
310 15 U.S.C. § 80b-6.
311 Larry C. Grossman, Securities Act Release No. 10227,

2016 WL 5571616, at *4 n.11 (Sept. 30, 2016), vacated as to
certain sanctions, 2019 WL 2870969 (July 3, 2019).

63a
3. Elimination or disclosure of conflicts where the
client is a hedge fund.
Investment advisers owe their clients a duty of full
disclosure.312 But Gibson’s advisory client was the
Fund, not its individual investors.313 Indeed, the
Division conceded that although the Fund was
Gibson’s advisory client, the Fund’s investors were not
Gibson’s advisory clients simply by virtue of their
investment in the Fund.314 The Fund, however, was
a mere legal entity with no independent decisionmakers. Gibson was therefore essentially “in the
perverse position” of disclosing conflicts or potential
312 Montford, 2014 WL 1744130, at *13.
313 See Goldstein, 451 F.3d at 881 (a hedge fund “adviser owes

fiduciary duties only to the fund, not to the fund’s investors,”
because “[i]f the [individual] investors are owed a fiduciary duty
and the entity is also owed a fiduciary duty, then the adviser will
inevitably face conflicts of interest”). To be clear, Gibson had
separate advisory relationships with his parents and the
Marzullos, but those relationships had nothing to do with any
investment in the Fund those individuals might have had. See
Tr. 804; Inv. Adviser Advertisements; Comp. for Solicitations, 84
Fed. Reg. 67,518, 67,527 & n.66 (Dec. 10, 2019) (noting that an
“adviser’s ‘clients’ . . . are the pooled investment vehicles
themselves” and explaining that “[t]here are circumstances
under which an investor in a pooled investment vehicle is also
a client of the investment adviser” such as “when the investor
has its own investment advisory agreement with the investment
adviser”). In this regard, Goldstein, “did not hold that no hedge
fund adviser could create a client relationship with an investor,”
United States v. Lay, 612 F.3d 440, 446–47 (6th Cir. 2010), and
the OIP could be read as alleging that Gibson breached duties as
to other clients as well as the Fund, see, e.g., OIP ¶ 2. The
Division, however, has focused on the allegation that Gibson
breached his fiduciary duties to the Fund. See, e.g., Div. Br. 1–2,
12; Tr. 804.
314 Tr. 804.

64a
conflicts to himself as the client’s agent.315 This sort
of disclosure to himself, which would have amounted
to no disclosure at all, could not have been
sufficient.316
Because this is the case, the question is to whom
Gibson should have made disclosures once conflicts of
interest arose. Arguably, disclosure to investors in
the Fund would not have been sufficient, and could
have even been harmful. The interests of individual
investors could have easily been drawn into conflict
with the Fund’s interests.317 Moreover, individual
investors had no decision-making authority for the
Fund, and no meaningful recourse had they known of
315 J. Tyler Kirk, A Federal Fiduciary Standard Under the

Investment Advisers Act of 1940: A Refinement for the Protection
of Private Funds, 7 Harv. Bus. L. Rev. Online 19, 20 (2016).
316 See id. Gibson has not argued that disclosure to himself

as an agent of the Fund would have been sufficient to remedy
any conflict that arose, nor is such an argument viable. See id.
at 28–31 & n.77 (arguing that an agent’s knowledge should not
be imputed to the principal when the principal is the agent’s
intended victim); Kirschner v. KPMG LLP, 938 N.E.2d 941, 952
(N.Y. 2010) (“[T]he presumption that an agent will communicate
all material information to the principal operates except in the
narrow circumstance where the corporation is actually the
victim of a scheme undertaken by the agent to benefit himself.”);
see also Div. Ex. 185 at 20 (Dr. Gibbons opined that “it was not
adequate that the intended misconduct of Gibson as adviser was
known to Gibson as managing member. Gibson’s own knowledge
of his plans to engage in improper conduct cannot be attributed
to the Fund or its investors.”).
317 See Goldstein, 451 F.3d at 881. For example, a disclosure

that Gibson intended to sell his personal shares of TRX due to a
potential conflict with the Fund’s impending block sale could
have caused other investors to attempt to sell their personal
shares, which in turn could have adversely affected TRX’s share
price or limited the Fund’s ability to later sell its shares.

65a
Gibson’s intended actions.
The operating
memorandum limited their ability to even withdraw
money and permitted Geier Capital to suspend their
right to withdrawal under certain conditions.318
For these reasons, because the transactions
Gibson intended to effectuate posed conflicts or
potential conflicts of interest, he should have
refrained from engaging in those transactions or,
failing that, established an appropriate disclosure
mechanism through which a disinterested committee
or person could have independently evaluated those
conflicts and transactions on behalf of the Fund.319
Thus, in Gibson’s circumstances, a failure to obtain
independent advice or abstain from a transaction in

318 Div. Ex. 24 at 3, 16, 20–22.
319 Independent disclosure mechanisms may involve, for

example, disclosure to an independent conflicts committee or an
independent person in management to evaluate the conflict and
render a decision for the Fund. See SEC v. DiBella, 587 F.3d
553, 568 (2d Cir. 2009); Asset Managers’ Committee, Best
Practices For The Hedge Fund Industry 42, 48–49 (2008),
https://www.treasury.gov/press-center/press-releases/Documents/
amcreportapril152008.pdf; Div. Ex. 185 at 20. As “[c]onflicts are
inherent in the asset management business as in many other
financial services businesses,” a fund “[m]anager should adopt
policies and procedures to identify and address potential
conflicts of interest that may arise in its specific businesses” and
“establish a Conflicts Committee.” Best Practices at 47–48.
Typically, a fiduciary must seek independent, disinterested
advice when he or she has divided loyalties or lacks the ability
to make the decision at hand. Accord Leigh v. Engle, 727 F.2d
113, 132 (7th Cir. 1984) (addressing ERISA fiduciaries with
divided loyalties).

66a
the event of even a potential conflict would constitute
a violation of the Advisers Act.320
4. Front running in the investment adviser
context.
The Division argues that Gibson is liable for front
running.321 “Frontrunning may be generally defined
as involving trading a stock, option, or future while in
possession of non-public information regarding an
imminent block transaction that is likely to affect the
price of the stock, option, or future.”322 As is the case
with insider trading, there is no specific statute or
regulation prohibiting front running. But unlike
insider trading, which courts have long addressed
under the federal securities laws, there is little case

320 See Capital Gains, 375 U.S. at 191 (an adviser must

“eliminate, or at least . . . expose” all potential conflicts of
interest).
321 Div. Posthearing Br. at 4–7, 16–20, 26–27.
322 Memorandum Prepared by the Division of Market

Regulation in Response to the Questions Contained in the Letter
of March 4, 1988, from the Honorable John D. Dingell and the
Honorable Edward J. Markey Regarding Short Selling and
Frontrunning 11 (May 13, 1988), http://www.sechistorical.org/
museum/papers/1980/page-14.php (scroll to May 13); see Lewis
D. Lowenfels & Alan R. Bromberg, Securities Market
Manipulations: An Examination and Analysis of Domination
and Control, Frontrunning, and Parking, 55 Alb. L. Rev. 293,
313 (1991); see also John R. D’Alessio, Exchange Act Release No.
47627, 2003 WL 1787291, at *2 (Apr. 3, 2003) (stating that a
broker who times “the purchase or sale of shares of a security for
his own account so as to benefit from the price movement that
follows execution of large customer orders, [engages in] a
practice commonly known as trading ahead or frontrunning”),
pet. denied, 380 F.3d 112 (2d Cir. 2004).

67a
law addressing front running under the antifraud
provisions of federal securities law.323
In Capital Gains, the Supreme Court found that
scalping, a manipulative technique related to front
running, violated the Advisers Act.324 An investment
adviser purchased shares of a stock for his own
account, recommended the security to his clients, and
323 See Thomas A. Russo & Marlisa Vinciguerra, Financial

Innovation and Uncertain Regulation: Selected Issues Regarding
New Product Development, 69 Tex. L. Rev. 1431, 1527–28 (1991);
Lowenfels & Bromberg, 55 Alb. L. Rev. at 313–21, 337; see, e.g.,
SEC v. Yang, 795 F.3d 674, 680 (7th Cir. 2015) (declining to reach
defendant’s argument that front running should never be
considered fraudulent conduct under Section 10(b) and Rule 10b5 because he had failed to preserve the issue). The Commission
has largely left it to self-regulatory organizations—most recently
the Financial Industry Regulatory Authority, Inc. (FINRA)—to
regulate front running. See, e.g., Self-Regulatory Organizations;
FINRA; Order Approving Proposed Rule Change, as Modified by
Amendment No. 1, To Adopt Existing NASD IM-2110-3 as New
FINRA Rule 5270 (Front Running of Block Transactions) With
Changes in the Consolidated FINRA Rulebook, 77 Fed. Reg.
55,519, 55,522 (Sept. 10, 2012) (approving adoption of FINRA
Rule 5270); D’Alessio, 2003 WL 1787291, at *3, *7–9 (affirming
a violation of NYSE Rule 92 prohibiting front running); E.F.
Hutton & Co., Exchange Act Release No. 25887, 1988 WL
901859, at *1, *4 (July 6, 1988) (affirming a violation of NASD
rules); Smith, Barney, Harris Upham & Co., Exchange Act
Release No. 21242, 1984 WL 472586, at *3–4 (Aug. 15, 1984)
(affirming a finding by AMEX). Private firms often also have
codes of ethics prohibiting front running. See, e.g., Div. Ex. 185
at 22 n.41 (Dr. Gibbons noted in his report that Deutsche Bank,
Gibson’s former employer, explicitly prohibited front running).
324 Capital Gains, 375 U.S. at 181, 196–97; see David M.

Bovi, Rule 10b-5 Liability for Front-Running: Adding A New
Dimension to the “Money Game”, 7 St. Thomas L. Rev. 103, 106–
07 (1994) (noting that scalping is sometimes confused with front
running, but that the two practices are different).

68a
then immediately sold his personal shares at a profit
upon the stock’s gain due to his buy
recommendation.325 The Court held that one who
secretly trades on the market effect of his own
recommendation
may
be
motivated—
consciously or unconsciously—to recommend a
given security not because of its potential for
long-run price increase (which would profit the
client), but because of its potential for shortrun price increase in response to anticipated
activity from the recommendation (which would
profit the adviser).326
The Advisers Act required the “adviser to make full
and frank disclosure of his practice of trading on the
effect of his recommendations,” and his failure to do
so was fraud.327
The conflict of interest in Capital Gains between
the adviser and his clients is clear.
As one
commentator has noted: “Scalpers seek to move the
market price of a security by triggering client
investment action and to profit by taking action
opposite to the clients immediately after the
movement.”328 In a sense, “Scalping is little more
than price manipulation as an end in itself.”329 Front
running “is less blatant a breach of the duty of loyalty

325 Capital Gains, 375 U.S. at 181.
326 Id. at 196.
327 Id. at 196–97.
328 Harvey E. Bines & Steve Thiel, Investment Management

Law and Regulation 807 (2d ed. 2004).
329

Id.

69a
than scalping,” but is still a “deliberate subordination
of the client’s interest.”330
Cases have usually analyzed front running as a
violation of a broker’s duty of best execution, since the
price obtained for the customer’s order may not be as
favorable as it would have been had the customer’s
order been executed first.331 Whether or not the price
obtained for a client order would have been the best
price but for the investment adviser’s front running is,
however, not a dispositive consideration. Under the
Advisers Act, it is immaterial whether the conduct
actually harmed the client or whether the adviser
intended to harm the client.332 Investment advisers
are fiduciaries “governed by the highest standards of
conduct.”333 An investment adviser has not only a
duty of best execution,334 but also a duty of undivided

330

Id.

331 See, e.g., United States v. Dial, 757 F.2d 163, 168–69 (7th

Cir. 1985) (analyzing a broker’s practice of trading ahead of
client under mail and wire fraud statutes); D’Alessio, 2003 WL
1787291, at *3–4 (analyzing a broker’s practice of trading ahead
of a client under NYSE Rules).
332 See Capital Gains, 375 U.S. at 192.
333 Fundamental Portfolio Advisors, 2003 WL 21658248, at

*15 (quoting Victor Teicher & Co., Exchange Act Release No.
40010, 1998 WL 251823 (May 20, 1998), pet. granted in part on
other grounds, 177 F.3d 1016 (D.C. Cir. 1999)); see also Montford,
2014 WL 1744130, at *13 (“The ‘fundamental purpose of [the
Advisers Act is] to substitute a philosophy of full disclosure for
the philosophy of caveat emptor and thus . . . achieve a high
standard of business ethics in the securities industry.’” (quoting
Capital Gains, 375 U.S. at 186) (alterations in original)).
334 See Clarke T. Blizzard, Advisers Act Release No. 2253,
2004 WL 1416184, at *2 (June 23, 2004).

70a
loyalty335 and an affirmative duty of utmost good
faith and must eliminate or expose even potential
conflicts of interest.336
The exact contours of front running need not be
defined to capture or contemplate every form of
misconduct. Here, it suffices to say that there is a
potential conflict of interest when an investment
adviser’s personal trading or recommendation to close
friends or relatives coincides with the adviser’s
possession of confidential information about a client’s
forthcoming trading plans in the same security. An
adviser is “not entitled to benefit from the fiduciary
relationship except to the extent provided for by fees
and compensation the client expressly consents to
pay.”337
Absent the client’s consent, it is a breach of an
adviser’s fiduciary duties to use confidential client
information to benefit himself or others—whether to
avoid losses or realize gains.338 Moreover, front
335 See IMS/CPAs & Assocs., Securities Act Release No.

8031, 2001 WL 1359521, at *8 (Nov. 5, 2001), pet. denied sub
nom. Vernazza v. SEC, 327 F.3d 851 (9th Cir. 2003).
336 See Capital Gains, 375 U.S. at 194; Montford, 2014 WL

1744130, at *13; Fundamental Portfolio Advisors, 2003 WL
21658248, at *15. “One activity specifically mentioned and
condemned by investment advisers” leading up to the passage of
the Advisers Act “was trading by investment [advisers] for their
own account in securities in which their clients were interested.”
Capital Gains, 375 U.S. at 189. Although the Supreme Court did
not go as far as to say that all such personal trading is prohibited,
there is little doubt that it could lead to conflicts of interest. See
id. at 196.
337 Feeley & Willcox Asset Mgmt. Corp., Securities Act

Release No. 8249, 2003 WL 22680907, at *12 (July 10, 2003).
338 See Thomas W. Heath, III, Exchange Act Release No.

59223, 2009 WL 56755, at *4 (Jan. 9, 2009) (observing that the

71a
running can potentially undermine the client’s
interests or involve conflicting motivations that
cannot be adequately judged in hindsight. For
example, the adviser might usurp a trading
opportunity that otherwise should have gone to the
client. Or the adviser’s front running, even in small
quantities, could cause unexpected price movements
in a thinly traded stock. The adviser could also be
motivated, even in part, to execute a client’s block
trade so that he or someone close to him can realize
gains before the expiration date of previously
purchased put option contracts in the same security.
None of these scenarios need be proven or realized,
however. The point is that front running poses the
potential for the adviser’s outside interests to conflict
duty to maintain confidentiality of client information, which “is
grounded in fundamental fiduciary principles,” is “one of the
most fundamental ethical standards in the securities industry”),
pet. denied, 586 F.3d 122 (2d Cir. 2009); Restatement (Third) of
Agency § 8.01 (2006) (“Unless the principal consents, the general
fiduciary principle . . . requires that an agent refrain from using
the agent’s position or the principal’s property to benefit the
agent or a third party.”); id. § 8.05 (setting forth an agent’s duty
“not to use or communicate confidential information of the
principal for the agent’s own purposes or those of a third party,”
and stating that “it is a breach of an agent’s duty to use
confidential information of the principal for the purpose of
effecting trades in securities although the agent does not reveal
the information in the course of trading”). The same principle is
expressed in case law on insider trading. See United States v.
O’Hagan, 521 U.S. 642, 652 (1997) (“[A] fiduciary’s undisclosed,
self-serving use of a principal’s information to purchase or sell
securities, in breach of a duty of loyalty and confidentiality,
defrauds the principal of the exclusive use of that information.”);
Dirks v. SEC, 463 U.S. 646, 662 (1983) (“[A] purpose of the
securities laws was to eliminate ‘use of inside information for
personal advantage.’” (quoting Cady, Roberts & Co., Exchange
Act Release No. 6668, 1961 WL 60638, at *4 n.15 (Nov. 8, 1961))).

72a
with those of the client. This makes the practice
especially problematic.339
Given the potential conflict in this context, the
client must be permitted to evaluate the adviser’s
“overlapping motivations” and “decid[e] whether an
adviser is serving ‘two masters’ or only one.”340 And
if the client does not consent, then the adviser must
abstain from his outside trading or recommendations
to others. Requiring anything less—or subjecting the
client’s interests to hindsight analysis—would
undermine the Advisers Act’s manifest purpose.
5. Gibson’s trading ahead of the Fund violated
fiduciary duties and posed potential conflicts of
interest.
Gibson’s sale of personal shares on September 26,
2011, constituted a fraud in violation of the Advisers
Act. When he sold, he was actively negotiating a block
sale of millions of shares of the Fund’s TRX position.
The particulars of that impending sale was not known
to anyone but Gibson, his broker Sands, and maybe

339 In discussing conflicts in the investment-adviser context,

the Supreme Court relying on precedent on the problems that
flow from contingent-fee arrangements for obtaining
government contracts, noted that a person “who occupies
confidential and fiduciary relations toward another” should
remove “any temptation” to violate those trust relations. Capital
Gains, 375 U.S. at 196 n.50 (quoting United States v. Miss.
Valley Generating Co., 364 U.S. 520, 550 n.14 (1961)). The Court
further posited: “The objection rests in their tendency, not in
what was done in the particular case. The court will not inquire
what was done. If that should be improper it probably would be
hidden, and would not appear.” Id. (ellipses omitted) (quoting
Miss. Valley Generating, 364 U.S. at 550 n.14).
340 Id. at 196.

73a
Hull, rendering the information non-public.341 Gibson
testified that he sold his personal shares and those of
his girlfriend to earn some liquidity, but the timing of
the sale suggests that he was attempting to avoid
potential losses by selling the shares ahead of the
Fund’s impending block sale.
Perhaps he was
concerned that the Fund’s block sale, even though it
was negotiated in the upstairs market, could lower
TRX’s share price.342 But whatever the reason, he
should not have engaged in outside trading while
negotiating his client’s trades in the same security.
As discussed earlier, the Fund lacked any
independent disclosure mechanism to evaluate
Gibson’s outside activities.
He failed to fully
consider—and lacked the independence to consider—
the impact that his personal trading may have had on
the Fund. In trading when he did, Gibson breached
his fiduciary duties to his client and created a
potential conflict of interest. Whether or not, in
hindsight, his actions actually harmed the Fund is
irrelevant.
Gibson’s purchase of put options for himself and in
Francesca
Marzullo’s
account,
and
his
recommendation to his father to purchase puts also
341 Although market participants knew that the Fund was

willing to consider offers for its TRX shares because Gibson
previously sought to sell the Fund’s TRX shares at the end of
August, this fact does not change the confidential nature of the
block sale on September 27, 2011. See Resp’t Br. 21. No one aside
from Gibson and his broker knew exactly what the Fund
intended to do or when, even if some knew that the Fund was
willing to negotiate a transaction.
342 See Tr. 1022; cf. Div. Ex. 187 at 108 (Gibson
acknowledged that large sales of a stock—at least ones into the
market—generally lowered its share price).

74a
constituted a fraud. When he purchased the puts, he
used the Fund’s confidential information that it was
in the process of liquidating its TRX holdings for his
own potential advantage and the advantage of those
close to him. The Fund never waived the use of its
information for its adviser’s personal advantage.
Moreover, by all appearances, when Gibson bought $4
puts for himself and others but not for the Fund, he
was favoring his own position over his client’s. He
explained at the hearing why he did this: puts are not
free, and he had assessed that the Fund should not
take on the additional financial burden because the
puts might have expired worthless.343 Still, he lacked
the independence necessary to evaluate the conflict
between the position he was taking for himself and
those close to him versus the one appropriate for the
Fund.344 Finally, at the same time as he was
negotiating the Fund’s sale, Gibson was seeking to
mitigate losses through a hedging strategy of buying
put options. He thus lacked the independence to
decide the appropriate timing of the Fund’s

343 Tr. 1450–51.
344 See Commission Interpretation Regarding Standard of

Conduct for Investment Advisers, 84 Fed. Reg. 33,669, 33,677
(July 12, 2019) (“When allocating investment opportunities
among eligible clients, an adviser may face conflicts of interest
either between its own interests and those of a client or among
different clients. If so, the adviser must eliminate or at least
expose through full and fair disclosure the conflicts associated
with its allocation policies, including how the adviser will allocate
investment opportunities, such that a client can provide
informed consent.”); see also Montford, 2014 WL 1744130, at *16
(“The soundness of [an adviser’s] investment advice is irrelevant
to their obligation to be truthful with clients and to disclose a
conflict of interest”).

75a
liquidation of its TRX position, as that decision could
significantly affect the value of those puts.
On
each
occasion,
Gibson’s
misconduct
demonstrated scienter.
Even though he never
intended to harm the Fund, he was a licensed
securities professional who was well aware of his
fiduciary responsibilities.345 And he knew that front
running was a problematic practice.346 In this context,
Gibson’s decision to use the Fund’s non-public
information to protect his and others’ investments
was “an extreme departure from the standards of
ordinary care” which created conflicts with his duties
“so obvious” that he “must have been aware of”
them.347
Contrary to Gibson’s argument, the disclosures in
the offering documents were insufficient to alert
investors to the potential conflicts created by Gibson’s
front running.348 The offering memorandum allowed
Gibson to invest in the same securities as the Fund,
advise his other clients in ways that differed from his
advice to the Fund, and conduct business in
competition with the Fund.349 It noted that Gibson
might have conflicts of interest when effecting
transactions for the Fund and when transacting in
other entities in which he had a financial interest.350
But “for disclosure to be full and fair, it should be
345 Tr. 77–78.
346 See Div. Ex. 68; Tr. 235–36, 1426–27.
347 Montford, 2014 WL 1744130, at *14 n.108 (quoting

Disraeli, 2007 WL 4481515, at *5).
348 Resp’t Br. at 19–20.
349 Div. Ex. 24 at 19.
350

Id.

76a
sufficiently specific so that a client is able to
understand the material fact or conflict of interest
and make an informed decision whether to provide
consent.”351 The offering memorandum speaks in
generalities. It was not specific enough to disclose
that Gibson might front run the Fund for his own
personal advantage and the advantage of those close
to him. The Fund did not consent to Gibson’s behavior
nor were there any conflict resolution mechanisms in
place.352
As a result of his front running, Gibson violated
Advisers Act Section 206(1) and 206(2).
6. Gibson violated fiduciary duties when he
arranged the Fund’s purchase of Hull’s shares.
On October 18, 2011, during the period when
Gibson and Hull were trying to sell the Fund’s entire
position in TRX, Gibson had the Fund purchase
680,636 TRX shares from Hull for the closing market
price that day. Hull was not charged a commission,
but the Fund paid a commission when it later sold
Hull’s shares together with its remaining TRX shares
in a market transaction. The Division argues that
Gibson had a conflict of interest that he recklessly
failed to disclose when he executed the Hull
transaction.353

351 Commission Interpretation, 84 Fed. Reg. at 33,676.
352 Investors essentially gave Gibson control over how

conflicts would be managed, as the offering documents lean on
his expertise and provide no mechanism for conflict disclosure or
remediation should one arise. See Div. Ex. 24 at 17. If anything,
this makes Gibson’s decision to breach the investors’ trust and
front run the Fund even more problematic.
353 Div. Br. 20–26.

77a
The Division claims that Gibson burdened the
Fund with additional TRX shares at a time when he
was trying to sell the Fund’s position in TRX, and that
the only plausible explanation was that Gibson
intended to benefit Hull at the Fund’s expense.354
The evidence, however, shows that Gibson suggested
consolidating Hull’s TRX shares with the Fund’s
because he believed that it might put the Fund in a
better position to liquidate its TRX position.355 As
noted earlier, Bystrom opined that consolidating
shares made block transactions easier because buyers
would then know that no shares were being left
behind.356 Gibson’s experiences with Sequiera and
Sands provided examples of this, although those
experiences also show that the Fund did not
necessarily need to purchase Hull’s shares for them to
be sold as a block.357 In short, it is true, as the
Division maintains, that Hull’s shares did not
necessarily need to be consolidated with the Fund’s in
one account to facilitate their sale,358 but because
Gibson was the one to suggest the consolidation, the
Division has not established that he lacked a goodfaith belief that it would be helpful to the Fund. I
cannot retrospectively critique Gibson’s judgment on
the current record.
But this does not mean that the transaction was
free of conflicts of interest. As the Division argues,
when Gibson arranged the trade with Hull on the
354 Id. at 20–21, 24–25.
355 See Div. Ex. 94.
356 Tr. 1567; Resp’t Ex. 228 at 6.
357 Resp’t Ex. 62 at 1; Resp’t Ex. 93 at 1–2; Tr. 1404–05.
358 Div. Reply at 9–10.

78a
Fund’s behalf, Gibson owed Hull over $600,000 and
Hull was paying Gibson’s salary for advising the
Fund.359 Gibson had a clear and obvious conflict of
interest. His impartiality in arranging any purchase
from Hull for the Fund would thus be questionable,
regardless of the transaction’s merit. In fact, Gibson
testified that he was acting as an adviser to both Hull
and the Fund on this transaction.360 This is the kind
of situation where an advisory client must “be
permitted to evaluate such overlapping motivations,
through appropriate disclosure, in deciding whether
an adviser is serving ‘two masters’ or only one.”361
As mentioned earlier, the Fund lacked any
independent disclosure mechanism. It is not possible
to say how disclosure by Gibson would have played
out. It’s also not possible to say on the current record
that the Fund’s purchase of Hull’s shares harmed the
Fund or that it lacked a legitimate purpose. The
problem is not that Gibson caused the Fund to buy
Hull’s shares but rather that he did so while operating

359 Div. Br. 23–24; Div. Reply at 9.
360 Tr. 261.
361 Capital Gains, 375 U.S. at 196; cf. Frey v. Fraser Yachts,

29 F.3d 1153, 1156 (7th Cir. 1994) (a broker and fiduciary
“cannot act as the representative for both buyer and seller in the
same transaction unless both parties are fully aware of such dual
representation and consent to it” and must “disclose to each all
facts which he knows or should know would reasonably affect the
judgment of each in permitting such dual agency” (quoting Quest
v. Barge, 41 So.2d 158, 160 (Fla. 1949))); UBS AG, Stamford
Branch v. HealthSouth Corp., 645 F. Supp. 2d 135, 144
(S.D.N.Y. 2008) (explaining that under New York law, a
fiduciary violates his duty if he “omits to disclose any interest
which would naturally influence his conduct”).

79a
under a serious, undisclosed conflict of interest.362 It
thus suffices to say that Gibson’s conduct failed to
account for the potential conflict of interest and he
failed to take measures to remedy or eliminate the
conflict before executing the transaction.
Gibson’s conduct was reckless. He knew of his
fiduciary responsibilities.
It should have been
obvious to him that a transaction with Hull, to whom
he owed so much money and on whose salary
payments he depended, conflicted with his duties to
the Fund. Again, it does not matter whether Gibson
believed the transaction would promote the Fund’s
interest. There were still obvious conflicts that
Gibson recklessly disregarded in carrying out the
Hull transaction.
I reject, however, the Division’s arguments that
the Hull transaction violated the terms of the Fund’s
offering memorandum. The Division asserts that the
sale was not done “at the current market price” as
required.363 But TRX closed at $3.60 that day and the
Fund purchased at $3.60 per share. The transaction
was thus in accordance with the plain meaning of
words “current market price.”
The Division also contends that the transaction
contravened the offering memorandum because the
Fund paid an extra commission to sell Hull’s shares
when it liquidated its holdings on November 10.364
362 It is true that Hull sold without giving a block discount

or paying a commission. But, as explained below, it’s not clear
that the lack of a block discount was problematic, and the failure
to charge a commission was marginal compared to the conflict of
interest.
363 Div. Ex. 24 at 19; Div. Br. 21–22.
364 Div. Br. 22–23.

80a
But the offering memorandum proscribed only
“extraordinary brokerage commissions . . . in
connection with . . . [a] transaction,” and not
“customary transfer fees or commissions.”365 Even if
the commission paid on November 10 can be
considered “in connection with” the purchase of Hull’s
shares on October 18— an issue I do not decide—there
is no evidence that it was not a “customary”
commission usually charged for such transactions, let
alone evidence that it was “extraordinary.”
The Division argues that notwithstanding the
offering memorandum, $3.60 per share was not the
appropriate price for this transaction.366 As noted
above, if Hull had sold his shares into the market
instead of to the Fund, then given the stock’s trading
volume, it would likely have depressed TRX’s share
price and he would not have been able to sell for $3.60
per share.367 But Hull did not sell his shares into the
market, and the Division has not shown that a block
discount is always appropriate in upstairs-market
transactions like this one.368 Even if some discount
365 Div. Ex. 24 at 19.
366 Div. Br. 21–22; Div. Reply at 10–11.
367 See supra at 24–25.
368 The Division tried to show that on several occasions

when the Fund sold its shares in the upstairs market, it had to
give a block discount, but Gibson demonstrated that this was
untrue. Tr. 265–78. Even though Dr. Gibbons opined that the
Fund did not purchase Hull’s shares at the current market
price—because the sale did not occur in the market—he did not
specifically say that Gibson should have obtained a block
discount for the Fund in the Hull transaction. See Tr. 945–46,
950–52. And Bystrom said that the appropriateness of a block
discount depends on the situation, and sometimes buyers pay a
premium to buy a stock. Tr. 1628, 1630.

81a
was warranted, it is not apparent what price would
have been more appropriate. Dr. Gibbons opined that
Gibson could have hired a valuation expert to
determine fair market value, but presumably such
experts charge for their services.369 I cannot
determine on this record whether it would have been
more cost effective for the Fund to hire an expert to
value the shares at a discount or just to pay the market
price of $3.60 a share. Maybe, as Dr. Gibbons opined,
the Fund could have bought Hull’s stock slowly over
time in the market, and then each transaction would
have been at market price.370 But nothing required
the Fund to structure the transaction in this
manner. In any event, whether or not the Fund
charged Hull the wrong price, Gibson was reckless in
ignoring the conflicts inherent in the transaction.
Finally, the Division argues that because the Fund
charged Hull no commission, the transaction allowed
Hull to avoid paying a commission when the Fund
ultimately sold his shares along with its own, and this
needlessly favored Hull.371 The Division is right about
this. Even though Gibson concluded that it was in the
Fund’s best interest to purchase Hull’s shares, he
should have conducted the sale in a manner that did
not favor Hull in any manner. Because it was likely
that the Fund would pay a commission when it sold
its shares into the market, Gibson should have
recouped those costs for the Fund by charging Hull a
commission when purchasing his shares or disclosed

369 Tr. 951.
370 See Tr. 950–51.
371 Div. Br. 22–23; Div. Reply 11.

82a
what he was doing.372 Yet, the Fund paid at most
$6,866 extra to sell Hull’s shares, of which Hull
effectively paid more than 80% because of his
ownership stake in the Fund.373 Gibson’s failure to
disclose this aspect of the transaction only marginally
adds to his reckless behavior surrounding this
transaction.
Accordingly, Gibson violated Advisers Act Section
206(1) and (2) for his conduct related to the Hull
transaction.
7. Gibson violated Exchange Act Section 10(b) and
Rule 10b-5.
The Division also alleges that Gibson’s front
running and the Hull transaction violated Exchange
Act Section 10(b) and Rule 10b-5(a) and (c).374 Section
10(b) prohibits any person, using any means or
instrumentality of interstate commerce or the mails,
“[t]o use or employ, in connection with the purchase
or sale of any security . . . any manipulative or
deceptive device or contrivance” that contravenes
Commission rules promulgated under this section.375
Rule 10b-5(a) and (c) prohibit any person, directly or
indirectly, from “employ[ing] any device, scheme, or
artifice to defraud,” and from “engag[ing] in any act,
practice, or course of business which operates or would
operate as a fraud or deceit upon any person.”376 The
372 Indeed it seems that the offering memorandum would

have permitted the Fund to charge Hull a “customary”
commission. See Div. Ex. 24 at 19.
373 See supra at 25; see also supra nn. 205–06.
374 OIP ¶ 54; Div. Br. 34–36.
375 15 U.S.C. § 78j(b).
376 17 C.F.R. § 240.10b-5(a), (c) (emphasis added).

83a
terms used in Rule 10b-5(a) and (c) “‘provide a broad
linguistic frame within which a large number of
practices may fit’” and “connote a broad proscription
against conduct that deceives or misleads another.”377
The Division must demonstrate scienter to establish
any violation of Section 10(b) and Rule 10b-5.378
Gibson’s conduct involved interstate commerce
and the purchase and sale of TRX stock. As to
whether his actions were a fraudulent scheme or
practice, “for the purpose of rule 10(b)-5, an
investment adviser is a fiduciary and therefore has an
affirmative duty of utmost good faith to avoid
misleading clients. This duty includes disclosure of
all material facts and all possible conflicts of
interest.”379 And “nondisclosure in violation of a
fiduciary duty involves ‘feigning fidelity’ to the person
to whom the duty is owed and is therefore
deceptive.”380 Gibson breached his duty to the Fund
because he recklessly failed to disclose or otherwise
remediate his conflicts of interest.381 This deceptive
and fraudulent conduct violated Exchange Act Section
10(b) and Rule 10b-5(a) and (c).
377 Dennis J. Malouf, Securities Act Release No. 10115, 2016

WL 4035575, at *7 (July 27, 2016) (quoting SEC v. Clark, 915
F.2d 439, 448 (9th Cir. 1990)), pet. denied, 933 F.3d 1248 (10th
Cir. 2019).
378 Aaron v. SEC, 446 U.S. 680, 701–02 (1980).
379 Laird v. Integrated Res., Inc., 897 F.2d 826, 835 (5th Cir.

1990).
380 Malouf, 2016 WL 4035575, at *8 (quoting O’Hagan, 521

U.S. at 655).
381 Vernazza, 327 F.3d at 859 (“It is indisputable that
potential conflicts of interest are ‘material’ facts with respect to
clients and the Commission.”).

84a
8. Gibson violated Advisers Act Section 206(4)
and Rule 206(4)-8.
The Division also alleges that Gibson’s conduct
violated Advisers Act Section 206(4) and Rule 206(4)8.382 Advisers Act Section 206(4) prohibits an
investment adviser from engaging “in any act,
practice, or course of business which is fraudulent,
deceptive, or manipulative” as further prescribed by
Rule 206(4)-8 makes it
Commission rule.383
prohibited under Section 206(4)
for any investment adviser to a pooled
investment vehicle to:
(1) Make any untrue statement of a
material fact or to omit to state a material fact
necessary to make the statements made, in the
light of the circumstances under which they
were made, not misleading, to any investor or
prospective investor in the pooled investment
vehicle; or
(2) Otherwise engage in an act, practice, or
course of business that is fraudulent, deceptive,
or manipulative with respect to any investor or
prospective investor in the pooled investment
vehicle.384
The Division need not prove scienter to establish a
violation of Section 206(4); a showing of negligence is
sufficient.385

382 OIP ¶ 57; Div. Br. 30–34.
383 15 U.S.C. § 80b-6(4).
384 17 C.F.R. § 275.206(4)-8.
385 Steadman, 967 F.2d at 647.

85a
Gibson violated Section 206(4) and Rule 206(4)-8
for the conduct discussed above. The rule applies
because the Fund was a type of pooled investment
vehicle.386 And Gibson’s potential conflicts with the
Fund would have been material information to
investors.387 Since, for the reasons discussed earlier,
Gibson’s actions constituted a fraud within the
meaning of the securities laws, he also deceived
investors.
Gibson argues that he could not have violated this
rule because he owed a duty exclusively to the Fund
and not to its investors.388 But Gibson misreads the
rule. It is true that because he breached no fiduciary
duty to investors, he did not directly defraud them
under Section 206(2) through his lack of disclosure.389
By its terms, however, Rule 206(4)-8 applies even
when there is no fiduciary duty to the investors.390
Conduct that operates as a fraud against the Fund
can also by extension be materially misleading as to
investors under Rule 206(4)-8. The investors were
386 See 17 C.F.R. § 275.206(4)-8(b); see also 15 U.S.C. § 80a-

3(a)(1); Prohibition of Fraud by Advisers to Certain Pooled
Investment Vehicles, 72 Fed. Reg. 44,756, 44,758 (Aug. 9, 2007);
Tr. 140; Div. Ex. 31 at 2.
387 Vernazza, 327 F.3d at 859.
388 Resp’t Br. 26–27 (citing Goldstein, 451 F.3d at 881).
389 See Prohibition of Fraud, 72 Fed. Reg. at 44,760 (“Rule

206(4)-8 does not create under the Advisers Act a fiduciary duty
to investors or prospective investors in a pooled investment
vehicle not otherwise imposed by law.”).
390 See

17
C.F.R.
§ 275.206(4)-8;
Inv.
Adviser
Advertisements, 84 Fed. Reg. at 67,527; SEC v. Quan, No. 11-cv723, 2013 WL 5566252, at *16 n.10 (D. Minn. Oct. 8, 2013) (“the
existence of a fiduciary duty is not required to prove a violation
of Rule 206(4)-8”), aff’d, 870 F.3d 754 (8th Cir. 2017).

86a
deceived by Gibson’s failure to disclose his front
running and the Hull transaction or abstain from
those transactions, which brings his conduct within
the ambit of Section 206(4) and Rule 206(4)-8. In fact,
this is exactly the type of misconduct the rule was
designed to capture.391
9. Gibson is not charged with making false
statements to investors regarding Geier Group
and Geier Capital, and, in any event, such
misstatements appear immaterial.
Gibson contends that two additional allegations
should not be grounds for liability under Rule
206(4)-8: (1) his failure to disclose the dissolution of
Geier Group and the Georgia Geier Capital; and
(2) his solicitation of two investors for the Fund using
offering documents falsely stating that Geier Group
was a registered investment adviser at the time.392 I
agree. Although the OIP mentions these facts—and
they were proven at the hearing—the OIP specifically
predicates liability on the front running and the Hull
transaction.393 Furthermore, the Division, which
does not contend in its opening brief that these
failures or false statements give rise to liability, failed

391 See Prohibition of Fraud, 72 Fed. Reg. at 44,756–57

(explaining that the rule, which the Commission promulgated in
response to Goldstein, “clarifies that an adviser’s duty to refrain
from fraudulent conduct under the federal securities laws
extends to the relationship with ultimate investors” in pooled
investment vehicles), 44,759 (“section 206(4) encompasses ‘acts,
practices, and courses of business as are * * * deceptive,’ thereby
reaching conduct that is negligently deceptive as well as conduct
that is recklessly or deliberately deceptive”).
392 Resp’t Br. 27.
393 OIP ¶¶ 2–11, 14, 15; see supra at Facts Section 4.

87a
to preserve this argument.394 The OIP appears to
mention these matters for a different reason: to show
that despite the dissolution of Geier Group and Geier
Capital, Gibson was still the Fund’s investment
adviser.395
In any event, the Division failed to prove that the
status of Geier Group or Geier Capital was material
to investors. Most, if not all of the Fund’s investors
invested because of their personal relationships with
Hull and Gibson, and knew that Gibson and Hull were
managing the Fund.396 Moreover, Gibson testified
that after Geier Group was dissolved, his role as
adviser to the Fund did not change.397 And the Fund’s
operating agreement stated that a different entity
could be substituted for Geier Group at the sole
discretion of the Fund’s managing member.398
Gibson’s false statements about Geier Group and his
failures to disclose the dissolution of Geier Group and
Geier Capital did not violate Rule 206(4)-8 because
the Division did not establish their materiality.
Sanctions
The Division requests that Gibson be ordered to
cease and desist from violations of the securities laws,
be permanently barred from the securities industry
under the Advisers Act and the Investment Company
394 See Dembski, 2017 WL 1103685, at *8. In its response to

Gibson’s proposed findings of fact and conclusions of law, the
Division counters that these facts were material, but does not
elaborate. See Div. Responses to Resp’t’s Proposed Findings of
Fact & Conclusions of Law ¶ 135.
395 See OIP ¶¶ 14, 15.
396 See, e.g., Tr. 529, 541, 1337–38.
397 Tr. 184, 187.
398 Div. Ex. 21 at 3.

88a
Act, disgorge $82,088, and pay civil money penalties
of $825,000.399 I impose a portion of the sanctions the
Division requests for Gibson’s misconduct.
1. Industry bars.
Advisers Act Section 203(f) authorizes the
Commission to bar or suspend any person from
associating with various segments of the securities
industry if, in relevant part, that person willfully
violated any provision of the Advisers Act, Exchange
Act, or rules promulgated under either Act; was
associated with an investment adviser at the time of
the misconduct; and the sanction is in the public
interest.400
Investment Company Act Section 9(b) authorizes
the Commission to prohibit any person, either
permanently or temporarily, from serving or acting in
various capacities with respect to a registered
investment company, if that person has willfully
violated a provision of the Advisers Act or Exchange
Act, or a rule promulgated under them; and the
sanction is in the public interest.401
In considering the public interest, the Commission
starts with the factors set out in Steadman v. SEC.402
These factors include:
the egregiousness of a respondent’s actions, the
isolated or recurrent nature of the infraction,
the degree of scienter involved, the sincerity of
399 Div. Br. at 37–43.
400 15 U.S.C. § 80b-3(e)(5), (f).
401 15 U.S.C. § 80a-9(b)(2).
402 603 F.2d 1126, 1140 (5th Cir. 1979), aff’d on other

grounds, 450 U.S. 91 (1981); see Brendan E. Murray, Advisers
Act Release No. 2809, 2008 WL 4964110, at *10 (Nov. 21, 2008).

89a
the respondent’s assurances against future
violations, the respondent’s recognition of the
wrongful nature of his or her conduct, and the
likelihood that the respondent’s occupation will
present opportunities for future violations.403
The Commission also considers the public at
large,404 the welfare of investors as a class, standards
of conduct in the securities business generally,405 and
the threat a respondent poses to investors and the
markets in the future.406 The public-interest inquiry
is flexible, and no single factor is dispositive.407
Gibson acted as an investment adviser to the
Fund, and was therefore associated with an adviser
for the purposes of the sanctions requested under the
Advisers Act.408 His violations were willful because he

403 Schield Mgmt. Co., Exchange Act Release No. 53201,

2006 WL 231642, at *8 (Jan. 31, 2006).
404 Christopher A. Lowry, Advisers Act Release No. 2052,

2002 WL 1997959, at *6 (Aug. 30, 2002), pet. denied, 340 F.3d
501 (8th Cir. 2003).
405 Arthur Lipper Corp., Exchange Act Release No. 11773,

1975 WL 163472, at *15 (Oct. 24, 1975), penalty modified, pet.
otherwise denied, 547 F.2d 171 (2d Cir. 1976).

406 Tzemach David Netzer Korem, Exchange Act Release No.

70044, 2013 WL 3864511, at *5 (July 26, 2013).
407 Conrad P. Seghers, Advisers Act Release No. 2656, 2007

WL 2790633, at *4 (Sept. 26, 2007), pet. denied, 548 F.3d 129
(D.C. Cir. 2008).
408 Anthony J. Benincasa, Investment Company Act of 1940

Release No. 24854, 2001 WL 99813, at *2 (Feb. 7, 2001) (a person
who “function[s] as an investment adviser in an individual
capacity . . . meets the definition of a ‘person associated with an
investment adviser’”); Alexander V. Stein, Advisers Act Release
No. 1497, 1995 WL 358127, at *2 (June 8, 1995) (“[A]uthority to

90a
intended to take the actions that resulted in the
violations.409
Turning to the public interest, the Commission
considers misconduct involving a breach of fiduciary
duty to be egregious.410 In September 2011, Gibson
sold personal shares ahead of the Fund’s sale, and in
October and November, he purchased and
recommended that others purchase put options while
the Fund was trying to find a buyer for its remaining
TRX shares. In doing so, Gibson recklessly used his
client’s confidential information without consent to
benefit himself and those close to him, which created
potential conflicts with his client.
He further
recklessly engaged in the Hull transaction in October
2011, despite his numerous conflicts of interest with
respect to Hull.
Gibson’s recurrent failures to
appropriately disclose or remediate his conflicts of
interest breached his fiduciary duty and were
therefore egregious.
Given that Gibson was a
securities professional with several exam licenses, his
misconduct—committed with scienter—cannot be
excused.411
proceed under Section 203(f) . . rest[s] on whether or not an
entity or individual in fact acted as an investment adviser”).
409 See Wonsover v. SEC, 205 F.3d 408, 413–14 (D.C. Cir.

2000) (willfulness means the intentional commission of the act
that constitutes the violation of the securities laws; there is no
requirement that the actor be aware that he or she is violating
any statutes or regulations); accord Robare Grp., 922 F.3d at
479.
410 James S. Tagliaferri, Securities Act Release No. 10308,

2017 WL 632134, at *6 (Feb. 15, 2017).
411 See Blizzard, 2004 WL 1416184 at *5 (“Securities
professionals are required to be knowledgeable about, and to
comply with, requirements to which they are subject.”).

91a
Gibson has not expressed remorse or made any
assurances against future violations. Although he is
not directly involved in the securities industry now,
given his relative youth, he could work in the industry
in the future. Gibson presents some risk to the
investing public, particularly since the “existence of a
violation raises an inference that it will be
repeated.”412
In a typical case in which a respondent committed
fraud and showed no remorse, consistent with
Commission precedent, I would impose a permanent
bar and be disinclined to give the individual a second
chance.413 But this is not a typical case and there are
several mitigating factors.
First, there is no evidence that Gibson intended to
harm the Fund. When he liquidated the personal
accounts on September 26, he believed that the small
size of his personal trades would have no effect on the
Fund’s impending sale.414 Indeed, when he traded, it
was unclear when the Fund’s sale would go through.
Gibson’s front running is thus different from a case in
which a broker holds a client’s order and then
executes personal trades immediately ahead of a
client’s trades, which could lead to the client receiving

412 Korem, 2013 WL 3864511, at *6 n.50 (quoting Geiger v.

SEC, 363 F.3d 481, 489 (D.C. Cir. 2004)).
413 See id. at *5 (“Ordinarily, and in the absence of evidence

to the contrary, it is in the public interest to bar a respondent
who is enjoined from violating the antifraud provisions.”); see,
e.g., Stanley Jonathan Fortenberry, Initial Decision Release No.
748, 2015 WL 860715, at *32–33, *35 (ALJ Mar. 2, 2015).
414 Tr. 1424.

92a
a worse execution than the broker.415 And the puts
Gibson purchased for himself were hedging
transactions; Gibson was not taking a short position
contrary to the Fund’s long one.416 He was nearly
insolvent because Hull required him to execute a
promissory note he didn’t need and was trying to
protect his own investments rather than trying to
harm the Fund. The same is also true with regard to
the Hull transaction.
Although he was deeply
conflicted, the evidence shows that Gibson thought
the purchase of Hull’s shares would improve the
Fund’s chances of selling its remaining shares. And
in addition to the fact that Gibson did not intend to
harm the Fund, it is not clear that his front running
transactions or the Fund’s purchase of Hull’s shares
actually caused investors any significant losses.
Second, Gibson’s lack of remorse must be seen in
context. Throughout this proceeding, the Division has
claimed that: Gibson misled investors by telling them
that he still had faith in TRX even though he privately
believed it was failing; and gave Hull a “sweetheart”
deal by dumping his shares on the Fund after the
415 See, e.g., Dial, 757 F.2d at 168–70; D’Alessio, 2003 WL

1787291, at *3.
416 The puts Gibson purchased for Francesca Marzullo

might be different, although the record is not entirely clear. On
the one hand, she was not a Fund investor and owned no TRX
shares in late October and early November 2011, which suggests
that her puts were not hedges. And although Gibson testified
that he purchased Ms. Marzullo’s puts to hedge her father’s
position in the Fund, he later lost her profits in other options
trades.
This fact diminishes the credibility of Gibson’s
explanation. On the other hand, these facts are not strictly
contradictory: it is possible that Gibson purchased the puts to
hedge Giovanni Marzullo’s position in the Fund and later
decided to risk the profits in other trades.

93a
decision had been made to exit TRX.417 At times, the
Division has also suggested that by purchasing puts,
Gibson was taking a short position in TRX.418 The
record does not support these claims. I therefore do
not hold against Gibson his vigorous defense of these
particular charges. Still, Gibson’s reckless disregard
of his fiduciary duties is on its own a serious matter
which he has failed to acknowledge.
Finally, Gibson ended up in a nearly impossible
situation as investment adviser to the Fund. No one
presented evidence about why he left Deutsche Bank
in early 2009, but within a year after he left, he found
himself, at about 27 years of age, “managing” a $32
million fund involving not just his father’s business
partner, Hull, but also Hull’s contemporaries and
their children, and Gibson’s family and his girlfriend’s
family.
Gibson only received this opportunity because
Hull was his father’s business partner. And although
Gibson’s name was on Fund documents, Gibson knew
Hull was the Fund’s ultimate decision-maker and
that he was not in a position to question Hull’s
judgment.419 Moreover, Hull enjoyed the respect of a
large portion of his community. The pressure all of
this might have placed on Gibson was evidenced at
417 See, e.g., Div. Br. 3–4, 19–21, 24–25.
418 See OIP ¶ 45; Tr. 49, 301–03.
419 Hull described himself as irascible. Tr. 568, 583. From

watching his testimony and demeanor, that description is apt. It
is clear that he has little tolerance for incompetence. Given this
trait plus Hull’s forceful personality, experience, and standing in
his community and among his peers, it would have been difficult
for Gibson—at age 26 or 27 with no prior advisory experience—
to question Hull’s judgment if he disagreed with Hull.

94a
times in Gibson’s over-the-top and desperate
sounding e-mail and phone communications.
What’s more, this opportunity came with a
significant string attached. Gibson and his family
had to be all in. Hull required Gibson and his family
to be aligned with Hull and the Fund. As a condition
to managing the Fund, Hull required Gibson to invest
his entire net worth in the Fund, and even loaned him
money to do so, which increased the pressure on
him.420 This meant that if the Fund’s investments
declined, Gibson and those close to him would feel
that decline the most. Gibson recalled that Hull
required:
that at all times, over any period of time -- a
year, a month, a week, a day, an hour -- at
every point in time, that if the securities or
investments that we owned in that fund
declined, I would lose more than other investors
and that the individuals close to me and
everything that mattered to me in my life
would be exposed in that regard.421
And when Gibson wanted to repay Hull’s loan, Hull
refused to let him.422 Additionally, in late 2010, Hull
decided to invest all the Fund’s money in one stock,
TRX, which made Gibson’s fortunes even more
precarious.423
In hindsight, the problems with this situation are
obvious. The entire setup created a conflict of interest
420 Div. Ex. 24 at 1, 7; Resp’t Ex. 117 at 5; Tr. 1358–59.
421 Tr. 1358.
422 Tr. 1360.
423 See Tr. 1366–67.

95a
between Gibson and the Fund. But at the time and
given Gibson’s circumstance, it is not difficult to
understand how Gibson ended up in the situation that
led to this proceeding. Gibson’s reckless violations of
his fiduciary duties to mitigate his losses cannot be
excused, but should be seen in context.
Gibson’s lapses of judgment were serious. He
cannot, at this time, be permitted to remain in the
securities industry. But because of the mitigating
factors I’ve noted, I will give him the opportunity to
return. I impose full industry bars under Advisers
Act Section 203(f) and a prohibition under Investment
Company Act Section 9(b), with the right to reapply
for reentry after three years for both sanctions.
2. Cease-and-desist order.
Exchange Act Section 21C and Advisers Act
Section 203(k) authorize the Commission to issue a
cease-and-desist order against any respondent who
violates a provision of those acts or a rule
promulgated under them.424 The public interest
factors discussed above inform the decision whether
The
to impose a cease-and-desist order.425
Commission also considers “whether the violation is
recent, the degree of harm to investors or the
marketplace resulting from the violation, and the
remedial function to be served by the cease-anddesist order in the context of any other sanctions
being sought in the same proceedings.”426 No single
424 15 U.S.C. §§ 78u-3(a), 80b-3(k)(1).
425 KPMG Peat Marwick LLP, Exchange Act Release No.

43862, 2001 WL 47245, at *23 & n.114, *26 (Jan. 19, 2001), pet.
denied, 289 F.3d 109 (D.C. Cir. 2002); see Dembski, 2017 WL
1103685, at *14.
426 KPMG Peat Marwick, 2001 WL 47245, at *26.

96a
factor in this analysis is dispositive, and the entire
record is considered when deciding whether to issue a
cease-and-desist order.427
To issue a cease-and-desist order, “there must be
some likelihood of future violations.”428 But the “risk”
of future violations “need not be very great to warrant
issuing a cease-and-desist order. Absent evidence to
the contrary, a finding of violation raises a sufficient
risk of future violation.”429
Giving the length of time this case has been
pending, Gibson’s violations are not recent. Although
his failures to remediate his conflicts of interest did
not necessarily cause his client to lose money, an
adviser who fails to address conflicts of interest poses
a risk to the securities industry as a whole. Moreover,
Gibson has shown no remorse, and until he fully
understands the need to take his fiduciary duties
more seriously, there remains a risk of future
violations. In combination with the other sanctions
imposed, a cease-and-desist order is warranted.
3. Disgorgement.
Advisers Act Section 203(j) and (k)(5), Exchange
Act Sections 21B(e) and 21C(e), and Investment
Company Act Section 9(e) authorize disgorgement,
including reasonable interest, in this proceeding.430
“Disgorgement is an equitable remedy designed to
deprive a wrongdoer of his unjust enrichment and to

427

Id.

428 Id. at *24.
429 Id.; see also id. at *26.
430 15 U.S.C. §§ 78u-2(e), 78u-3(e), 80a-9(e), 80b-3(j), (k)(5).

97a
deter others from violating the securities laws.”431 To
establish the appropriate amount of disgorgement,
the Division need show only “a reasonable
approximation of profits causally connected to the
violation” in question.432
Ordinarily, once the
Division makes the required showing, the burden
shifts to the respondent to show that the
disgorgement figure was not a reasonable
approximation.433
The Division seeks disgorgement of the losses
Gibson avoided by selling the TRX shares in his
personal account on September 26, 2011, as well as
the profits he made from the purchase of $4 put
options in his own account in October and November
2011.434
The Division wants Gibson to disgorge $1,080 for
the September front running. This sum represents
the difference between the price he obtained per share
on September 26 for the 2,000 personal shares ($4.04),
and the price he would have obtained had he sold on
September 27 directly following the Fund’s sale, when
he would have received 54 cents less per share

431 Montford, 2014 WL 1744130, at *22 (quoting SEC v.

First City Fin. Corp., 890 F.2d 1215, 1230 (D.C. Cir. 1989)).
432 First City Fin., 890 F.2d at 1231; see also Montford & Co.

v. SEC, 793 F.3d 76, 83–84 (D.C. Cir. 2015).
433 SEC v. Calvo, 378 F.3d 1211, 1217 (11th Cir. 2004).
434 Div. Br. 40. The Division does not ask that Gibson

disgorge the losses he avoided in September by selling the shares
in Ms. Marzullo’s account or the shares in the Geier Group
account that belonged to him because of his 50% ownership of
the entity. See id. at 41. The Division also does not request that
Gibson disgorge any profits realized on puts other than his own.

98a
($3.50).435 This figure represents a reasonable
approximation of the losses Gibson avoided, because
in the analogous insider trading context, “the proper
amount of disgorgement is generally the difference
between the value of the shares when the insider sold
them while in possession of the material, nonpublic
information, and their market value ‘a reasonable
time after public dissemination of the inside
information.’”436 Although Gibson could have sold his
shares at any time, such as when TRX was slightly
higher at the end of October, he testified that he sold
when he did to obtain liquidity due to his suspension
of management fees, which shows he would not have
wanted to wait much longer to sell.437 The Division
has therefore met its burden of showing that $1,080
is a reasonable approximation of the amount by which
Gibson was enriched but-for his front running.438
Gibson does not attempt to rebut the Division’s
reasonable approximation.
Gibson also does not dispute that he sold his $4
TRX puts for $81,930 more than he purchased
them.439 These profits are causally connected to his
violation; had he refrained from purchasing the puts
or obtained independent advice as his fiduciary
obligations demanded, he would not have made the
435 Div. Br. 41; see Tr. 234–35.
436 SEC v. Happ, 392 F.3d 12, 31 (1st Cir. 2004) (quoting

SEC v. MacDonald, 699 F.2d 47, 54–55 (1st Cir. 1983) (en banc));
see also SEC v. Patel, 61 F.3d 137, 139 (2d Cir. 1995).

437 Tr. 1394; see Joint Ex. 1 at 5.
438 See Jay T. Comeaux, Securities Act Release No. 9633,

2014 WL 4160054, at *3 (Aug. 21, 2014) (requiring but-for
causation for disgorgement).
439 Tr. 330.

99a
profits from the puts which mitigated his losses in the
Fund. I will, however, deduct the broker commissions
he paid to sell his puts.440 Gibson must therefore
disgorge his $81,008.81 net profit from his sale of the
$4 puts.441
In total, Gibson must disgorge $82,088.81, plus
prejudgment interest as calculated according to the
ordering paragraphs below.442
4. Civil penalties.
Exchange Act Section 21B(a)(2) and Advisers Act
Section 203(i)(1)(B) authorize civil penalties in ceaseand-desist proceedings against a respondent who has
violated a provision of those acts or a rule promulgated
under them.443 Investment Company Act Section
9(d)(1)(A) and Advisers Act Section 203(i)(1)(A)
authorize civil penalties against a respondent who
has willfully violated a provision of the Advisers Act or
Exchange Act, or a rule promulgated under them, if a
penalty is in the public interest.444
The statutes set out a three-tiered system for
determining the maximum monetary penalty for each
act or omission constituting a violation.445 First-tier
440 The Division deducts broker commissions from the

requested disgorgement amount. See Div. Br. 41–42. This
deduction of “expenses customarily incurred in the purchase and
sale of stock” is permissible. See SEC v. JT Wallenbrock &
Assocs., 440 F.3d 1109, 1114 (9th Cir. 2006).
441 Div. Ex. 185 at 47 (Dr. Gibbons’s calculation of Gibson’s

net profits).
442 17 C.F.R. § 201.600(a) (requiring the payment of

prejudgment interest on disgorgement ordered).
443 15 U.S.C. §§ 78u-2(a)(2), 80b-3(i)(1)(B).
444 15 U.S.C. §§ 80a-9(d)(1)(A), 80b-3(i)(1)(A).
445 15 U.S.C. §§ 78u-2(b), 80a-9(d)(2), 80b-3(i)(2).

100a
penalties are available based on the fact of the
Second-tier penalties are
violation alone.446
permitted if a respondent’s misconduct involved
fraud, deceit, manipulation, or deliberate or reckless
disregard of a regulatory requirement.447 Third-tier
penalties require the additional finding that the
misconduct, directly or indirectly, resulted in either
“substantial losses or created a significant risk of
substantial losses to other persons” or “substantial
pecuniary gain to the person who committed the act
or omission.”448 For the time period from March 4,
2009, to March 5, 2013—when Gibson’s misconduct
occurred—the maximum first-, second-, and third-tier
penalties for each violation are, respectively, $7,500,
$75,000, and $150,000 for a natural person.449
When determining whether civil penalties are in
the public interest, the Commission considers six
factors listed in the securities statutes: (1) whether
the violation involved fraud, deceit, manipulation, or
deliberate or reckless disregard of a regulatory
requirement; (2) the resulting harm, directly or
indirectly, to other persons; (3) any unjust enrichment
and prior restitution; (4) whether the respondent has
prior violations of the securities laws; (5) the need to
deter the respondent and other persons, and (6) such
other matters as justice may require.450

446 15 U.S.C. §§ 78u-2(b)(1), 80a-9(d)(2)(A), 80b-3(i)(2)(A).
447 15 U.S.C. §§ 78u-2(b)(2), 80a-9(d)(2)(B), 80b-3(i)(2)(B).
448 15 U.S.C. §§ 78u-2(b)(3), 80a-9(d)(2)(C), 80b-3(i)(2)(C).
449 17 C.F.R. § 201.1001, tbl. I; see 15 U.S.C. §§ 78u-2(b),

80a-9(d)(2), 80b-3(i)(2).
450 15 U.S.C. §§ 78u-2(c), 80a-9(d)(3), 80b-3(i)(3).

101a
The Division requests second-tier penalties for
Gibson’s reckless front running violations, which I
agree are justified given that his violations of the
relevant laws were willful and committed with
scienter.451 Considering the public interest, Gibson
recklessly deceived the Fund by using its confidential
information. The Division has not shown that the
violations harmed investors monetarily, although
they unjustly enriched Gibson. Gibson also has no
prior convictions or securities law violations. Still, he
must be deterred from further violations, and others
in the industry must realize that front running is a
serious offense that is actionable under the securities
laws. Commensurate with the disgorgement amount
imposed, I impose two second-tier penalties totaling
$82,000, comprised of $41,000 for Gibson’s September
26 front running, and $41,000 for all of his put
transactions and recommendations.
The Division argues that Gibson’s conduct
regarding the Hull transaction deserves third-tier
penalties because it burdened the Fund with
additional TRX stock that it sold at a loss on
November 10, which means that the Fund’s investors
lost a substantial sum.452 It was not clear at the
outset, however, that the transaction was to the
Fund’s detriment. To the contrary, Bystrom opined
that the purchase could have aided the Fund.453 And
Gibson believed that consolidation would encourage a
buyer to come forward. When Gibson engaged in the
451 See SEC v. M & A W. Inc., 538 F.3d 1043, 1054 (9th

Cir. 2008) (“[T]he imposition of second-tier penalties requires an
assessment of scienter.”).
452 Div. Br. 43.
453 Tr. 1567; Resp’t Ex. 228 at 6.

102a
Hull transaction, he did not know that TRX’s share
price would fall farther, and most importantly, he had
no plans to sell the Fund’s shares into the market,
which precipitated the tremendous decline in TRX’s
value. And it is possible that the Hull transaction
could have saved the Fund money; it prevented Hull
from separately selling his personal shares into the
market at some point and depressing the price of TRX.
I will impose second-tier penalties for this instance of
reckless misconduct.
Regarding the public interest, as noted, it is
difficult to measure the harm, if any, that Gibson’s
reckless conduct caused to the Fund and its investors.
Further, unlike with the front running violations,
Gibson was not unjustly enriched in this transaction.
And Gibson believed he was looking after the Fund’s
best interests.
Thus, even though Gibson’s
compliance with his fiduciary duties was severely
wanting, I impose a reduced second-tier penalty of
$20,000, for total civil penalties of $102,000.454
5. Gibson has ability to pay monetary sanctions.
In determining whether disgorgement, interest, or
monetary penalties are in the public interest, the
Commission or its administrative law judges may
consider evidence concerning ability to pay.455
Considering this evidence is an exercise of discretion,
and even if the Commission considers ability to pay,

454 Cf. Rockies Fund, Inc., Exchange Act Release No. 54892,

2006 WL 3542989, at *7 (Dec. 7, 2006) (imposing only mid- to
upper-level second tier penalties, despite the seriousness of the
fraud, as there was no harm to investors or unjust enrichment),
pet. denied, 298 F. App’x 4 (D.C. Cir. 2008).
455 17 C.F.R. § 201.630(a).

103a
it “is only one factor . . . and is not dispositive.”456 A
respondent bears the burden of proving his inability
to pay.457
Gibson has not established that he is unable to pay
sanctions. His primary liabilities are large loans he
owes to his father.458 One loan is for some of the costs
John Gibson incurred in paying for Gibson’s legal
defense in this proceeding.459 The other is the loan
that Gibson originally owed to Hull and that he now
owes to his father after his father assumed his
obligation to Hull.460 Although both notes accrue
interest annually, they are only payable upon
demand, and so far, no demand has been made for the
principal or the interest.461 Gibson’s father could also
forgive the notes at any time.462 I will therefore
discount these liabilities in considering Gibson’s
ability to pay. Although Gibson has some credit card
debt, it appears to be short term. The documentation
Gibson provided for his credit card accounts is
deficient, but it appears he has not carried over a
significant credit card balance from month to

456 Thomas C. Bridge, Securities Act Release No. 9068, 2009

WL 3100582, at *25 (Sept. 29, 2009) (reserving power to impose
full sanction when conduct is sufficiently egregious), pet. denied
sub nom. Robles v. SEC, 411 F. App’x 337 (D.C. Cir. 2010).
457 Philip A. Lehman, Exchange Act Release No. 54660,

2006 WL 3054584, at *4 & nn.29–30 (Oct. 27, 2006).
458 See Gibson’s Form D-A at 3 (of 114) (August 25, 2019).
459 Div. Ex. 217; Tr. 1224–25.
460 Tr. 566.
461 Tr. 1228.
462 Tr. 1228.

104a
month.463 Similarly, although he has not yet paid his
2018 taxes, and he believes his liability will be
substantial, he is not carrying over any tax liability
from year to year.464
Gibson’s expenses between August 2018 and
August 2019 exceeded his income by a couple
thousand dollars.465 His salary from East Century
Capital fluctuates from year to year, and it is hard to
understand Gibson’s testimony about the amount he
has made and in what years he received such
income.466 He has not submitted any W-2s or other
tax forms that might help determine his exact
compensation. Nonetheless, in 2018 at least, his
income was well in excess of $100,000, which is
substantially higher than his average basic living
expenses.467 And given his age, education level,
ability to find work, and lack of dependents to
support, it is reasonable to assume that he will
continue to earn a sufficient income. Perhaps most
significantly, in addition to some cash on hand, he has
a large securities investment that alone could be sold
to pay a significant percentage of the disgorgement
and penalties I am ordering.468 For these reasons, I
reject Gibson’s inability-to-pay defense.

463 Compare Form D-A at 3 (of 114) (listing significant credit

card debt) with Resp’t Ex. 240 (relying on account statements
from early July 2019 and listing virtually no credit card debt).
464 Tr. 1505; Form D-A at 3, 26 (of 114).
465 Form D-A at 4–5 (of 114).
466 See Tr. 1498–1505.
467 Form D-A at 26 (of 114).
468 Id. at 3, 22 (of 114).

105a
Constitutional Issues
Gibson raised a number of constitutional
affirmative defenses in his answer to the OIP.469
Because Gibson did not address all of these defenses
in his prehearing brief, I asked his counsel during the
final prehearing conference which defenses were
actually at issue.470 Counsel reserved answering and
in advance of the merits hearing filed a letter
asserting
three
constitutional
defenses:
(1)
471
“Respondent has been denied due process,” (2) “the
appointment of the ALJ violates the [Constitution’s]
removal provisions,” and (3) Gibson “is entitled to a
trial by jury.”472
After the merits hearing, the parties filed a
stipulation in which they agreed that Gibson had
preserved these arguments and others not discussed
Although the
in Gibson’s counsel’s letter.473
Commission will decide what issues Gibson has
preserved and will ultimately decide those issues, I
include the following observations about the
469 Answer 11–13.
470 Prhr’g Tr. 24 (July 23, 2019).
471 This argument includes several

sub-arguments:
(1) unfairness because I am situated in the agency whose
officials allegedly engaged in misconduct in this case, (2) the lack
of counterclaims in Commission proceedings, (3) the lack of
discovery in Commission proceedings regarding alleged due
process violations, and (4) the Commission issued the OIP that
contained alleged misstatements of Division staff, but allowed
the OIP to be re-served after Lucia. Letter from Thomas A.
Ferrigno at 1 (July 28, 2019).
472 Id. at 1–3. Counsel’s letter also referenced a statute-of-

limitations defense. Id. at 4.
473 Jt. Stipulation at 1 (Aug. 27, 2019).

106a
constitutional issues raised in Gibson’s counsel’s July
28, 2019 letter in order to set those issues in context.
Throughout this proceeding Gibson has attempted
to raise a due process claim related to the Division’s
conduct when it took Hull’s February 2015
investigative testimony.474 Specifically, during Hull’s
investigative testimony, Division counsel defined a
short position as “borrowing stock and selling stock in
the hope that the stock’s price will decline.”475
Counsel then represented to Hull that “in October
and November 2011 . . . Gibson took a short position
in TRX in his” personal investment account.476 After
hearing this, Hull hit the roof and asked for a tolling
agreement with Gibson and his father so that he could
potentially sue them.477 Hull also spoke to other Fund
investors about what he learned.478 But when Hull
learned that Gibson had not taken a short position in
TRX, his views about Gibson and his put purchases
changed.479 No one who witnessed Hull’s testimony
during the merits hearing has any doubt that he
currently is more favorably inclined toward Gibson
and has a decidedly negative view of the Division’s
position and its attorneys.480

474 See Prehr’g Tr. 63 (July 9, 2019); see Opp’n to Mot. to

Preclude Testimony of Current and Former Division Counsel at
4–5, 10–15 (June 3, 2019).
475 Resp’t Ex. 187 at 37.
476 Id. at 43.
477 See Tr. 711–12.
478 Tr. 712.
479 Tr. 712.
480 See Tr. 1526–27.

107a
Believing the Division’s conduct during Hull’s
investigative testimony amounted to a due process
violation, Gibson listed three Division attorneys on
his witness list, explaining that he expected them to
testify about their “representations to James Hull
during his investigative testimony regarding short
sales and short positions in TRX securities by
Christopher Gibson.”481 The Division moved to bar
Gibson from calling its attorneys to testify and Gibson
opposed the Division’s motion.482 I granted the
Division’s motion because Gibson had not shown that
the testimony he sought from counsel was crucial or
unavailable from other sources.483 I did not, however,
rule on the validity of Gibson’s then-unspecified due
process claim.
Fast forward to early July 2019, when I heard oral
argument on the parties’ motions.
During the
argument, I asked Gibson’s counsel “what exactly is
your due process claim?”484 Counsel and I engaged in
an extended discussion during which the basis for
Gibson’s claim shifted.485
During the merits hearing, we again discussed
Gibson’s claim with reference to his counsel’s
letter.486 After some discussion, counsel stated that
Gibson’s due process claim had two parts, the first
being part of a systemic attack on Commission
481 Resp’t Witness List at 4 (May 10, 2019).
482 See Gibson, Admin. Proc. Rulings Release No. 6615,

2019 SEC LEXIS 1544, at *1 (ALJ June 28, 2019).
483 Id. at *10–11.
484 Prhr’g Tr. 63 (July 9, 2019).
485 Prhr’g Tr. 63–68 (July 9, 2019).
486 Tr. 1520–29.

108a
administrative proceedings and the second being that
the Division “soured” Hull toward Gibson.487 But
counsel conceded that however Hull may have
previously felt about Gibson, by the time of the
hearing, his “understanding of the situation . . . [was]
very different” from immediately after his
investigative testimony.488 After counsel seemed to
suggest that Hull’s former antipathy toward Gibson,
resulting from what Division counsel told him, might
have leaked to other witnesses, I remarked on the fact
that Gibson had presented no evidence on that
score.489 At that point, counsel stated that although
he needed to consult with his client, he was satisfied
with the record on the prejudice argument.490 Indeed,
Gibson did not raise the prejudice argument in his
briefing, and consistent with my order following the
parties’ joint stipulation on constitutional issues, I
need not say anything further on the matter.491
Similar to many respondents in recent
Commission administrative proceedings, Gibson also
argued that the tenure protections that apply to the
Commission’s administrative law judges violate the
487 Tr. 1523–25.
488 Tr. 1527.
489 Tr. 1527–28.
490 Tr. 1529, 1532. During the discussion, I disagreed with

counsel’s argument that respondents in Commission
administrative proceedings cannot obtain discovery relevant to
due process claims, pointing out that I had previously “granted
discovery on due process claims.” Tr. 1531; see Charles L. Hill,
Jr., Admin. Proc. Rulings Release No. 2706, 2015 SEC LEXIS
2016 (ALJ May 21, 2015). Counsel agreed that such discovery is
allowed. Tr. 1531–32.
491 See Gibson, 2019 SEC LEXIS 2319, at *1.

109a
Constitution’s separation of powers.492 I’ve previously
addressed and rejected this argument.493 In any
event, if either party appeals this initial decision, the
Commission will have the opportunity to decide the
issue.
Record Certification
I certify that the record includes the items set
forth in the record index issued by the Secretary of the
Commission on January 10, 2020, and five additional
items: (1) a letter dated July 28, 2019, from Thomas
A. Ferrigno to me concerning Gibson’s constitutional
challenges; (2) another letter dated July 28, 2019,
from Mr. Ferrigno concerning the admissibility of
Division Exhibits 183 and 183A; (3) a March 20, 2020
e-mail from Stephen J. Crimmins waiving paper
service of all opinions and orders; (4) a March 20, 2020
e-mail from Gregory R. Bockin also waiving paper
service; and (5) a stipulation and notice of parties’
agreement on service of papers dated March 23,
2020.494
Order
Under Section 21C of the Securities Exchange Act
of 1934 and Section 203(k) of the Investment Advisers
Act of 1940, Christopher M. Gibson must CEASE
492 See Letter from Thomas A. Ferrigno at 2–3 (July 28,

2019) (relying on Free Enter. Fund v. Pub.
Oversight Bd., 561 U.S. 477 (2010)).

Co. Accounting

493 See David Pruitt, CPA, Admin. Proc. Rulings Release No.

6675, 2019 SEC LEXIS 2850, at *1–24 (ALJ Sept. 16, 2019). In
that order, I also rejected a Seventh Amendment challenge. Id.
at *24–30 (discussing Atlas Roofing Co. v. Occupational Safety
and Health Review Comm’n, 430 U.S. 442 (1977) and
Granfinanciera, S.A. v. Nordberg, 492 U.S. 33 (1989)).
494 See 17 C.F.R. § 201.351(b).

110a
AND DESIST from committing any violations or
future violations of Section 10(b) of the Securities
Exchange Act of 1934 and Exchange Act Rule 10b-5(a)
and (c), and Section 206(1), (2) and (4) of the
Investment Advisers Act of 1940 and Advisers Act
Rule 206(4)-8.
Under Section 203(f) of the Investment Advisers
Act of 1940, Christopher M. Gibson is BARRED from
associating with an investment adviser, broker,
dealer, municipal securities dealer, municipal
advisor, transfer agent, or nationally recognized
statistical rating organization—with the right to
reapply for reentry after three years to the
appropriate self-regulatory organization, or if there is
none, to the Commission.
Under Section 9(b) of the Investment Company
Act of 1940, Christopher M. Gibson is PROHIBITED
from serving or acting as an employee, officer,
director, member of an advisory board, investment
adviser or depositor of, or principal underwriter for, a
registered investment company or affiliated person of
such investment adviser, depositor, or principal
underwriter—with the right to reapply for reentry
after three years to the appropriate self-regulatory
organization, or if there is none, to the Commission.
Under Sections 21B(e) and 21C(e) of the Securities
Exchange Act of 1934, Section 203(j) and (k)(5) of the
Investment Advisers Act of 1940, and Section 9(e) of
the Investment Company Act of 1940, Christopher M.
Gibson
must
DISGORGE
$82,088.81,
plus
prejudgment interest. The prejudgment interest
owed will be calculated from December 1, 2011, the
first day of the month following Gibson’s last
violation, to the last day of the month preceding the

111a
month in which payment of disgorgement is made.495
Prejudgment interest will be computed at the
underpayment rate of interest established under
Section 6621(a)(2) of the Internal Revenue Code, 26
U.S.C. § 6621(a)(2), and compounded quarterly.496
Under Section 21B(a) of the Securities Exchange
Act of 1934, Section 203(i) of the Investment Advisers
Act of 1940, and Section 9(d) of the Investment
Company Act of 1940, Christopher M. Gibson must
PAY A CIVIL MONEY PENALTY in the amount of
$102,000.
Payment of civil penalties, disgorgement, and
interest must be made no later than 21 days following
the day this initial decision becomes final, unless the
Commission directs otherwise. Payment must be
made in one of the following ways: (1) transmitted
electronically to the Commission, which will provide
detailed ACH transfer/Fedwire instructions upon
request; (2) direct payments from a bank account via
Pay.gov
through
the
SEC
website
at
http://www.sec.gov/ofm; or (3) by certified check, bank
cashier’s check, bank money order, or United States
postal money order made payable to the Securities
and Exchange Commission and hand-delivered or
mailed to the following address alongside a cover
letter identifying Respondent and Administrative
Proceeding No. 3-17184: Enterprise Services Center,
Accounts Receivable Branch, HQ Bldg., Room 181,
AMZ-341, 6500 South MacArthur Blvd., Oklahoma
495 See 17 C.F.R. § 201.600(a); see, e.g., Terence Michael

Coxon, Advisers Act Release No. 2161, 2003 WL 21991359, at
*14 (Aug. 21, 2003) (ordering “that the interest run from the date
of the last violation”), aff’d, 137 F. App’x 975 (9th Cir. 2005).
496 See 17 C.F.R. § 201.600(b).

112a
City, Oklahoma 73169. A copy of the cover letter and
instrument of payment must be sent to the
Commission’s Division of Enforcement, directed to
the attention of counsel of record.
This initial decision will become effective in
accordance with and subject to the provisions of Rule
360.497 Under that rule, a party may file a petition for
review of this initial decision within 21 days after
service of the initial decision. Under Rule of Practice
111, a party may also file a motion to correct a
manifest error of fact within ten days of the initial
decision.498 If a motion to correct a manifest error of
fact is filed by a party, then a party has 21 days to file
a petition for review from the date of the order
resolving such motion to correct a manifest error of
fact.
The initial decision will not become final until the
Commission enters an order of finality.
The
Commission will enter an order of finality unless a
party files a petition for review or motion to correct a
manifest error of fact or the Commission determines
on its own initiative to review the initial decision as
to a party. If any of these events occur, the initial
decision will not become final as to that party.

________________________
James E. Grimes
Administrative Law Judge
Served by e-mail on all parties.
497 See 17 C.F.R. § 201.360.
498 See 17 C.F.R. § 201.111.

113a
U.S. Const. art. II, § 1, cl. 1
Section 1. The executive Power shall be vested in
a President of the United States of America.
***
U.S. Const. art. II, § 2, cl. 2
Section 2.
***
He shall have Power, by and with the Advice and
Consent of the Senate, to make Treaties, provided two
thirds of the Senators present concur; and he shall
nominate, and by and with the Advice and Consent of
the Senate, shall appoint Ambassadors, other public
Ministers and Consuls, Judges of the supreme Court,
and all other Officers of the United States, whose
Appointments are not herein otherwise provided for,
and which shall be established by Law: but the
Congress may by Law vest the Appointment of such
inferior Officers, as they think proper, in the
President alone, in the Courts of Law, or in the Heads
of Departments.
***

114a
15 U.S.C. § 78d-1
§ 78d-1. Delegation of functions by Commission
(a) Authorization; functions delegable;
eligible persons; application of other
laws
In addition to its existing authority, the Securities
and Exchange Commission shall have the authority
to delegate, by published order or rule, any of its
functions to a division of the Commission, an
individual Commissioner, an administrative law
judge, or an employee or employee board, including
functions with respect to hearing, determining,
ordering, certifying, reporting, or otherwise acting as
to any work, business, or matter. Nothing in this
section shall be deemed to supersede the provisions of
section 556(b) of Title 5, or to authorize the delegation
of the function of rulemaking as defined in subchapter
II of chapter 5 of title 5, with reference to general
rules as distinguished from rules of particular
applicability, or of the making of any rule pursuant to
section 78s(c) of this title.
(b) Right of review; procedure
With respect to the delegation of any of its
functions, as provided in subsection (a) of this section,
the Commission shall retain a discretionary right to
review the action of any such division of the
Commission,
individual
Commissioner,
administrative law judge, employee, or employee
board, upon its own initiative or upon petition of a
party to or intervenor in such action, within such time
and in such manner as the Commission by rule shall
prescribe. The vote of one member of the Commission
shall be sufficient to bring any such action before the
Commission for review. A person or party shall be

115a
entitled to review by the Commission if he or it is
adversely affected by action at a delegated level which
(1) denies any request for action pursuant to section
77h(a) or section 77h(c) of this title or the first
sentence of section 78l(d) of this title; (2) suspends
trading in a security pursuant to section 78l(k) of this
title; or (3) is pursuant to any provision of this chapter
in a case of adjudication, as defined in section 551 of
title 5, not required by this chapter to be determined
on the record after notice and opportunity for hearing
(except to the extent there is involved a matter
described in section 554(a)(1) through (6) of such
title 5).
(c) Finality of delegated action
If the right to exercise such review is declined, or
if no such review is sought within the time stated in
the rules promulgated by the Commission, then the
action of any such division of the Commission,
individual Commissioner, administrative law judge,
employee, or employee board, shall, for all purposes,
including appeal or review thereof, be deemed the
action of the Commission.

116a
15 U.S.C. § 78y
§ 78y. Court review of orders and rules
(a) Final
Commission
orders;
persons
aggrieved; petition; record; findings;
affirmance, modification, enforcement, or
setting aside of orders; remand to adduce
additional evidence
(1) A person aggrieved by a final order of the
Commission entered pursuant to this chapter may
obtain review of the order in the United States Court
of Appeals for the circuit in which he resides or has
his principal place of business, or for the District of
Columbia Circuit, by filing in such court, within sixty
days after the entry of the order, a written petition
requesting that the order be modified or set aside in
whole or in part.
(2) A copy of the petition shall be transmitted
forthwith by the clerk of the court to a member of the
Commission or an officer designated by the
Commission for that purpose.
Thereupon the
Commission shall file in the court the record on which
the order complained of is entered, as provided in
section 2112 of title 28 and the Federal Rules of
Appellate Procedure.
(3) On the filing of the petition, the court has
jurisdiction, which becomes exclusive on the filing of
the record, to affirm or modify and enforce or to set
aside the order in whole or in part.
(4) The findings of the Commission as to the
facts, if supported by substantial evidence, are
conclusive.
(5) If either party applies to the court for leave to
adduce additional evidence and shows to the
satisfaction of the court that the additional evidence

117a
is material and that there was reasonable ground for
failure to adduce it before the Commission, the court
may remand the case to the Commission for further
proceedings, in whatever manner and on whatever
conditions the court considers appropriate. If the case
is remanded to the Commission, it shall file in the
court a supplemental record containing any new
evidence, any further or modified findings, and any
new order.
(b) Commission rules; persons adversely
affected; petition; record; affirmance,
enforcement, or setting aside of rules;
findings; transfer of proceedings
(1) A person adversely affected by a rule of the
Commission promulgated pursuant to section 78f,
78i(h)(2), 78k, 78k-1, 78o(c)(5) or (6), 78o-3, 78q, 78q1, or 78s of this title may obtain review of this rule in
the United States Court of Appeals for the circuit in
which he resides or has his principal place of business
or for the District of Columbia Circuit, by filing in
such court, within sixty days after the promulgation
of the rule, a written petition requesting that the rule
be set aside.
(2) A copy of the petition shall be transmitted
forthwith by the clerk of the court to a member of the
Commission or an officer designated for that purpose.
Thereupon, the Commission shall file in the court the
rule under review and any documents referred to
therein, the Commission’s notice of proposed
rulemaking and any documents referred to therein,
all written submissions and the transcript of any oral
presentations in the rulemaking, factual information
not included in the foregoing that was considered by
the Commission in the promulgation of the rule or
proffered by the Commission as pertinent to the rule,

118a
the report of any advisory committee received or
considered by the Commission in the rulemaking, and
any other materials prescribed by the court.
(3) On the filing of the petition, the court has
jurisdiction, which becomes exclusive on the filing of
the materials set forth in paragraph (2) of this
subsection, to affirm and enforce or to set aside the
rule.
(4) The findings of the Commission as to the facts
identified by the Commission as the basis, in whole or
in part, of the rule, if supported by substantial
evidence, are conclusive. The court shall affirm and
enforce the rule unless the Commission’s action in
promulgating the rule is found to be arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law; contrary to constitutional right,
power, privilege, or immunity; in excess of statutory
jurisdiction, authority, or limitations, or short of
statutory right; or without observance of procedure
required by law.
(5) If proceedings have been instituted under
this subsection in two or more courts of appeals with
respect to the same rule, the Commission shall file the
materials set forth in paragraph (2) of this subsection
in that court in which a proceeding was first
instituted. The other courts shall thereupon transfer
all such proceedings to the court in which the
materials have been filed. For the convenience of the
parties in the interest of justice that court may
thereafter transfer all the proceedings to any other
court of appeals.

119a
(c) Objections not urged before Commission;
stay of orders and rules; transfer of
enforcement or review proceedings
(1) No objection to an order or rule of the
Commission, for which review is sought under this
section, may be considered by the court unless it was
urged before the Commission or there was reasonable
ground for failure to do so.
(2) The filing of a petition under this section does
not operate as a stay of the Commission’s order or
rule. Until the court’s jurisdiction becomes exclusive,
the Commission may stay its order or rule pending
judicial review if it finds that justice so requires.
After the filing of a petition under this section, the
court, on whatever conditions may be required and to
the extent necessary to prevent irreparable injury,
may issue all necessary and appropriate process to
stay the order or rule or to preserve status or rights
pending its review; but (notwithstanding section 705
of title 5) no such process may be issued by the court
before the filing of the record or the materials set forth
in subsection (b)(2) of this section unless: (A) the
Commission has denied a stay or failed to grant
requested relief, (B) a reasonable period has expired
since the filing of an application for a stay without a
decision by the Commission, or (C) there was
reasonable ground for failure to apply to the
Commission.
(3) When the same order or rule is the subject of
one or more petitions for review filed under this
section and an action for enforcement filed in a
district court of the United States under section
78u(d) or (e) of this title, that court in which the
petition or the action is first filed has jurisdiction with
respect to the order or rule to the exclusion of any

120a
other court, and thereupon all such proceedings shall
be transferred to that court; but, for the convenience
of the parties in the interest of justice, that court may
thereafter transfer all the proceedings to any other
court of appeals or district court of the United States,
whether or not a petition for review or an action for
enforcement was originally filed in the transferee
court. The scope of review by a district court under
section 78u(d) or (e) of this title is in all cases the same
as by a court of appeals under this section.
(d) Other appropriate regulatory agencies
(1) For purposes of the preceding subsections of
this section, the term “Commission” includes the
agencies enumerated in section 78c(a)(34) of this title
insofar as such agencies are acting pursuant to this
chapter and the Secretary of the Treasury insofar as
he is acting pursuant to section 78o-5 of this title.
(2) For purposes of subsection (a)(4) of this
section and section 706 of title 5, an order of the
Commission pursuant to section 78s(a) of this title
denying registration to a clearing agency for which
the Commission is not the appropriate regulatory
agency or pursuant to section 78s(b) of this title
disapproving a proposed rule change by such a
clearing agency shall be deemed to be an order of the
appropriate regulatory agency for such clearing
agency insofar as such order was entered by reason of
a determination by such appropriate regulatory
agency pursuant to section 78s(a)(2)(C) or 78s(b)(4)(C)
of this title that such registration or proposed rule
change would be inconsistent with the safeguarding
of securities or funds.

121a
15 U.S.C. § 80a-42
§ 80a-42. Court review of orders
(a) Any person or party aggrieved by an order
issued by the Commission under this subchapter may
obtain a review of such order in the United States
court of appeals within any circuit wherein such
person resides or has his principal place of business,
or in the United States Court of Appeals for the
District of Columbia, by filing in such court, within
sixty days after the entry of such order, a written
petition praying that the order of the Commission be
modified or set aside in whole or in part. A copy of
such petition shall be forthwith transmitted by the
clerk of the court to any member of the Commission
or any officer thereof designated by the Commission
for that purpose, and thereupon the Commission shall
file in the court the record upon which the order
complained of was entered, as provided in section
2112 of title 28. Upon the filing of such petition such
court shall have jurisdiction, which upon the filing of
the record shall be exclusive, to affirm, modify, or set
aside such order, in whole or in part. No objection to
the order of the Commission shall be considered by
the court unless such objection shall have been urged
before the Commission or unless there were
reasonable grounds for failure so to do. The findings
of the Commission as to the facts, if supported by
substantial evidence, shall be conclusive.
If
application is made to the court for leave to adduce
additional evidence, and it is shown to the satisfaction
of the court that such additional evidence is material
and that there were reasonable grounds for failure to
adduce such evidence in the proceeding before the
Commission, the court may order such additional

122a
evidence to be taken before the Commission and to be
adduced upon the hearing in such manner and upon
such terms and conditions as to the court may seem
proper. The Commission may modify its findings as
to the facts by reason of the additional evidence so
taken, and it shall file with the court such modified or
new findings, which, if supported by substantial
evidence,
shall
be
conclusive,
and
its
recommendation, if any, for the modification or
setting aside of the original order. The judgment and
decree of the court affirming, modifying, or setting
aside, in whole or in part, any such order of the
Commission shall be final, subject to review by the
Supreme Court of the United States upon certiorari
or certification as provided in section 1254 of title 28.
(b) The commencement of proceedings under
subsection (a) to review an order of the Commission
issued under section 80a-8(e) of this title shall operate
as a stay of the Commission’s order unless the court
otherwise orders. The commencement of proceedings
under subsection (a) to review an order of the
Commission issued under any provision of this
subchapter other than section 80a-8(e) of this title
shall not operate as a stay of the Commission’s order
unless the court specifically so orders.

123a
15 U.S.C. § 80b-13
§ 80b-13. Court review of orders
(a) Petition;
jurisdiction;
findings
of
Commission; additional evidence; finality
Any person or party aggrieved by an order issued
by the Commission under this subchapter may obtain
a review of such order in the United States court of
appeals within any circuit wherein such person
resides or has his principal office or place of business,
or in the United States Court of Appeals for the
District of Columbia, by filing in such court, within
sixty days after the entry of such order, a written
petition praying that the order of the Commission be
modified or set aside in whole or in part. A copy of
such petition shall be forthwith transmitted by the
clerk of the court to any member of the Commission,
or any officer thereof designated by the Commission
for that purpose, and thereupon the Commission shall
file in the court the record upon which the order
complained of was entered, as provided in section
2112 of title 28. Upon the filing of such petition such
court shall have jurisdiction, which upon the filing of
the record shall be exclusive, to affirm, modify, or set
aside such order, in whole or in part. No objection to
the order of the Commission shall be considered by
the court unless such objection shall have been urged
before the Commission or unless there were
reasonable grounds for failure so to do. The findings
of the Commission as to the facts, if supported by
substantial evidence, shall be conclusive.
If
application is made to the court for leave to adduce
additional evidence, and it is shown to the satisfaction
of the court that such additional evidence is material
and that there were reasonable grounds for failure to

124a
adduce such evidence in the proceeding before the
Commission, the court may order such additional
evidence to be taken before the Commission and to be
adduced upon the hearing in such manner and upon
such terms and conditions as to the court may seem
proper. The Commission may modify its findings as
to the facts by reason of the additional evidence so
taken, and it shall file with the court such modified or
new findings, which, if supported by substantial
evidence,
shall
be
conclusive,
and
its
recommendation, if any, for the modification or
setting aside of the original order. The judgment and
decree of the court affirming, modifying, or setting
aside, in whole or in part, any such order of the
Commission shall be final, subject to review by the
Supreme Court of the United States upon certiorari
or certification as provided in section 1254 of title 28.
(b) Stay of Commission’s order
The commencement of proceedings under
subsection (a) shall not, unless specifically ordered by
the court, operate as a stay of the Commission’s order.

125a
28 U.S.C. § 1331
§ 1331. Federal question
The district courts shall have original jurisdiction
of all civil actions arising under the Constitution,
laws, or treaties of the United States.

126a
17 C.F.R. § 201.360
§ 201.360 Initial decision of hearing officer and
timing of hearing.
(a)(1) When required. Unless the Commission
directs otherwise, the hearing officer shall prepare an
initial decision in any proceeding in which the
Commission directs a hearing officer to preside at a
hearing, provided, however, that an initial decision
may be waived by the parties with the consent of the
hearing officer pursuant to § 201.202.
(2) Time period for filing initial decision and for
hearing—(i) Initial decision. In the order instituting
proceedings, the Commission will specify a time
period in which the hearing officer’s initial decision
must be filed with the Secretary. In the Commission’s
discretion, after consideration of the nature,
complexity, and urgency of the subject matter, and
with due regard for the public interest and the
protection of investors, this time period will be either
30, 75, or 120 days. The time period will run from the
occurrence of the following events:
(A) The completion of post-hearing briefing in a
proceeding where the hearing has been completed; or
(B) The completion of briefing on a § 201.250
motion in the event the hearing officer has
determined that no hearing is necessary; or
(C) The determination by the hearing officer
that, pursuant to § 201.155, a party is deemed to be
in default and no hearing is necessary.
(ii) Hearing. Under the 120-day timeline, the
hearing officer shall issue an order scheduling the
hearing to begin approximately four months (but no
more than ten months) from the date of service of the
order instituting the proceeding. Under the 75-day

127a
timeline, the hearing officer shall issue an order
scheduling the hearing to begin approximately 2½
months (but no more than six months) from the date
of service of the order instituting the proceeding.
Under the 30-day timeline, the hearing officer shall
issue an order scheduling the hearing to begin
approximately one month (but no more than four
months) from the date of service of the order
instituting the proceeding. These deadlines confer no
substantive rights on respondents. If a stay is
granted
pursuant
to
§ 201.161(c)(2)(i)
or
§ 201.210(c)(3), the time period specified in the order
instituting proceedings in which the hearing officer’s
initial decision must be filed with the Secretary, as
well as any other time limits established in orders
issued by the hearing officer in the proceeding, shall
be automatically tolled during the period while the
stay is in effect.
(3) Certification of extension; motion for extension.
(i) In the event that the hearing officer presiding over
the proceeding determines that it will not be possible
to file the initial decision within the specified period
of time, the hearing officer may certify to the
Commission in writing the need to extend the initial
decision deadline by up to 30 days for case
management purposes. The certification must be
issued no later than 30 days prior to the expiration of
the time specified for the issuance of an initial
decision and be served on the Commission and all
parties in the proceeding. If the Commission has not
issued an order to the contrary within 14 days after
receiving the certification, the extension set forth in
the hearing officer’s certification shall take effect.
(ii) Either in addition to a certification of
extension, or instead of a certification of extension,

128a
the Chief Administrative Law Judge may submit a
motion to the Commission requesting an extension of
the time period for filing the initial decision. First,
the hearing officer presiding over the proceeding must
consult with the Chief Administrative Law Judge.
Following
such
consultation,
the
Chief
Administrative Law Judge may determine, in his or
her discretion, to submit a motion to the Commission
requesting an extension of the time period for filing
the initial decision. This motion may request an
extension of any length but must be filed no later than
15 days prior to the expiration of the time specified in
the certification of extension, or if there is no
certification of extension, 30 days prior to the
expiration of the time specified in the order
instituting proceedings. The motion will be served
upon all parties in the proceeding, who may file with
the Commission statements in support of or in
opposition to the motion.
If the Commission
determines that additional time is necessary or
appropriate in the public interest, the Commission
shall issue an order extending the time period for
filing the initial decision.
(iii) The provisions of this paragraph (a)(3) confer
no rights on respondents.
(b) Content. An initial decision shall include
findings and conclusions, and the reasons or basis
therefor, as to all the material issues of fact, law or
discretion presented on the record and the
appropriate order, sanction, relief, or denial thereof.
The initial decision shall also state the time period,
not to exceed 21 days after service of the decision,
except for good cause shown, within which a petition
for review of the initial decision may be filed. The
reasons for any extension of time shall be stated in

129a
the initial decision. The initial decision shall also
include a statement that, as provided in paragraph (d)
of this section:
(1) The Commission will enter an order of
finality as to each party unless a party or an
aggrieved person entitled to review timely files a
petition for review of the initial decision or a motion
to correct a manifest error of fact in the initial decision
with the hearing officer, or the Commission
determines on its own initiative to review the initial
decision; and
(2) If a party or an aggrieved person entitled to
review timely files a petition for review or a motion to
correct a manifest error of fact in the initial decision
with the hearing officer, or if the Commission takes
action to review as to a party or an aggrieved person
entitled to review, the initial decision shall not
become final as to that party or person.
(c) Filing, service and publication.
The
Secretary shall promptly serve the initial decision
upon the parties and shall promptly publish notice of
the filing thereof on the SEC website; provided,
however, that in nonpublic proceedings no notice
shall be published unless the Commission otherwise
directs.
(d) Finality. (1) If a party or an aggrieved person
entitled to review timely files a petition for review or
a motion to correct a manifest error of fact in the
initial decision, or if the Commission on its own
initiative orders review of a decision with respect to a
party or a person aggrieved who would be entitled to
review, the initial decision shall not become final as
to that party or person.

130a
(2) If a party or aggrieved person entitled to
review fails to file timely a petition for review or a
motion to correct a manifest error of fact in the initial
decision, and if the Commission does not order review
of a decision on its own initiative, the Commission will
issue an order that the decision has become final as to
that party. The decision becomes final upon issuance
of the order. The order of finality shall state the date
on which sanctions, if any, take effect. Notice of the
order shall be published on the SEC website.

